<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Publishing Office]


<DOC>
 
                      ENERGY AND WATER DEVELOPMENT
                        APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT

                JOSEPH M. McDADE, Pennsylvania, Chairman

HAROLD ROGERS, Kentucky              VIC FAZIO, California
JOE KNOLLENBERG, Michigan            PETER J. VISCLOSKY, Indiana
RODNEY P. FRELINGHUYSEN, New Jersey  CHET EDWARDS, Texas
MIKE PARKER, Mississippi             ED PASTOR, Arizona
SONNY CALLAHAN, Alabama              
JAY DICKEY, Arkansas                 

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
 Committee, and Mr. Obey, as Ranking Minority Member of the Full 
 Committee, are authorized to sit as Members of all Subcommittees.

 James D. Ogsbury, Bob Schmidt, Jeanne Wilson, and Donald M. McKinnon, 
                            Staff Assistants
                                ________

                                 PART 6

                          DEPARTMENT OF ENERGY
                                                                   Page
Environmental Management and Commercial Waste Management..........    1
Nuclear Waste Technical Review Board..............................  466
Atomic Energy Defense Activities..................................  481
Defense Nuclear Facilities Safety Board........................... 1006

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 40-970 O                   WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          






                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 1998

                              ----------                              

                                         Wednesday, March 12, 1997.

  ENVIRONMENTAL MANAGEMENT AND NUCLEAR WASTE DISPOSAL BUDGET OVERVIEW

                               WITNESSES

ALVIN L. ALM, ASSISTANT SECRETARY FOR ENVIRONMENTAL MANAGEMENT
LAKE H. BARRETT, ACTING DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE WASTE 
    MANAGEMENT
HOWARD R. CANTER, ACTING DIRECTOR, OFFICE OF FISSILE MATERIALS 
    DISPOSITION

                            Opening Remarks

    Mr. McDade [presiding]. The Committee will come to order.
    We're happy to see a familiar face around the corridors of 
the Capitol, and we're delighted to see you, Al, and delighted 
to have you here, accompanied by Lake Barrett. We're delighted 
to have you here, Mr. Barrett.
    May I say to you that we would suggest that you file your 
formal statement with the committee, and for the record it will 
be well-studied, and that you summarize in your own fashion 
informally what you want us to hear.
    Mr. Alm, you're recognized, please.

                    Oral Statement of Mr. Alvin Alm

    Mr. Alm. Thank you, Mr. Chairman and members of the 
committee.
    First, I wanted to indicate how much I appreciate the 
support this committee has given to the EM program over the 
years, and I'd also like to compliment the very quality of the 
staff who have been really very good to deal with.
    Our fiscal year 1998 budget is a transitional one. We're 
shifting from a program that was projected to span many decades 
to one focusing on cleaning up most of the sites within a 
decade. What I'd like to do briefly this morning is to describe 
where the program has been and where it's going.
    The EM program exploded in the late 1980s and early 1990s. 
It grew from, I believe, $2.2 billion to $5.5 billion over that 
period of time. At one time the program was estimated to rise 
to $10 billion annually, but then a period of fiscal stringency 
came in and people realized that those levels wouldn't be 
possible.
    From 1993 to 1996, a series of reforms were initiated. 
Incentive-based contracts were completed at all the major 
sites, Oak Ridge being the last, and that proposal is in draft 
right now.
    There have been substantial reductions in costs by working 
with regulators and contractors, and real progress in getting 
work done in the field. This allows us to begin to think about 
completion of cleanup at our major sites.

                   environment management challenges

    Now let me mention the three challenges to the DOE program. 
First of all, we have extremely hazardous materials; for 
example, high-level radioactive wastes in hundreds of large 
underground tanks, plutonium scattered around many, many 
buildings in some of our facilities. Secondly, we have 
extremely high fixed costs, and these fixed costs are necessary 
in order to conduct our operation safely and securely. And we 
have a series of regulatory agreements between DOE and the 
State and EPA at each of our sites. In addition, we have a 
Defense Nuclear Facilities Safety Board. So we have a lot of 
people involved in the program, and State and EPA agreements 
are enforceable. So from time to time, we face some penalties.
    In order to achieve the 10-year goal, three elements are 
going to be necessary. One is stable funding over a substantial 
number of years; second, substantial efficiency improvements, 
and, third, privatization. The purpose of this hearing is to 
talk about funding. So I'd like to focus on that and the other 
elements that are necessary to achieve our goal.
    First is productivity. We're initiating a whole series of 
efforts which are described in my testimony, and I won't go 
through them now, but they're all designed to make our program 
more efficient. We are going to be setting two bottom-line 
goals. One is, to the extent possible, we're going to try to 
reduce support costs at each one of our facilities, the 
contractor support costs at 30 percent of the total. In other 
words, we will be moving people out of support, nonproductive 
work, into cleanup.
    We're also going to be setting overall efficiency targets 
based on industry learning curves at the site. So for each of 
the 10 years we'll be looking for continuous improvement in 
efficiency.

                             privatization

    Let me turn now to privatization. Privatization is key to 
our total program. Of the dollar amounts of the budget 
authority requested for 1998, 75 percent of the $1 billion is 
related to compliance, near-term compliance agreements. 
Privatization, as we define it, represents a form of project 
financing that's used increasingly in other fields to finance 
power plants, waste water treatment, et cetera.
    In DOE, under privatization, the private sector will 
finance and construct projects under competitive conditions. 
The government does not pay until a product or service is 
actually delivered.
    There are two major advantages to privatization. First, 
privatized projects will be cheaper than the projects that 
would have been conducted if the management and operating 
contractors conducted them. That's merely because of 
competition.
    Second, privatization allows us to initiate projects 
earlier, thereby helping reduce mortgages. If we did not have 
the privatization program, many of the projects that we're 
requesting to be privatized would have to be added back into 
our base budget. That would mean that a number of other 
compliance activities would fall off the table, and it would 
also mean that we'd have to allocate funds among the sites. 
Privatization really allows us to move ahead with some 
substantial projects. It would be very difficult without it.
    The appropriations and authorization requested is an amount 
sufficient to cover termination, if termination occurred at the 
convenience of the government. The outlays occur in the years 
when the product or services are actually delivered.
    All the steps I've talked about are designed to allow us to 
accelerate the program. As they're successful,then we will be 
able to invest funds by moving projects up and reducing the fixed costs 
in the new projects. So it has a spiraling effect.

                      the fiscal year 1998 budget

    The fiscal year 1998 budget includes $5.8 billion for 
regular conventional budget authority, $477 million to forward-
fund or completely fund a number of construction projects, and 
$1.6 billion for the privatization projects. I should add that, 
although that looks like a big increase, if one looks at the 
outlays, the actual program level, our program budget is going 
down since 1996. The outlays in that year were $7.2 billion, 
and we're looking at roughly $6 billion for 1997 and 1998.
    Our budget has really three goals for 1998. First is reduce 
the most urgent risks, and these include the two spent fuel 
facilities, moving ahead on the Hanford tanks, all designed to 
deal with real risk; secondly, reduce mortgage and support 
costs. The B Plant at Hanford, by accelerating that program, we 
will save $75 million in surveillance and maintenance costs by 
accelerating that for three years. At Rocky Flats, by cleaning 
out the buildings, we will reduce the long-term babysitting 
cost of that facility. And, third, compliance and safety, we 
have a series of compliance agreements that we're legally 
committed to. We work with the States continually on modest 
provisions, but, in total, I expect the Department to meet its 
legal obligations. Second, we have obligations arising out of 
safety, needs identified by the Defense Nuclear Facilities 
Safety Board.
    Let me just conclude by saying that I think funding this 
program is very important for one reason, and that is that it 
will have a real impact on reduction the obligation on our 
children and grandchildren. I'm a strong proponent of deficit 
reduction, and I think that controlling the deficit is 
absolutely critical. But one of the major purposes of deficit 
reducing is to reduce this burden, and I feel that the extent 
to which we pass on the burdens of a deteriorating system with 
high fixed costs, while it is working, it is counterproductive 
to our deficit-reducing goals.
    Thank you very much for this opportunity, Mr. Chairman. I'm 
willing to answer any questions you may have.
    [The prepared statement of Mr. Alm follows:]

[Pages 4 - 41--The official Committee record contains additional material here.]


    Mr. McDade. We'll probably have a flock of them for you. We 
thank you for a fine statement and for your efforts at bringing 
both competition and innovation into the system. We appreciate 
it very much.
    Mr. Barrett, we'll be delighted to hear from you now.

                   Oral Statement of Mr. Lake Barrett

    Mr. Barrett. Thank you very much, Mr. Chairman, and good 
morning to members of the committee. I appreciate the 
opportunity to appear before you today to discuss our 1998 
budget request and our plans to maintain the momentum toward 
the development of a federal radioactive waste management 
system to effectively and responsibly manage the spent nuclear 
fuel and high-level radioactive waste in our country today.
    I'm pleased to report that within our existing authorities 
we made significant progress since we last reported to this 
committee. We have put forth and are implementing a credible 
plan that maintains the progress toward a national decision on 
the geologic disposal option. Almost all of our funding for 
fiscal year 1997 was allocated to, and is being utilized by, 
the Yucca Mountain Project, which is expected to achieve all of 
its annual targets.
    As directed by Congress, we did not provide funding for 
oversight to the State of Nevada and affected local units of 
local government, and we reduced the program management costs 
by eliminating work not directly associated with our site-
characterization efforts at Yucca Mountain for non-site-
specific storage activities.

                    fiscal year 1997 accomplishments

    Now I'd like to describe the progress we have been making 
with our fiscal year 1997 appropriation. At Yucca Mountain, we 
have nearly completed construction of the five-mile underground 
exploratory studies facility, which is providing scientists 
with access to the repository setting, where they can directly 
observe the geologic and hydrologic features of the Yucca 
Mountain site and conduct tests in the rock under simulated 
repository conditions. Thus far, we have found nothing to 
indicate that the Yucca Mountain site would be unsuitable for a 
permanent geologic repository. The tunnel-boring machine has 
passed through the repository horizon, has made the turn, and 
is proceeding up the south ramp, and is now approximately 200 
meters from the south portal. We expect to break out of the 
mountain within the next four weeks.
    The emphasis of the underground work now shifts to 
investigations of the Ghost Dance Fault, a principal geologic 
feature in the repository setting, hydrologic testing, and 
thermal testing, which simulates the heat of spent nuclear fuel 
in a repository environment. Construction is now underway on 
the northern and southern Ghost Dance Fault alcoves, which will 
provide important information about that fault.

                   yucca mountain viability assesment

    We're also placing considerable emphasis on the completion 
of the Yucca Mountain viability assessment. The viability 
assessment will provide policymakers information about the 
probability that a repository is a viable undertaking. By 
drawing on a decade or more of data-gathering and by placing 
emphasis upon the most significant remaining issues, we can 
provide a better understanding of the repository design and its 
performance in a geologic setting, a better appreciation of the 
remaining work needed to prepare a license application, and 
more accurate estimates of the cost of repository construction 
and operation. When completed in 1998, the viability assessment 
will be an early and integral step in the path to preparing a 
repository Environmental Impact Statement and a license 
application. This committee's support of our fiscal year 1998 
budget request will enable us to complete this important 
activity.

                      commercial waste acceptance

    Now I'd like to address the area of waste acceptance. Last 
summer the U.S. Court of Appeals held that an obligation has 
been created for the Department of Energy in return for payment 
of fees by utilities that contracted for disposal services, to 
start disposing of spent nuclear fuel no later than January 31, 
1998. We formally notified standard contract-holders by letter 
on December 17, 1996, that the Department would be unable to 
begin acceptance of their spentnuclear fuel in either a 
repository or an interim storage facility by that date and invited 
contract-holders to provide their views by March 14 on how the delay 
can best be accommodated. Once we've had an opportunity to analyze 
those views and conduct a dialog with the contract-holders, we will be 
in a better position to determine our next steps.
    In the non-site-specific interim storage area we have also 
made considerable progress. In accordance with direction from 
the administration and the Congress, we started to conduct non-
site-specific safety design and engineering analyses for a 
possible interim storage facility to reduce the facility 
licensing time once a site is designated.
    An example of this activity is the generic topical safety 
analysis report. The report is on schedule to be submitted to 
the Nuclear Regulatory Commission this May and will contain the 
necessary required analyses and evaluations to demonstrate that 
the operation of the facility would not endanger the health and 
safety of the public.
    In the area of transportation during the past year, we have 
begun development of a market-driven approach that will rely on 
the maximum use of private industry capabilities, expertise, 
and experience to accept and transport commercial spent nuclear 
fuel to the federal receiving facility.
    In the program management area we have restructured our 
program management funding allocation in 1997 and our request 
in 1998, in accordance with congressional guidance in the 
Fiscal Year 1997 Appropriations Act. Since last year we have 
completed a realignment of our program management organization, 
strengthened our capabilities at headquarters and in the field 
to more effectively monitor and maintain our progress. We have 
provided greater management attention to key scientific and 
engineering issues relating to the repository viability 
assessment.

                    fiscal year 1998 budget request

    Now I would like to turn on how we plan to use the 1998 
budget request. The President's budget request is $380 million 
for fiscal year 1998 and is consistent with the policy that 
this committee and the Congress directed in the Fiscal Year 
1997 Appropriations Act. Of the $380 million request, $325 
million will be used by the Yucca Mountain Site 
Characterization Project. Of the remaining funds, $10 million 
would be to fund the waste acceptance storage and 
transportation activities and $45 million for required program 
management activities.
    The source of the funds requested is to be equally divided 
between $190 million from the Nuclear Waste Fund and $190 
million from the Defense Nuclear Waste appropriation.
    The $325 million we are requesting for Yucca Mountain will 
be used to address the remaining scientific and technical 
uncertainties regarding the construction and operation of a 
repository at Yucca Mountain. We will apply most of the fiscal 
year 1998 funding toward completing the repository viability 
assessment and continuing work on the Environmental Impact 
Statement and license application.
    In fiscal year 1998 our budget request includes resources 
to initiate additional underground exploration in an east-west 
excavation to further reduce the technical uncertainties about 
the site and to improve our understanding of the processes in 
Yucca Mountain that are important to the performance and 
construction of a repository.
    The 1998 budget request also includes funding for the State 
of Nevada and affected units of local government that are 
affected by our site characterization activities at the Yucca 
Mountain site. These payments are provided for in section 
116(c) of the Nuclear Waste Policy Act. We continue to believe 
that such support is important to enable local governments most 
directly affected by the activities at the Yucca Mountain site 
to remain informed and to participate in a meaningful way in 
the day-to-day program activities that may affect them.
    The fiscal year 1998 request of $325 million will allow us 
to maintain momentum toward a national decision on the geologic 
disposal option by funding activities that are necessary to do 
the following:
    Number One, complete the viability assessment in 1998.
    Number Two, update the regulatory framework to focus the 
Yucca Mountain site suitability evaluation on safety and 
environmental performance and to reduce redundant activities.
    Number Three, publish an environmental impact statement in 
the year 2000.
    Number Four, recommend a repository site to the President 
in 2001, if the site is suitable, and submit a license 
application to the Nuclear Regulatory Commission for 
construction of a repository in 2002.
    And, Number Five, begin placement of nuclear waste in a 
geologic repository in 2010, if the Commission grants the 
license to proceed with operations.
    Now shifting to the area of waste acceptance, storage, and 
transportation, the budget request is $10 million and includes 
funding for our ongoing generic responsibilities concerning 
commercial spent fuel and long-lead-time activities that must 
precede the removal of spent nuclear fuel from reactor sites 
once a federal facility becomes available.
    During the year we will seek to work with the standard 
contract-holders to discuss and develop strategies to mitigate 
the consequences relating to our inability to accept waste in 
January 1998. We will continue the effort to develop our 
market-driven approach for waste acceptance, storage, and 
transportation. We will work with the Nuclear Regulatory 
Commission to address any safety questions they may have 
regarding the interim storage topical safety analysis report 
that we will submit this coming May, and we will continue to 
plan for the provision of technical and financial assistance 
under current law to States and Indian tribes for emergency 
response training for public safety officials, through whose 
jurisdiction shipments of nuclear fuel and high-level waste 
will be transported.
    In the program management area, our request reflects the 
continued response to your direction to reduce budget elements 
related to general and project management activities not 
directly associated with the performance of site 
characterization or waste acceptance planning. Consequently, 
the program management request of $45 million is $2 million 
less than what we have in 1997.

                               conclusion

    In conclusion, I would like to make the following remarks. 
Your approval of our 1998 budget request will allow us to 
maintain the momentum we have gained over the last two years 
toward completion of the viability assessment. At the proposed 
funding level, we will also be able to maintain the capability 
to respond to any new policy direction that results from the 
debate on interim storage. And, finally, we will be able to 
complete and fully benefit from the significant changes we have 
made to strengthen and reduce the cost of the program 
management activities.
    I thank you and I'm pleased to answer any questions the 
committee may have.
    [The prepared statement of Mr. Barrett follows:]

[Pages 46 - 63--The official Committee record contains additional material here.]


                             ten-year plan

    Mr. McDade. Mr. Barrett, thank you for a fine statement, 
and no doubt we'll be back to you before the morning of the day 
is finished.
    Mr. Alm, let me begin by asking you what you estimate the 
total cost of the cleanup program to be, how many years it will 
take, and what the impact on those estimates might be from the 
10-year plan.
    Mr. Alm. Well, Mr. Chairman, we are in the process right 
now of evaluating our field submissions. The field provided us 
submissions on February 28, and we hope to get the draft 10-
year plan out around March 30.
    What we're doing right now is taking a look at two things. 
One is, can we sequence the projects better? And, two, we must 
begin to set the efficiency goals that I talked about. I can 
say in general terms I think that most sites will be able to 
meet the 10-year period. I think the exceptions are Savannah 
River, Hanford, Idaho--all of which have high-level waste 
problems--and Oak Ridge, which has just so many different 
activities.
    I do think it's very important, though, that we have a 
couple of elements managed. One, of course, is that, from our 
management point of view, we manage these funds in a way that 
we get continuous improvement, just like you'd see in the 
private sector. And, secondly, as I mentioned, the 
privatization will be of great help to us in achieving the 
overall objective.
    Mr. McDade. What do you estimate the cost to be, the total 
cleanup cost?
    Mr. Alm. I think if I gave you an estimate now--if I could, 
as soon as we come up with a number, I'd be glad to get back to 
the committee.
    Mr. McDade. And that would be about the end of the month? 
Is that what you're thinking?
    Mr. Alm. Yes.
    Mr. McDade. All right, you can furnish it for the record, 
if you would, and also communicate directly, if you will, with 
the staff.
    [The information follows:]

                           Total Cleanup Cost

    The most-recently released Department of Energy estimate 
for the total cost of cleanup was the 1996 Baseline 
Environmental Management Report, which estimated life cycle 
costs between $189 and $289 billion over a 75-year period. The 
Department is now in the process of compiling and evaluating 
draft Ten-Year Plans submitted by our Operations Offices on 
February 28, 1997. These plans will be rolled up into a Draft 
National Ten Year Plan, to be released for public comment this 
Spring. We anticipate significant reductions in total costs and 
acceleration of cleanup project dates as part of this ten-year 
planning effort.

    Mr. McDade. What about length of time for completion of 
cleanup?
    Mr. Alm. Well, as I indicated, with most sites we'll be 
able to meet the 10-year period. The ones that will take the 
longest dates are for the high-level facilities at both 
Hanford----
    Mr. McDade. Give us an estimate of the number of years to 
clean up those high-level sites.
    Mr. Alm. At Idaho and Hanford it could be halfway through 
the next century. That's a long period of time. There are some 
major choices that have to be made on exactly how we are going 
to do this. At Idaho it's a question about whether we continue 
calcining or putting the waste in one stable form, which then 
would require them to dissolve then to vitrify. So we've got 
some major issues, but in general terms, when you think about 
most of the things that can be done, you can get an awful lot 
done within 10 years, and certainly a great deal done after 
that. I would expect Oak Ridge to be done within 15 years. And 
it's a high-level waste program, and I could give you estimates 
now, but there are so many decisions to be made down the road 
that are going to change things----
    Mr. McDade. Well, we're just trying to get a handle on what 
it looks like, your crystal ball looks like today as we meet 
here at 10:25.
    Mr. Alm. That's the reason I think a 10-year plan is so 
important, because we'll lay this out to the public.
    Mr. McDade. Okay, let me ask a question. Is this data 
that's coming in about the end of the month, is that based on 
the 10-year plan being in place or is it based on just the 
generalization in terms of the cost and the time, et cetera?
    Mr. Alm. It is based on, for most sites, how they would 
achieve cleanup within 10 years. We've used two funding 
scenarios, one at a constant $6 billion a year and one at $5.5 
billion. So we will be able to get a feel for how much that 
funding difference will make in the program in terms of 
reducing mortgages and lowering the total cost.
    Mr. McDade. And we all agree with that general objective of 
trying to get those fixed costs down.
    Mr. Alm. Can I just make one last comment?
    Mr. McDade. Please do, yes.
    Mr. Alm. In the past there was a tendency to merely add up 
all the ``requirements,'' but I think we have an obligation to 
manage the program. One way to make history is to affect 
history, and we really want to manage this program, get it 
efficient enough that we can move everything. You can talk 
about some substantial differences, if you're aggressive.

          accomplishments of environmental management program

    Mr. McDade. And let me say to you that the committee is 
highly interested and commends you for your efforts at 
tryingto, as I say, introduce the competition, get this thing speeded 
up, put the money into the cleanup rather than in, as you call it, the 
mortgage costs. We have some questions about how we're going to get 
there.
    Let me ask you this, and this is one that I hear a lot from 
colleagues. Since 1992, $34 billion has been invested in this 
program. What's been accomplished? What can we tell the public, 
the taxpayers, and our colleagues on the floor has been 
accomplished by the expenditure of this money?
    Mr. Alm. Mr. Chairman, I think the best way, actually, to 
get a feel for this is to go to the sites, and we always love 
to have Members, if they have that opportunity. But let me take 
a few sites. Let's take Hanford. We are finishing 
immobilization of the Purex facility, which will save around 
$35 million a year. We moved some areas off the National 
Priorities List at Hanford. We've got a huge waste disposal 
cell developed, and that's helping the remediation program move 
ahead. We have about finished a dry storage facility, and that 
will allow us to take the spent fuel rods from the K Basin and 
put them into a stable configuration.
    At Savannah River we have the world's largest vitrifier at 
the Defense Waste Processing Facility, DWPF. It's amazing, you 
use acronyms and you forget what they stand for.
    Mr. McDade. It happens to us all the time. [Laughter.]
    Mr. Alm. That's the largest vitrifier, and although it's 
not without problems, we are vitrifying a lot of logs. 
Likewise, we have a vitrifier working at West Valley. At Rocky 
Flats we've stabilized a very large amount of plutonium 
liquids. At Idaho we will have finished calcining the non-
sodium waste in 1998. At every one of our sites you see a lot 
of activity.
    In 1995 we had a crossover. Prior to that, in the 
remediation program we had more studies than cleanup. That 
crossed over in 1995 and we continue to do more of our work in 
the field and not in the office.
    Mr. McDade. For which we offer you our commendation and our 
thanks.
    You can amplify, if you like, that statement for the 
record, so that we can be rather precise about how we respond 
to that question from a lot of different quarters. As you can 
imagine, we hear it a lot.
    [The information follows:]

[Pages 67 - 69--The official Committee record contains additional material here.]


                            outyear funding

    Mr. McDade. Do you think this program is going to run along 
at $6, $7 billion a year?
    Mr. Alm. Mr. Chairman, I'm not sure I'm the person to ask 
that question to. I think, seriously, I think that stability 
for the program is very, very important. The $7 billion is a 
little misleading because of the large budget authority for 
privatization and the forward funding. But I think deciding on 
a stable funding level and then managing against that has a lot 
of attractiveness.
    Mr. McDade. Yes, well, what--casting aside the people you 
have to contend with at OMB and other places, what is your 
personal opinion of what the effective level has to be on an 
annual basis?
    Mr. Alm. I think the level in the 1998 budget--I'm not just 
saying this--is an adequate level. I mean, you can moderate 
that between privatization and nonprivatization, but----
    Mr. McDade. Yes, so assuming you have a number like that, 
and thanks to your initiatives, a 10-year goal out there, after 
the $60 or the $70 billion, what does your crystal ball tell 
you then? Where are we going to be in 10 years?
    Mr. Alm. At that time we'll have, for many of the sites, 
continued low-level surveillance and maintenance. We can't just 
walk away from these sites. We'll still have the bulk of the 
high-level waste program to go. We will have about half the 
TRU-wastes into the Waste Isolation Pilot Plant. Low-level 
waste will be generated some from time to time. All the mixed 
low-level waste should be taken care of by then.
    Mr. McDade. What would you estimate--the ratio now, as 
you've described it, is about 70 percent fixed cost of the 
budget, about 30 percent cleanup, or somewhere in that----
    Mr. Alm. Well, no, it's not that bad, but it varies by 
site. It's certainly over 50 percent, and at some sites----
    Mr. McDade. That's a generalization.
    Mr. Alm. Yes. At some sites it's as high as 70 percent.
    Mr. McDade. After 10 years, if that degree of funding 
occurs, what would you expect to be the fixed costs and the 
ratio of your fixed costs and cleanup?
    Mr. Alm. Well, actually, they'd be higher, because that's 
all you'd have is fixed cost, low level of maintenance. In 
other words, if you're done and all you have to do is monitor, 
that might all be----
    Mr. McDade. That's the low level, but not the high level.
    Mr. Alm. Okay, on the high level, I think that 30 percent 
we think is about as far as you can go. Thirty percent supports 
70 percent direct.
    Mr. McDade. Well, that's a reversal kind of where we are 
today?
    Mr. Alm. We're about 26 percent support today.

                       gao report on end land use

    Mr. McDade. GAO is arguing that there are assumptions made 
on end-land use that are made too late and it affects the 
project costs very substantially. Would you respond to that? 
I'm sure you've seen that GAO report.
    Mr. Alm. We've talked about that internally. The way this 
program has worked, and it's working right now in terms of the 
10-Year plan, land use and the cleanup set of activities go 
hand-in-hand. And let me give you some examples because the 
land use is very, very different, depending on where you are.
    Mr. McDade. Yes.
    Mr. Alm. At Rocky Flats, 19 miles from Denver, the idea is 
to get most of the buildings, and maybe all the buildings, off 
the site. At the other extreme, Savannah River would continue 
to be a federal reservation. So the goal there is mainly to 
decontaminate these buildings so they're very cheap to keep up 
and not necessarily demolish them.
    I'm not sure I know of anywhere where the land use is a 
serious problem impeding our ability to move ahead. The one 
site where there's no clear land use decision right now is Oak 
Ridge. In Oak Ridge, the State, DOE, and the stakeholders are 
working together to come up with a longer-term use plan for the 
facility and also cleanupstandards.
    Mr. McDade. I'll tell you what I wish you'd do. The GAO has 
a number of $600 million in potential savings, depending upon 
how this problem is worked out, and if you would take a look at 
it and give us your additional reply for the record, we would 
be appreciative.
    Mr. Alm. I'd be delighted to, Mr. Chairman.
    [The information follows:]

[Pages 72 - 73--The official Committee record contains additional material here.]


    Mr. McDade. I'd yield at this time to the gentleman from 
Indiana, Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, thank you very much. Mr. 
Chairman, I have a couple of questions I would appreciate if I 
could submit for the record.
    Mr. McDade. Without objection.

                          waste vitrification

    Mr. Visclosky. Mr. Alm, could you tell me what is involved 
in vitrifying waste? What is that?
    Mr. Alm. Well, vitrification is a thermal process where you 
basically take a waste, usually in a sludge-like composition, 
and you mix it with frit, which is crushed-up glass, and you 
heat it together, and what comes out is a borosilicate glass, 
and then you take that glass and you put it into a huge 
stainless steel container, which you then cover, weld, and 
store temporarily onsite. Ultimately, these casks or vessels 
will go to the Yucca Mountain site for permanent disposal.
    Mr. Visclosky. Let me ask, then, is there a difference 
between how you're approaching dealing with the waste at 
Savannah River and the waste at Hanford?
    Mr. Alm. At Savannah River the vitrification facility was 
designed by the M&O contractor and then constructed and built 
by the M&O contractor. At Hanford we have a major privatization 
effort, where we have a phase 1A for two contractors, Lockheed 
Martin and British Nuclear Fuels, Limited. Each will receive 
$27 million to do a pilot study, actually develop a pilot 
facility and a conceptual plan to go ahead. At that point, 
then, there will be a bid for one or two possibilities for 
treating low-level hazardous waste and treating high-level 
hazardous waste. So we could have one plant, two plants, and 
even three plants.
    The difference between what we did at Hanford compared to 
Savannah River, at Hanford we had a competitive contract, a 
privatization effort.
    Mr. Visclosky. At Savannah River?
    Mr. Alm. At Hanford.
    Mr. Visclosky. At Hanford, okay.
    Mr. Alm. At Hanford.
    Mr. Visclosky. So you had a competitive process at Hanford. 
Which technique is going to be more expensive, Hanford or 
Savannah River?
    Mr. Alm. We think that per unit that Hanford will be 
considerably cheaper. We had a previous estimate by an M&O to 
build a vitrification plant in Hanford. And it's hard to 
generalize because they're all different sizes, and et cetera. 
But that study indicated that the estimates we have now from 
the privatized contract are cheaper, and we've got better 
estimates at Idaho at the Advanced Mix Waste Treatment 
facility, where we have firm bids for the cleanup and a 
relatively recent estimate of what it would take for an M&O to 
do the work.
    Mr. Visclosky. Are you going to vitrify low-and high-level 
waste at Hanford?
    Mr. Alm. Yes, sir.
    Mr. Visclosky. And are you saying that, on a unit basis 
combining the two, the process will be cheaper at Hanford than 
it was at Savannah River?
    Mr. Alm. Yes, sir, that is our intent. I mean, we haven't 
got a firm bid yet. So I can't promise you, but that is the 
presumption.
    Mr. Visclosky. You mentioned the competitive process at 
Hanford. Was there not a competitive process at Savannah River?
    Mr. Alm. No, sir. The traditional approach from the early 
days of the Manhattan Project was to have large management and 
operation contractors. They conducted a lot of the work 
themselves or through their subcontractors without competitive 
bids. I can't swear that parts of it weren't competitive for 
some of the components, but the design and much of the work was 
done by the M&O.

                   interim storage and transportation

    Mr. Visclosky. Mr. Barrett, are there any significant 
technical obstacles that you're facing as far as transportation 
and the interim storage of the spent fuel? I'm especially 
interested on the transportation side.
    Mr. Barrett. The technology for transportation is well 
understood across the world. So I don't believe there are any 
substantial technical challenges on transportation. In this 
country there is not sufficient hardware presently built, 
designed or built, to sustain a large transportation initiative 
like we would have of nominally 3,000 extra tons per year. So 
several hundred million dollars worth of hardware would need to 
be built, but, from a technologicalpoint of view, no, I don't 
see anything that's a major issue there.

                  international disposal of spent fuel

    Mr. Visclosky. Would you compare for me our national 
nuclear waste disposal program with that of other nuclear-
producing countries? Highlight any particular differences.
    Mr. Barrett. They're fairly similar in that they all have 
the basic concept of deep geologic disposal. That is the end 
result in all the programs in all the world. Various nations 
have different schedules that they're proceeding along with the 
deep geologic disposal option. Many countries also have an 
interim storage concept in their national policies; Sweden 
comes to mind. Some countries also have reprocessing, such as 
the UK and the French, in their programs. But, basically, 
they're all, as far as the end result, pursuing geological 
repository.
    Mr. Visclosky. There's no country considering a permanent 
solution other than the deep geological repository?
    Mr. Barrett. None that I'm aware of.
    Mr. Visclosky. Mr. Chairman, I would thank you for the 
time.
    Mr. McDade. Thank you. I yield to the gentleman from 
Michigan.

                             ten-year plan

    Mr. Knollenberg. Mr. Chairman, thank you very much. I 
appreciate that. It has been an experience to get out and see 
some of these. I've been to Savannah, to Rocky, to Hanford. 
Until you see, I don't believe you really get a feel for what 
is taking place.
    I want to, first, thank both of you for agreeing to meet 
with me in my office on different occasions and to also just 
say I appreciate the hard work that you're both doing in terms 
of trying to bring to closure some of these sites. Now in your 
opening remarks, Mr. Alm, you mentioned, I think when the 
chairman questioned you about which of the major sites would 
not fit within the 10-year plan, I didn't hear you say Rocky. I 
assume Rocky Flats, then, is doable within the 10 years?
    Mr. Alm. In my opinion, it is, and I would certainly make 
every effort to make sure that Rocky finishes within a 10-year 
period. You've got a political consensus. You've got high risk 
and you've got very high fixed costs. So, for all those 
reasons, I think Rocky has very high priority.
    Mr. Knollenberg. I think the stars are lined up pretty well 
for Rocky Flats. So I appreciate hearing that.
    One of the things about the 10-year plan, I know it's 
frustrating to you because you've been very much involved in 
the architecture of this 10-year program, and one of the 
questions I have for you, though, is it's fine to have a 10-
year program, but when does the program start? In other words, 
when does the clock start ticking? Or, maybe more importantly, 
when does DOE start counting? Can you help us out just a little 
bit with how soon you expect the hammer to come down and we're 
off and running?
    Mr. Alm. Mr. Knollenberg, let me talk about end date first. 
The end date is 2006. So the 10-Year plan, in a sense, would 
cover the years 1997 and 1998. But in terms of a heavy lifting, 
I think we're going to really start with the 1998 budget, which 
is mainly pushing very hard to get our efficiency targets in 
place and beginning to sequence the projects in the most 
sensible way. So those activities are prospective.
    Mr. Knollenberg. So you still think it is doable within 
that timeframe that you just talked about.
    Mr. Alm. I do. It's not easy. It's going to take a lot of 
work, but----

                          project closure fund

    Mr. Knollenberg. In regard to that, let me question you on 
the closure. There's a provision in the report language of last 
year's bill that announced the closure fund. There is some $15 
million in that fund. The idea, obviously, is to accelerate 
precisely along the lines of what you've projected to clean up 
those sites in a priority fashion that appear to be the likely 
targets, Rocky being, obviously, one of the first in that 
regard.
    Do you have any views about--and I know that money was 
allocated this last year in certain sites, and Rocky was one of 
those; I believe Fernald was another; I think Hanford and 
Savannah were also involved. I guess my question is: why didn't 
you ask for, why didn't the administration ask for, more than 
$15 million this time, or are you looking elsewhere for that 
money to accelerate closure?
    Mr. Alm. The reason, Mr. Knollenberg, is that by the time 
we added up all the compliance requirements and Defense Nuclear 
Safety Board recommendations, the things that were more or less 
mandatory for safety, we didn't have a lot of room. But I will 
say this: that the $15 million will be very, very helpful.
    Mr. Knollenberg. It's money.
    Mr. Alm. Well, it's money, and----
    Mr. Knollenberg. But it's targeted.
    Mr. Alm. [continuing]. It's incentive, too.
    Mr. Knollenberg. Yes.
    Mr. Alm. It's incentive to get on with the job, and if you 
can show the sites where the contractors, the DOE people, the 
local constituencies want to move ahead, then there ought to be 
a reward for that.

                defense authorization act: section 3161

    Mr. Knollenberg. Yes, the criteria has to be met, the 
criteria set, and those specifics have to be met in order for 
it to become operable.
    On the matter of the section 3161, if we could just turn to 
that for a bit. The interest that I have in that is the so-
called--well, it's workforce restructuring, but it literally 
has to do with part of the Defense Authorization Act. We talked 
about before Cold War warriors, and we talked about how many of 
those Cold War warriors are still in the mix with all the folks 
out there, and has a reduction in so-called Cold War warriors 
reduced to a point now where it's kind of flat? What is the 
status of that?
    Mr. Alm. I don't honestly know. Can I provide that for the 
record? I've got presumptions, but I don't have the actual 
figures. It would be better to provide that.
    Mr. Knollenberg. All right, if you would.
    [The information follows:]

                 Nuclear Waste Management and Disposal

    From a peak of 148,700 prime contract employees at the end 
of Fiscal Year 1992, the Department's contractors separated 
about 37,000 employees through the end of Fiscal Year 1996, an 
average of over 9,300 employees per year. The Department does 
not currently maintain a comprehensive listing of separated 
contract workers by Cold War status. Therefore, these figures 
include both workers employed during and after the Cold War.

    Mr. Knollenberg. Do you believe that there may be a point 
to discontinuing the section 3161 program as it applies to this 
area?
    Mr. Alm. I don't have a firm opinion. I would say the 3161 
was a useful tool for a number of years in helping us 
transition the program, and that was a period of time when the 
reduction of contract personnel was very, very substantial. We 
see that as being less of a problem. So it is assuming 
something that you need to continually--one needs to 
continually think about, and we will do so.
    Mr. Knollenberg. We may want to think about retailoring it, 
though, in light of what is taking place?
    Mr. Alm. That's a possibility. Again, I would have to think 
about it some more.

                      waste isolation pilot plant

    Mr. Knollenberg. On the matter of WIPP, I'm very pleased 
that--I don't know why they call it the Waste Isolation Pilot 
Plant; WIPP sounds a lot simpler to me, but I know you've been 
very enthusiastic about--or at least you're optimistic about 
what you see as a realizable thing on the horizon. And my 
question has to do with the standards of the certification. I 
know we've talked about this before, but how long does EPA have 
to publish a final rule?
    Mr. Alm. Well, they are mandated to publish, I believe, a 
year after they've got a complete application, but my 
understanding----
    Mr. Knollenberg. And that was submitted in the fall of 
what, 1996, was it or----
    Mr. Alm. We submitted it--yes, we submitted it in the fall 
of 1996. So it would be November of 1997 when, if the 
application was completed, I would think that they would have 
to approve the certification. Where we stand with EPA is we've 
been working very closely with them. My sense is that we can 
get approval in early calendar year 1998. Maybe it will slip a 
few months.
    Mr. Knollenberg. Who authorizes the startup on that? Is 
that the Secretary or is that you?
    Mr. Alm. I am presuming it's the Secretary, once we get the 
certification. We also need a RCRA, Resource Conservation and 
Recovery Act, permit.
    Mr. Knollenberg. So there are other permits outstanding as 
well?
    Mr. Alm. That should be no problem. And then there's a 
final Environmental Impact Statement. Again, that's under our 
control. So the EPA certification is the major--not roadblock, 
but the major step to finishing this. Now the only other thing 
that one always has to think of in this day and age is 
litigation.
    Mr. Knollenberg. Would that be considered a show-stopper, 
litigation?
    Mr. Alm. Yes, sir, it could be, but, hopefully, we're not 
going to have litigation, or if we have litigation, we'll be 
successful. I must say that we've gone to great pains to meet 
all the procedural and substantive requirements. We have and 
EPA has, and I'm confident that we'll do that. But it's 
certainly something we think about all the time.
    Mr. Knollenberg. I want to ask you also--I'm sorry.
    Mr. Alm. I'm just saying that opening WIPP is absolutely 
critical to this program, to the credibility of the program, to 
meeting compliance agreements. If we don't open WIPP, we're out 
of compliance with the Idaho agreement; on the other sites, 
Rocky Flats, Los Alamos, we're expecting to ship waste. And, 
finally, what it does to the credibility of an effort to try 
and get this program moving would be devastating.

                        fast flux test facility

    Mr. Knollenberg. Let me ask a final question at the moment 
in this round. I know that the prior Secretary of Energy 
announced that the FFTF, the Fast Flux Test Facility--you 
really have to be careful when you pronounce that one.
    Mr. Alm. Right. [Laughter.]
    Mr. Knollenberg. She announced that it would be at the 
Hanford site that they're going to maintain a hot standby 
condition. I'm not real sure what that means, and isn't the 
whole thing in a decommission mode rather than keeping it in 
hot standby?
    Mr. Alm. The Environmental Management Program had been in 
the process of decommissioning the facility. The Secretary made 
the decision to leave the FFTF open as an option, which meant 
that we would not drain the tanks. We are continuing to do some 
decommissioning work which would be necessary--excuse me, 
decontamination and stabilization work that would need to be 
conducted anyway. The money for so-called landlord costs we 
will transfer.
    Mr. Knollenberg. What does ``hot standby'' mean, though? 
What does it really mean? It seems to me if you're 
decommissioning something, you've got to reverse field and 
reactivate--what does it mean?
    Mr. Alm. Hot standby is that it could be turned over for 
the purpose. That's my understanding of the term. Also, in this 
case there is a certain amount of real heat that's applied to 
the sodium. So maybe that's----
    Mr. Knollenberg. But to keep something in a hot standby 
condition or status, you're not decommissioning it then, are 
you?
    Mr. Alm. Yes, it means that it could be used for another 
purpose. For example, the Defense Nuclear Facilities Safety 
Board asked that we keep one of our Savannah River canyons in 
hot standby. The term in that case meant that it could be 
activated.
    Mr. Knollenberg. Right, that's the one I was referring to.
    Mr. Alm. And in this case the FFTF is open as an option for 
producing tritium, along with two other options.
    Mr. Knollenberg. Well, thank you, Mr. Chairman, and thank 
you, Mr. Alm. I have questions for Mr. Barrett, if we have 
time, but I'll more than certainly submit some other questions 
for the record, if that would be acceptable.
    Mr. McDade. Without objection.
    Mr. Knollenberg. Thank you.

                      hazardous waste legislation

    Mr. McDade. The Chair recognizes the gentleman from Texas.
    Mr. Edwards. Thank you, Mr. Chairman. Thank you both for 
being here today.
    Mr. Alm, let me ask some very basic questions. What law is 
it that specifically dictates what the end product must be at 
each of these cleanup sites? For example, let's use Hanford as 
the focus on my questions. Specifically, does it have to be so 
clean that you can build an elementary school on that site, or 
does it have to just be not a serious threat to the public in 
the vicinity? What law is it that sets the standards?
    Mr. Alm Well, first of all, we deal with a number of laws 
with respect to hazardous waste, and we have plenty of 
hazardous waste at our facilities. And this includes CERCLA, 
the Superfund Act, and RCRA. Then, as I indicated before, we 
are somewhat regulated by the Defense Nuclear Facilities Safety 
Board. They don't have regulatory authority, but they have 
strong recommending authority.
    But, beyond that, for portions of our activities, we're 
self-regulating, but we work very, very closely with the State 
and EPA--and these tripartite agreements in general are really 
the factors that govern the cleanup.
    Mr. Edwards. So do you have quite a bit of leeway in 
determining what the end product must be?
    Mr. Alm. Well, we have leeway to negotiate with the State 
and the EPA. Let me give you an example, because it was one of 
the most recent compliance agreements, and I signed it.
    At Rocky Flats, first of all, a contractor can develop a 
proposal to clean up much faster. That, then, was reviewed by a 
group that created a vision for the site, and these were the 
stakeholders, the outside citizens around the site, public 
officials, et cetera. The vision, then, was translated into a 
compliance agreement, and there was one issue that was not 
included in the compliance issue, which was the soil release 
standards which occurred under a separate regulatory approval.
    But what I'm telling you is that, for every one of our 
sites, the final result relies heavily on interaction between 
the regulatory agencies and the stakeholders, and we've found 
that it's very difficult to proceed with any credibility 
without the support of stakeholders.
    Mr. Edwards. Let me ask--the point I want to eventually get 
to is this: I understand it could cost $30 to $40 billion for 
construction and life cycle costs at Hanford, and just assume 
that's a ball park figure. And this may be heretical to some, 
but I wonder if you look at the enormous cost to clean up at 
some of these sites, does there come a point at which we draw 
the line and literally build a fence around so many acres of 
property, and that what's left is not a threat to the public, 
but you certainly wouldn't want to build a schoolhouse there 
and then take the $10 billion you save and build the finest 
national park in the country, and give that money to that 
community or that State to use those funds. And I want to get a 
better understanding of just how much leeway we have in 
determining what the end product must be.
    Mr. Alm. Let me focus on the one example you gave, which is 
the Hanford tanks, which is the most expensive environmental 
project, if it goes to completion, ever conducted. The Hanford 
tank requirements were established in the tripartite agreement 
between the State Department of Ecology and the Environmental 
Protection Agency. But even though you've got these 
requirements, the approach the DOE's taken is a staged 
approach. The privatization contracts we're talking about can 
treat anywhere from 6 to 13 percent of the waste. So this is 
the first phase.
    The National Academy of Sciences suggests that a phased 
approach be taken to the tanks. By the time that's finished, 
there may be some technological alternatives. I mean, there may 
even be a different set of priorities. Who knows the things 
that are going to happen many, many years in the future?
    Mr. Edwards. So, to summarize then, in your opinion, we 
still have the ability to look at different options of what the 
end product should be. In the real world of real budgets and 
trying to balance a budget under difficult circumstances, in 
your opinion, the law allows us some flexibility in determining 
just what clean is--is the final product for different projects 
within limits?
    Mr. Alm. That's correct. Again, with this program it would 
require a change in the compliance agreements. But I do think 
it's incumbent upon us for these very expensive, high-level 
waste projects to continually evaluate where we're going and 
whether there's a better, cheaper way of achieving the same 
amount of risk reduction and stability.
    Mr. Edwards. Thank you. Thank you, Mr. Chairman.
    Mr. McDade. We thank the gentleman from Texas. The Chair 
recognizes the gentleman from New Jersey.

                           geologic disposal

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Gentlemen, good 
morning.
    I had an opportunity--and I want to thank the Department of 
Energy for the opportunity--earlier this year to visit Yucca 
Mountain. It certainly gave me a better knowledge of what's 
going on out there, raised some rightful concerns, and a 
greater admiration for the men and women who work on that site 
far outside Las Vegas at the Nevada Test Site.
    I think the critical issue in this committee is the 
disposal issue. You can vitrify whatever you want, and that may 
be a proper way to contain things, but I think that the larger 
issue that needs to be discussed publicly is how we're going to 
dispose of low-level and high-level nuclear waste. I get a 
feeling, as a private citizen, as a Member of Congress, that 
there is not the sense of urgency that we should all be having 
as a nation--that you ought to be having as people who work in 
the DOE--that the President, for one reason or the other, isn't 
using his bully pulpit to talk about these critical disposal 
issues. I think there are some pretty critical issues on the 
table here. Would you both agree? And what is the DOE doing to 
sort of hone and sharpen public attention to these disposal 
issues? I sort of get a sense of paralysis around here, and I'm 
not sure what it is, but tell me what your feeling is.
    Mr. Barrett. The administration's position I think is 
fairly clear: that geologic disposal is the basic goal of the 
high-level radioactive waste program, and that we are 
proceeding as quickly as science will allow us to go forward 
with the Yucca Mountain program. I believe we have a very 
aggressive program in place at Yucca Mountain, and we're 
implementing it as best as we can within the statutes as they 
exist at this time.
    Mr. Frelinghuysen. But we're way behind schedule, isn't 
that accurate?
    Mr. Barrett. Well, it depends on what schedule you're 
referring to with respect to the Yucca Mountain project.
    Mr. Frelinghuysen. What's the significance of the 
acceptance date of January, late January 1998?
    Mr. Barrett. Well, there are two different issues involved 
here. One is the contractual relationship we have with the 
utilities to receive fuel, and that's the January 31, 1998, 
date you referred to. The other is the geologic repository 
program. When the act was passed, and all through the eighties, 
there was debate about two parts of the program: an interim 
storage aspect of the program and a deep geologic disposal 
program. The deep geologic disposal program was to implement 
what was laid out in the Act in 1982. But the due process of 
site selection, et al., was going to take longer, and no 
repository, therefore, could be online in 1998.
    So we are proceeding on the repository with all diligent 
speed in an effort to see if Yucca Mountain will be a suitable 
location for a deep geologic repository, and if it is, go 
forward through the processes.
    Mr. Frelinghuysen. It appears on the surface that there's a 
strong probability it would be a proper site?
    Mr. Barrett. We have found no technical reason why Yucca 
Mountain would not be a proper site at this time. But, we still 
do not have all the scientific evidence necessary to go before 
an independent regulatory body like the Nuclear Regulatory 
Commission and demonstrate, in the adjudicatory process, to a 
reasonable assurance standard that it would meet all the 
standards for many thousands of years. We do not have all that 
information yet so that we could make that case at this time.

                            interim storage

    Mr. Frelinghuysen. Tell me why the Department, and it 
appears the President, feels that the interim storage proposal 
is a bad idea. Given the fact that the deadline can't be met--
and I understand there's some good reasons for it--why are 
people throwing cold water on the interim storage proposal? I 
know you've mentioned some things in your remarks, but I don't 
get a sense of optimism that it's ever going to be a viable 
alternative.
    Mr. Barrett. Well, the Administration's position, I think, 
has been fairly clear: that the geologic disposal aspect of the 
program is an essential, a most essential part of the program. 
The debate has been going around about interim storage at this 
time. That is really about how interim storage plays into the 
program. So that is the debate that is going on between the 
administration and the Congress.
    Mr. Frelinghuysen. But what's your feeling?
    Mr. Barrett. Well, the----
    Mr. Frelinghuysen. What's wrong with an interim site?
    Mr. Barrett. I don't think anyone has said anything's wrong 
with interim storage. I don't believe the Administration is set 
against interim storage. For example, we are proceeding, as 
part of the Administration's proposal in our testimony, with a 
non-site-specific interim storage activity. So the 
Administration is not opposed to interim storage, per se. The 
debate that goes on is on the siting of interim storage, on 
when you do it, and under what circumstances.
    The Administration's position has been articulated in 
various letters to the Congress, indicating that the 
Administration is committed to resolving the complex issue of 
nuclear waste storage in a timely and sensible manner, 
consistent with sound science and the protection of the public 
health and safety and the environment. The basic goal is 
geologic disposal, and it should remain the basic goal of the 
high-level radioactive waste management policy.
    The Administration believes that the decision of siting an 
interim storage facility should be based on objective, science-
based criteria and should take into account the viability 
assessment for Yucca Mountain which will be completed in 1998, 
as I previously discussed. That is the essence of the 
Administration's policy at this time.
    Mr. Frelinghuysen. Well, I read those words, and they do 
give me sort of a certain level of reassurance. And if you 
repeat them enough, you might believe that that's satisfactory.
    But, yes, excuse me?
    Mr. Alm. Well, Mr. Frelinghuysen, your comment was or 
question was what kind of a priority does the Administration 
give to geological disposal, and we have two projects, the 
Yucca Mountain Project, but we also have the Waste Isolation 
Pilot Plant. I can tell you that's one of my three top 
priorities; the same with the Under Secretary, and Secretary 
Pena has indicated that he considers this a very high priority.
    My staff is meeting weekly, following progress on the 
certification application. We're meeting frequently with EPA. 
So I can assure you that this has a very, very high priority 
within DOE.
    Mr. Frelinghuysen. Relative to the lawsuit that a number of 
utilities have filed over--yes, Mr. Chairman?
    Mr. McDade. If I may, we have a vote on the floor, and it's 
my intention to recess for 10 minutes. I hope members will 
hurry back and we'll resume the hearing.
    [Recess.]
    Mr. McDade. The committee will come to order.
    The Chair recognizes for further questions the gentleman 
from New Jersey.

                            utility lawsuit

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Barrett, it's good to be back with you. I just have a 
few more questions that relate to Yucca Mountain activities.
    Relative to the lawsuit filed by the utilities, what if 
that lawsuit is successful and the utilities stop paying into 
the Nuclear Waste Fund? What effect does that have on the 
permanent repository?
    Mr. Barrett. We hope to continue the permanent repository 
program independent of what may happen with the lawsuit. 
Utilities have paid a substantial amount already into the waste 
fund, and I believe the balance in the waste fund is around $5 
billion that has already been paid in. So using your 
assumption, sir, that there is some withholding of payments or 
escrow, or whatever the case may be, we would still request of 
this committee to go forward with the Yucca Mountain program 
because we believe that is essential and vital to this Nation. 
We would certainly wish to continue the program.
    Mr. Frelinghuysen. I assume you're concerned about the 
lawsuit, though?
    Mr. Barrett. Sure. Yes, we are very concerned about the 
lawsuit.
    Mr. Frelinghuysen. You've given the balance in the Nuclear 
Waste Fund. What has been the investment to date in the Yucca 
Mountain Project?
    Mr. Barrett. To date, through Fiscal Year 1996, we have 
spent in total, back to 1982, around $2.4 billion at Yucca 
Mountain.

                 yucca mountain technical uncertainties

    Mr. Frelinghuysen. All right. In your opening statement, 
this you may have said orally or maybe in yourwritten statement 
on the background portion on page 1, you--and I quote--say, 
``Consistent with Energy and Water Development Appropriations Act''--
that's the second paragraph--``the Department plans to address the 
remaining technical uncertainties of the Yucca Mountain site and 
complete a viability assessment,'' et cetera, et cetera. Would you shed 
some light on those technical uncertainties?
    Mr. Barrett. Certainly. We are gathering data and doing the 
necessary scientific and engineering work to determine what a 
repository would look like in the Yucca Mountain natural 
setting and how it would perform under heat, and what it would 
cost and what its performance would be over many thousands of 
years, and how well it would contain the radioactivity within 
the engineered barriers and how any contamination would behave 
in the natural environment over thousands of years into the 
future.
    So the issues we're looking at are hydrology: how much 
water is in the mountain; what is its geochemical condition; 
the geology as far as the fractures and faults and how they 
would behave; and rock stability with increased temperatures. 
You would heat the rock up to over 400 degrees Fahrenheit in a 
real repository. So, we're gathering all this scientific data 
into a very large performance model, so we can model how the 
mountain would perform, and we can submit that evidence to the 
regulators in the Nuclear Regulatory Commission and go through 
a licensing proceeding.
    Mr. Frelinghuysen. Yes, I did have an opportunity to sort 
of see firsthand the number of people that are on the site who 
I assume are performing a lot of these studies.
    Mr. Barrett. Yes, sir, many of our scientists and our 
engineers are working there at the mountain.
    Mr. Frelinghuysen. Quite a large and impressive contingent.
    I have some other questions, but I believe my time is up. 
Thank you, Mr. Chairman.

                             privatization

    Mr. McDade. Mr. Alm, let me chat with you a bit, if I may, 
about privatization. If there's a great hope in this budget for 
a silver bullet, it's the privatization process, and as I said 
at the beginning, you're to be commended for attempting to 
introduce competition and try to get this thing going.
    A lot of us worry that we'll be in a tremendous pickle, 
should this process fail. Would you comment on that, please?
    Mr. Alm. Yes, Mr. Chairman. I would completely agree with 
you; we'd be in a pickle if these projects fail.
    Mr. McDade. You've got 10 of them----
    Mr. Alm. Right.
    Mr. McDade [continuing]. Proposed in the budget and a 
billion dollars startup.
    Mr. Alm. I would say in the beginning that we have 
evaluated the projects in terms of technical complexity, and 
only a handful--maybe two or three--are really technically 
complex. Some of them, like building a dry storage building, 
are probably no more risky than building an apartment building. 
So let's focus on the ones that are technically complex.
    We are going through a review of what it's going to take to 
completely manage this program. That includes what kind of 
people we need from within the Department, what kind of people 
we need from the contractors, and what kind of people we need 
in the field to monitor.
    In my experience, there are two things that are necessary 
to make these projects work. One is we need to draw tight 
technical scopes of work. We need to tell the contractors 
precisely what we want, so that can be clearly determined when 
the product or service is delivered. Secondly, we need good 
contracts to protect the government, but which are also fair to 
the contractor. The next thing we need is people in the field 
with the kind of experience, project management and project 
finance experience, to oversee the work. And, finally, we need 
the absolute best project managers from the contractors, people 
who have done projects of similar magnitude and have done them 
successfully.
    Mr. McDade. Yes, you and I had a conversation about that, 
and you indicated the Department is going to focus on the 
project managers as one of the highest-priority items you'd 
look at.
    Mr. Alm. For example, I just happened to be talking to 
somebody yesterday at the British Nuclear Fuels, Limited about 
the project manager for the Tank Waste Remediation System, 
TWRS, Project, assuming that goes ahead, and the gentleman who 
will be the project manager is the gentleman who oversaw the 
design and construction of the Thorpe facility at Sellafield. 
I'm not sure of the exact figure, but it's heretofore a good 
project.
    Mr. McDade. Since you have the type person onboard that you 
believe is the kind of project manager that you want, would you 
at this point in the record give us some detail on why you 
think this man is highly qualified to do what we hope he will 
be able to do?
    Mr. Alm. Right.
    [The information follows:]

                 Nuclear Waste Management and Disposal

    Following the FY 1995 Multi-year Work Plan estimate of $40 
billion to complete the TWRS Mission, DOE made a decision to 
privatize the TWRS treatment and immobilization project. On 
September 22, 1995 the Secretary of the Department of Energy 
issued a decision memorandum directing the Richland Operations 
Office to put in place a privatized approach to immobilize the 
Hanford tank wastes. Privatization, as defined by the Tank 
Waste Remediation System (TWRS) process waste contract, 
requires that DOE only buy a service, not technology, design, 
facilities or operations of facilities. DOE management of a 
privatized project requires almost no direct day-to-day 
management; involves a significant reduction in program 
deliverables such as reports and status meetings; and totally 
eliminates the DOE's role in defining prescriptive technical 
and programmatic solutions. Consequently, the TWRS 
privatization initiative required a significant managerial 
change from the typical DOE oversight role of a Management and 
Operations (M&O) contractor. Two key managers are responsible 
for this effort.
    Jackson E. Kinzer is the Assistant Manager of the Tank 
Waste Remediation System, and has comprehensive understanding 
of private industry's role in accomplishing the DOE's Cold War 
mission after serving 35 years as a senior manager for Rockwell 
Corporation, a key DOE M&O contractor. During this time, his 
significant accomplishments included the restart of the Hanford 
Purex Plant in 1983; and then complete restructuring of the 
Program Office at Rocky Flats. Upon his retirement from 
Rockwell in 1989, Mr. Kinzer was hired by the Raytheon 
Corporation to start up the nation's first chemical weapons 
destruction facility on Johnson Atoll in the South Pacific.
    On September 25, 1996, two contracts were awarded to BNFL, 
Inc. and Lockheed Martin Advanced Environmental Services to 
perform the privatization work described in the Request for 
Proposal that had been issued in February 1996. The management 
of this work has been assigned to William Taylor, Director of 
the Waste Disposal Division of TWRS. Mr. Taylor was hired by 
Jackson Kinzer in July 1995 after he had served 27 years with 
Raytheon Engineers and Constructors, Inc. Mr. Taylor's previous 
assignments included the construction of two nuclear power 
plants in New Jersey in the 1970's, Seabrook nuclear power 
plant in the 1980's and the program development and initial 
construction of the Hanford Waste Vitrification Plant Project 
in the early 1990's. All of these assignments involved the 
management of hundreds of people and many billions of dollars.
    DOE considers the TWRS privatization initiative to be 
extremely successful. This success was made possible by the 
sound management skills of the Federal project managers and by 
strategically blending resources from both DOE and private 
industry.

                        privatization contracts

    Mr. McDade. All these contracts are a fixed price, aren't 
they? There's a lot of R&D in them, is there not?
    Mr. Alm. What we try and do with the complex ones is to 
segregate that first phase and actually pay for that. That's 
what we did with the tank waste. We're going to pay $27 million 
each to the contractors for the design.
    Mr. McDade. What's the magic of the $27 million?
    Mr. Alm. It's really not magic. It was just the estimate 
of----
    Mr. McDade. It's an estimate that you're working under?
    Mr. Alm. Right. Let me talk about the two contracts because 
I think that's an important consideration. The BNFL approach 
would be to take an ion exchange, which is a well-used 
technology--they use it in their own facilities at Sellafield, 
England--and the vitrifier, which would be somewhat modified 
from what they do there, but that company has done 
vitrification. So they have experience. They've done it for 
some years.
    The Lockheed Martin approach is more innovative. Lockheed 
Martin would use molten metal as a way of substituting--not 
substitution, but separation----
    Mr. McDade. In lieu of the vitrification process?
    Mr. Alm. No, in lieu of the ion exchange, as I understand 
it; it would be the separations process.
    Mr. McDade. Then it would be vitrified?
    Mr. Alm. Then it would be vitrified. So you've got these 
two different approaches, one of which I think is pretty 
standard. You've got someone who has run a project that's at 
least this big on a fairly standard technology, and the other 
is more innovative, and that's obviously a consideration as we 
move ahead.
    Mr. McDade. Yes, and you expect those to be--I mean, can 
you classify those as R&D projects or do you classify them 
differently?
    Mr. Alm. They're not R&D projects----
    Mr. McDade. The reason I'm asking is you've had some 
experience, as we've discussed, that fixed-price R&D doesn't 
work very well.
    Mr. Alm. Absolutely. These are not R&D projects.
    Mr. McDade. These are not R&D projects?
    Mr. Alm. No, these are projects where you've taken 
technologies and various stages of commercialization and 
applying them at the advanced waste treatment facility. Again, 
when British Nuclear Fuels won this project, they're going to 
use processes that they have used before.
    Mr. McDade. Well, the one we talked about, for example, 
with Lockheed, should that get somewhere into the chain or some 
approval, that's a pretty new process, isn't it?
    Mr. Alm. The vitrifier itself is a new COGEMA vitrifier, 
which I believe is in use.
    Mr. McDade. So it's commercialized?
    Mr. Alm. The vitrifier I believe is. I will check that for 
the record.
    [The information follows:]

                 Nuclear Waste Management and Disposal

    The Hanford Tank Waste Remediation System privatization 
contracts allow the contractors to select and implement either 
the technology identified in their proposal or an alternative 
technology. However, the contractors must demonstrate they have 
a viable approach that will work on Hanford tank waste as a 
``Phase 1, Part A'' contract deliverable. Testing used to 
demonstrate that the approach is viable will include work on 
actual tank waste samples that have been delivered to the 
contractors. The contractors are taking the performance risk in 
TWRS privatization. If their technical approaches do not work, 
they will not be paid for treatment services.
    The Lockheed Martin Advanced Environmental Systems (LMAES) 
technology for processing High-Level Waste (HLW) includes 
calcination and vitrification. These technologies are proven 
and similar systems are operational in multiple countries. The 
LMAES facility would improve on these designs and implement a 
cold crucible melter to increase waste loading and throughput 
as well as minimize secondary waste. The cold crucible 
vitrification technology has been demonstrated on a small 
scale. Further scale-up work is required, which is not part of 
the DOE privatization funding but is the direct responsibility 
of the contractor.
    LMAES will use proven Low Activity Waste (LAW) pretreatment 
technologies with relatively low risk in application at a 
commercial scale. LMAES has proposed use of the Molten Metal 
Quantum Catalytic Extraction Process (Q-CEP) to immobilize LAW. 
This technology has been developed but its application for 
Hanford Waste Processing will require further demonstration.
    LMAES will have to prove the business, regulatory, and 
technical merits of their approach in ``Phase 1, Part A'' prior 
to authorization to proceed into ``Phase 1, Part B.'' Part B is 
the final design, construction, and operational part of Phase 
1.

    Mr. McDade. How about the separation process?
    Mr. Alm. Well, molten metal--there's a number of facilities 
where they're testing the applications, but I don't know 
whether they've--they probably have not tested the application 
of separation of radioactive as one of the techniques. I would 
think that, although this is the way it's been now, if they 
foresaw a lot of problems, they could obviously go to a more 
standard technology when they bid, and I'm just sort of second-
guessing what they would actually bid.
    Next year about this time, after these conceptual designs 
are finished and the final plans are put together, we'll let 
them bid on the number of units and the price, and at that 
point in time----
    Mr. McDade. One of the concerns on this side of the table 
is that if we appropriate the billion that you're requesting 
for the 10 projects, we're committed to the tune of maybe $7 or 
$8 billion. Isn't that accurate? The taxpayers will have to pay 
somewhere around $7 or $8 billion, if we give you the billion 
to commit?
    Mr. Alm. Well, the billion to commit would result in $3.3 
billion in capital costs, and then if you take the operating 
and other costs to finish the projects, it would be $8 billion; 
that's correct, sir.
    Mr. McDade. Yes, and you described the 10 projects ashaving 
varying degrees of risk in them. Would you inform the committee which, 
in your judgment, Al, are the toughest technological projects?
    Mr. Alm. The Hanford tanks, the Advanced Mixed Waste 
Treatment Facility. There's one of the other treatment projects 
that was----
    Mr. McDade. You can put that in the record, if you would, 
so we have a feel about what it looks like from the standpoint 
of risk.
    Mr. Alm. I will provide that for the record.
    [The information follows:]

                 Nuclear Waste Management and Disposal

    Of the privatization projects receiving fiscal year 1998 
funding, the most technically challenging is the Tank Waste 
Remediation System at Richland. The next most challenging 
projects are considered to be the Transuranic Waste Treatment 
project at Oak Ridge, and the Low Activity Waste Treatment 
project at Idaho.
    In general terms, technical complexity is defined as high, 
moderate or low. ``High'' indicates highly complexity projects 
with a scope of work that is very intricate and where limited 
(comparable) systems have been demonstrated in the private 
sector. ``Moderate'' indicates those projects with a scope of 
work for which systems are in place, however, some unknowns may 
exist. ``Low'' refers to those activities for which systems are 
in place and well established. The technical complexity for 
each of the fiscal 1997 and 1998 projects in shown below:

------------------------------------------------------------------------
                                                            Technical   
           Site                       Project               complexity  
------------------------------------------------------------------------
Carlsbad.................  TRU Transportation..........  Low            
Idaho....................  Advanced Mixed Waste          Moderate       
                            Treatment.                                  
Idaho....................  Low Activity Waste (LAW)      Moderate       
                            Treatment.                                  
Idaho....................  Power Burst Facility          Low            
                            Deactivation.                               
Idaho....................  Spent Nuclear Fuel Dry/Store  Low            
Ohio.....................  Waste Pits Remedial Action..  Low            
Ohio.....................  Silo 3......................  Low            
Oak Ridge................  TRU Waste Treatment.........  Moderate       
Oak Ridge................  Broad Spectrum..............  Low            
Oak Ridge................  EM Waste Disposal...........  Low            
Rocky Flats..............  Decommission Building 779...  Moderate       
Rocky Flats..............  Decommission Building 886...  Moderate       
Rocky Flats..............  Waste Water Treatment.......  Low            
Richland.................  Tank Waste Remediation        High           
                            System.                                     
Savannah River...........  Spent Nuclear Fuel Dry/Store  Low            
------------------------------------------------------------------------

                           permitting process

    Mr. McDade. One of the things that we didn't discuss that 
was discussed tangentially, I think the gentleman from Indiana 
or Texas raised the issue of permitting. I would like you, if 
you would, to put into the record at this point the permitting 
process that you have to go through and the permitting process, 
not just Federal but all the way through, that the private 
contractor would have to go through, should we agree that this 
is a method that we think we ought to pursue.
    Mr. Alm. I will provide that for the record.
    [The information follows:]

[Pages 89 - 90--The official Committee record contains additional material here.]


    Mr. McDade. I'm really concerned about the permitting 
process. I know you are, too. You say, ``litigation,'' and you 
get a little pale, and I think we all do, and we understand 
that that can have a tremendous effect on the timing of the 
project. It's kind of got to be my experience that everything 
in the world takes 10 years anymore, and that's the closeout 
date in your proposal.
    I got a chance to look at the WIPP history, and I think 
that took something like 20 years, didn't it?
    Mr. Alm. It took a long time. Yes, I think that's right 
because I was in the Department when it was first being 
considered, and I was a young man then. So it's been a while.
    Mr. McDade. Well, you still are. [Laughter.]
    Address yourself, will you, to the concept of the 
permitting process and all the groups that have to approve on 
these privatization contracts in terms of getting them within 
the 10-year schedule, in terms of getting them financed, in 
terms of the risk if you were on the private side. And you've 
spent a lot of time on the private side, and you were kind 
enough to come back and make the sacrifice of public service 
again. If you're on the private side and you're going to have 
all this kind of risk, not just technological, but permitting 
risk, why would anybody commit capital to you?
    Mr. Alm. Well, it's very interesting. Your point is well-
taken. For the Advanced Mixed Waste Treatment process, for 
example, we are putting in appropriated funds for the purpose 
of getting the permit. We want to get the permit--obviously, 
you have to have the permit before you get started, so you're 
not in a risky stage.
    Mr. McDade. What does that cost? What does it cost us? Do 
you expect----
    Mr. Alm. My recollection, I'll provide it for the record 
for sure, but I think it's $15 million.
    Mr. McDade. Put it into the record for us, please.
    Mr. Alm. Yes, but I think that figure is correct.
    [The information follows:]

                 Nuclear Waste Management and Disposal

    The cost for permitting is included in the total cost of 
the contract in most cases and may not be discretely 
identifiable. In some instances, support costs may be incurred 
by the Department of Energy or the site operating contractor. 
Many activities, such as conceptual design and safety and 
health planning must be performed before permits can be 
obtained. For example, the drafting of permit applications and 
associated conceptual design will be completed at the Tank 
Waste Remediation System (TWRS) for a portion of the $27 
million to be paid to each of the two contractors in ``Phase 1 
Part A.'' Cost for the final permit process at TWRS will not be 
established until award of the Phase 1 Part B contract. The 
payments to the contractor for the Advanced Mixed Waste 
Treatment (AMWT) facility permit applications and associated 
deliverables will be $16.3 million. For most of the FY 1998 
projects, the permit costs will be much smaller than the 
amounts for the TWRS and the AMWT facilities.

    Mr. McDade. Go ahead. On that one, you're providing 
appropriated dollars to do the permitting?
    Mr. Alm. Right. I would make one comment that the risky, 
the projects of the highest level of risk, are the ones that 
both receive money and started in the 1997 budget. That 
includes both the tank waste----
    Mr. McDade. Yes.
    Mr. Alm. [continuing]. And the Advanced Mixed Waste 
Treatment.
    Mr. McDade. They were design concepts, though, weren't 
they, pretty much?
    Mr. Alm. Well, the first step.
    Mr. McDade. Yes.
    Mr. Alm. Although the contracts were let--for example, for 
the mixed waste treatment, we do have a contract for the entire 
work, even though the early stages are design and permit.
    Mr. McDade. So we're committed on that project to 
completion?
    Mr. Alm. We're not committed. I'm just saying that the 
Congress did provide budget authority.

                             privatization

    Mr. McDade. I'm aware of that, but unlike the billion here, 
if we commit the billion this year, it's out to eight and it's 
operating costs, et cetera.
    Mr. Alm. I would make two comments because I understand the 
concern you all have about the commitment. Let me indicate, 
first of all, with the projects we're talking about, 75 percent 
of that billion is tied to the regulatory commitments. In other 
words, these are projects that must be done. It's not the whim. 
It's not some project that----
    Mr. McDade. What do you mean by regulatory commitments?
    Mr. Alm. Well, for example, with the Hanford tanks, we are 
committed to a tripartite agreement that's been signed by the 
Washington Department of Ecology and the Environmental 
Protection Agency and DOE, and we have deadlines for when we 
begin moving wastes out of those tanks, with an ultimate goal 
of removing all the wastes and vitrifying them into both low-
activity fractions and high-activity fractions.
    Mr. McDade. So 75 percent of the billion is for that 
process, getting the permits, getting----
    Mr. Alm. No, $427 million out of the billion is for that 
one project.
    Mr. McDade. For that one project?
    Mr. Alm. Right, in 1998.
    Mr. McDade. Just briefly run down the others for us, will 
you?
    Mr. Alm. Okay, I'll go down the regulatory ones and then 
the non-regulatory ones.
    Mr. McDade. I'll tell you what let's do, in the interest of 
saving some time, why don't you furnish for the record what it 
looks like and inform the committee of anything you think we 
should know about complexities in that process on the 10 that 
you're asking that we start.
    Mr. Alm. I will provide that for the record.
    [The information follows:]

[Pages 93 - 95--The official Committee record contains additional material here.]


    Mr. Alm. Now I was going to make one other comment, if I 
may, Mr. Chairman.
    Mr. McDade. Please.
    Mr. Alm. I think because of the nature of these projects 
and the complexity, the concern about the management, that we 
need to develop--we would be willing to, I think we need to 
develop a consultation process with the Congress where at the 
critical junctures of these large contracts we would come in--
it, obviously, depends on how you all wanted to do it, either 
Members or the staff, or both----and go over what we're doing, 
go over the kind of technical reviews, independent technical 
reviews that we have undertaken, lay out our management plan. 
For example, in managing these projects, we planned in the big 
ones to have quarterly management reviews, which I would attend 
personally because they're so important to the program.
    And one last thing----
    Mr. McDade. And I want to say, as you and I have said 
before, we want to stay in touch as you go through this process 
and others, as a matter of communication back and forth, so 
that we have an idea of what kind of resistance you're meeting, 
and what kind of successes appear down the road, and we can 
evaluate together. As you said just a minute ago, I think it's 
essential to the process.
    Mr. Alm. I couldn't agree more. I think that we have to be 
together on these projects or----
    Mr. McDade. Has anybody, any guru down at the DOE, 
estimated the amount of time in the permitting process from 
first application all the way through? You've got a budget 
figure; you must have some----
    Mr. Alm. I'll get that for the record. Permits are so 
variable in terms of how much time they take.
    Mr. McDade. Okay.
    Mr. Alm. We haven't had great problems with permits, to my 
knowledge.
    Mr. McDade. If you would amplify it, do it in the record.
    Mr. Alm. I will provide that for the record.
    [The information follows:]

                 Nuclear Waste Management and Disposal

    The time schedule for permitting will vary greatly 
depending on what permits are needed. Permitting can take 
anywhere from a few months to four years. The schedule will be 
better known after contract awards and development of 
milestones for the projects by the vendor. The Department 
provides our schedule requirements for start of services or 
completion of services, and the vendor will develop their 
specific implementation schedule, to include permit 
acquisition, as appropriate.

                           private financing

    Mr. McDade. And address for me the question of private 
financing on what appears to be complex and risky projects. 
What makes you so confident that XYZ company is going to get 
private financing to do one of these projects that's complex?
    Mr. Alm. Well, I've talked to a number of people. I've 
talked to people who are financial intermediaries, and I've 
talked to the companies about their financing plans. They'll be 
working, obviously, to make a final bank commitment on a number 
of factors, but I'm pretty confident that you can find money. 
As I indicated to you yesterday, people finance big shopping 
centers and other developments which I would consider more 
risky than a project that has a government contract behind it 
and some budget authority.
    Mr. McDade. Well, the problem is the degree of risk and the 
possibility of the failure that could take place, it seems to 
me, or even a termination.
    Mr. Alm. I think the biggest concern the private sector 
would have--and I need to put this delicately--and that is the 
extent to which government can be trusted in an operational 
way. So one way to get around that mistrust--and we did it at 
Idaho. As we said, the contractor can retrieve the wastes. They 
don't have to depend on the government retrieving them. So they 
have access to the waste, and then they have a contract that 
they get paid for processing. That's one way which you can 
provide the certainty.
    I think in this consultation process and in the management 
process it's incumbent upon us to talk to the financial 
community, to talk to the contractors, and get a sense of what 
it is we can do to get the best deal for the government on 
this.
    Mr. McDade. A lot of people are saying the government ought 
to be involved in some way because they can get the money more 
cheaply than the private side and they'd save money in the long 
run.
    Mr. Alm. First of all, government money has an opportunity 
cost, and that is the extent to which you take money out of 
appropriated money; you're taking money out of the economy--I 
don't want to get into the economic theory, but government 
money is not free.
    Mr. McDade. Oh, I'm talking about a guarantee or some such 
thing, a government guarantee. If you've got them on the hook 
anyway--if these projects should go belly-up, we're stuck for 
$8 billion, or somewhere in that range--and heaven forbid that 
they do. But what would be the impact on the financial 
community if you threw in a government guarantee?
    Mr. Alm. Let me answer the first part of your question, and 
then I'll come----
    Mr. McDade. Please.
    Mr. Alm. The capital portion of these programs is $3.3 
billion. So if they all went belly-up at the same time, the 
liability would be $3.3 billion, although I think that chance 
is one in many millions.
    The second part was the question of a government guarantee. 
There is no doubt that if the government guarantee were 
provided, a strong, complete government guarantee on the 
project, that would reduce the cost of capital. Anything the 
government does that reduces risk and makes the government 
share more of the risk--in other words, the interest cost, it's 
a real tradeoff.
    Mr. McDade. Yes, and you've decided to go the other way?
    Mr. Alm. We've decided that we'll take some risks, but we 
think the contractor, to create all the incentives, proper 
incentives, ought to take the majority of the risk.
    Mr. McDade. Yes.
    Mr. Alm. But have we got it exactly right? I don't know.

                               roll call

    Mr. McDade. If I might ask my friend, Mr. Fazio--we have a 
quorum present and we have to do some housekeeping. There's a 
motion that needs to be offered by Mr. Fazio which we have to 
vote on. I would appreciate it if you would offer it.
    Mr. Fazio. Mr. Chairman, because the Subcommittee on Energy 
and Water Development will be dealing with national security 
and other sensitive matters at its hearing on atomic energy 
defense activities, I move that the hearing on April 9, 1997 be 
held in Executive Session.
    Mr. McDade. The clerk will call the roll.
    The Clerk. Mr. McDade.
    Mr. McDade. Aye.
    The Clerk. Mr. Rogers.
    [No response.]
    The Clerk. Mr. Knollenberg.
    Mr. Knollenberg. Aye.
    The Clerk. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Aye.
    The Clerk. Mr. Parker.
    [No response.]
    The Clerk. Mr. Callahan.
    [No response.]
    The Clerk. Mr. Dickey.
    Mr. Dickey. Yes.
    The Clerk. Mr. Livingston.
    [No response.]
    The Clerk. Mr. Fazio.
    Mr. Fazio. Aye.
    The Clerk. Mr. Visclosky.
    Mr. Visclosky. Aye.
    The Clerk. Mr. Edwards.
    Mr. Edwards. Aye.
    The Clerk. Mr. Pastor.
    [No response.]
    The Clerk. Mr. Obey.
    [No response.]
    Mr. McDade. The majority has agreed the hearing will be 
closed in accordance with the motion.
    Mr. Alm, thank you very much for your insightful comments 
on the dialog that we just had.
    And I yield now to the distinguished gentleman from 
California.

              different benefits to privatization process

    Mr. Fazio. Thank you, Mr. Chairman, and I want to thank 
both of you gentlemen for coming in, and apologize for not 
being here for the earlier part of the hearing.
    Mr. Alm, you say that you think that privatization will 
result in cost savings, certainly compared to the traditional 
DOE approach, where we own the facilities and the contractors 
typically operate it and build it. Mr. Barrett also proposes 
privatization of transportation of spent fuel, but does not 
assert that the privatization is necessarily going to save the 
government any money. I wonder if the two of you could explain 
how we come to the same conclusion in terms of approach, but 
have different benefits that we ascribe to the privatization 
process. Is this a function of the task that you're privatizing 
or is this simply a difference of opinion in terms of what the 
outcome will be as a result?
    Mr. Alm. I'm sure there's some logical explanation--I'll 
begin. The precedence we took in looking at the privatization 
projects was to get an estimate of what it would take to do the 
M&O. We had to make sure that the privatization estimates did 
bring about savings. All studies that I've ever seen comparing 
level-of-efforts kinds of contracts or activities and 
competitive activities always show that it's substantially 
cheaper to go competitive. And from my own business experience, 
when you're in a fixed-price kind of contract, you sharpen your 
pencil because you know the other guy is going to be sharpening 
his or her pencil. So we see substantial savings.
    Mr. Fazio. But they're pretty much premised on your 
experience, your philosophical premise that competition will--
--
    Mr. Alm. Well, not only that, but we have estimates which 
we provided, and some of them we called draft because the 
estimates are in fairly early stages--they're at different 
times and different sizes, but the most recent contract, the 
Advanced Mixed Waste Treatment contract, we have a firm 
contractor proposal, which is about $1.1 billion, and the M&O 
estimate a few years earlier was about $2.5 billion. That's at 
the extreme, but that's an incredible difference in cost.
    Mr. Fazio. So you've got more than a philosophical premise 
here; you've got evidence that this works and it drives down 
costs?
    Mr. Alm. Yes. We've also hired one of the KPGG, or whatever 
it is, Peat Marwick----
    Mr. Fazio. AMPG/Peat Marwick?
    Mr. Alm. Yes, that's it.
    Mr. Fazio. The latest merger of our major accounting firms.
    Mr. Alm. We've hired them to look at our cost-estimating 
methodology, and they've given us generally favorable comments.
    Mr. Fazio. Lake?
    Mr. Barrett. I think another way to look at it is that what 
we're buying is really quite different. Mr. Alm is dealing with 
a situation that he's trying to clean up facilities and the 
situation exists and there it is, and there is a history of the 
classical M&O approach to that. We're starting sort of with a 
clean sheet of paper as far as our transportation program, and 
we started off with some of the efficiencies with our fairly 
new M&O contractor. We were able to put together a more 
efficient situation, when we started with a fresh program. So 
when we looked at the cost, we didn't see any great savings.
    Now we do hope that privatization and the spirit of 
competition will bring substantial cost savings, as Mr. Alm has 
mentioned, but we're not claiming credit for any of that yet. 
We will see how the bids come in when we go forward with the 
RFP.
    Mr. Fazio. I assume that if you're pleasantly surprised, we 
will be, too, in next year's budget? Is that the idea?
    Mr. Barrett. It would be a win/win situation for everyone, 
sir.
    Mr. Fazio. Yes. When would you expect to have some sense of 
how much competition exists in the market? Are you getting 
feelers now from potential bidders that build confidence that 
there may be actually a higher estimate than we may need to 
fund?
    Mr. Barrett. We have not gotten to talking about hard money 
yet. We have had several meetings where we've had 100 and 200 
people in the room. There has been great interest, let me say, 
in the industrial and the financial community in what we're 
talking about, but no one has talked those type of estimates 
yet.

         federal government's liability for privatized projects

    Mr. Fazio. What is the Federal Government's liability for 
privatized projects that, frankly, don't work out, that end up 
being a bust? Maybe you'd both want to respond.
    Mr. Alm. The Federal liability, contractually, there is no 
Federal liability.
    Mr. Fazio. If they run into cost overruns, technical 
difficulties, this is all at their risk? We don't have to step 
in at any point----
    Mr. Alm. At their risk----
    Mr. Fazio [continuing]. And look out for the public 
interest?
    Mr. Alm. They can, obviously, make a claim that the 
government misled them or they weren't given proper information 
in the center, and you can evaluate the claim.
    Mr. Fazio. So they'll blame you for their failure, 
typically?
    Mr. Alm. That's certainly a possibility.
    But one of the things that's really critical is that, as we 
move forward, we're going to pay a lot of attention to these 
projects at the very beginning. I'm going to watch them very, 
very carefully.
    As you know, the project at Pit 9 has run into problems.
    Mr. Fazio. Right.
    Mr. Alm. And I would argue that this may seem like somewhat 
of a Pollyanna statement, but I've had some experience to bear 
it out--I think the fact that a project did run into these 
problems will translate itself into firms being more careful, 
DOE being more careful, and regulators being more careful. I've 
seen it in the private sector where a fixed-price overrun got 
everybody's attention, and then they began to focus on----
    Mr. Fazio. So it may clear the air as to what----
    Mr. Alm. That's right.
    Mr. Fazio [continuing]. Will be the result of these kinds 
of problems? It's not business as usual, you would argue?
    Mr. Alm. I think the fact that a project had some problems 
lowers the probability of failure in the future.
    Mr. Fazio. What if Congress cancels the project?
    Mr. Alm. If Congress cancelled the project, the amount of 
budget authority that the Congress had agreed to in earlier 
years would be used for terminating the project. In other 
words, that would be similar to termination at the convenience 
of the government.
    Mr. Fazio. What if we get less than we're asking for? What 
if we get a performance that, in the view of the government, is 
less than we had anticipated and asked for in the bidding 
process? For example, less waste treated, less fuel 
transported--what is our remedy at that point?
    Mr. Alm. Well, one remedy is not pay them or not pay them 
the full amount. The whole purpose of a privatized contract is 
that we specify very clearly the requirements, and we do this 
with the two projects we have. The waste will be tested when it 
comes out, and it's got to meet certain specifications. And if 
it doesn't meet it, it's back to the--not the drawing board, 
but back to the vitrifier.
    Mr. Fazio. And our contracts make very clear that they 
continue to have the burden of responsibility to complete what 
they agreed to do, even if it eats into their marrow?
    Mr. Alm. Yes, that is the intent of our contracts.
    Mr. Fazio. Thank you, Mr. Chairman. For now, I'll waitand 
go another round.
    Mr. McDade. Yes. The Chair would like to inform the members 
that Mr. Knollenberg is about to be recognized on our side. I 
sent him over to vote. Anybody who wishes may leave and go 
vote--we're going to resume when Mr. Knollenberg comes back; 
the Chair's going to vote at that time.
    The gentleman from New Jersey is recognized.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. I have a number 
of written questions that relate to the Yucca Mountain Project 
and I'd like to get those questions answered on the Yucca 
Mountain Project.
    Mr. McDade. Absolutely. Without objection.
    Mr. Frelinghuysen. All right, thank you.

            formerly utilized sites remedial action program

    Mr. Frelinghuysen. Relative to the Formerly Used Site 
Remediation Action Program, as you may know, over the last two 
years I've been interested in this committee in the progress at 
the Wayne, New Jersey thorium site and the Maywood thorium 
site. Last year this committee provided $6.5 million 
specifically for the Wayne site. Can you tell me how the 
Department has used this funding and what's been accomplished 
by that investment?
    Mr. Alm Well, my understanding with respect to the Wayne 
project is that we will completely remove the pile in 1998, and 
then take action on the subsurface contamination. In Maywood, 
the pile's already removed, and what we need to do is now 
remediate the residential vicinity projects, and finally the 
commercial projects.
    As you know, as you may know, Mr. Frelinghuysen, we have 
increased the so-called Formerly Utilized Sites Remedial Action 
Program (FUSRAP) budget, by $100 million this year to speed up 
all those sites, and this is to be consistent with the 
President's general initiative to speed up cleanup of Superfund 
sites in urban areas. So this will be a great boost for the 
program. It is our hope with level funding that we can finish 
the FUSRAP program by the year 2002.
    Mr. Frelinghuysen. Specifically to these sites, is there a 
specific departmental fiscal year 1998 request for Wayne?
    Mr. Alm We have a request for--right now we've broken them 
out by State, and the amount for New Jersey would be about $60 
million, which knowing there's no other States represented, I 
can say is the largest allocation among the FUSRAP.
    Mr. Frelinghuysen. At your convenience, could you provide 
the committee with information on when you might anticipate the 
site work would be finished and contaminants removed, and could 
you be good enough to provide me with how much we've spent to 
date on program costs and overhead costs on this construction 
project?
    Mr. Alm I'd be delighted to.
    [The information follows:]

[Pages 103 - 104--The official Committee record contains additional material here.]


    Mr. Frelinghuysen. Thank you very much. I have a number of 
other questions relative to those sites, as well as, Mr. 
Chairman, some questions that relate to the ground water 
cleanup at Hanford and Savannah, and, most specifically, 
questions raised by the Inspector General's report that notes 
that there have been some problems down there relative to the 
management of the Hanford site.
    Mr. McDade. Without objection.
    Mr. Frelinghuysen. Thank you.
    Mr. McDade. Let me say that the Chair is getting antsy; 
we're under 10 minutes to vote. So I'm going to vote, and Mr. 
Knollenberg should be back in the room in just a few minutes, 
and he is authorized--he's recognized as the next questioner. 
He's authorized to begin the hearing. He should be here in just 
a few minutes.
    [Recess.]

                          project closure fund

    Mr. Knollenberg. [presiding] The meeting will come to 
order, and we'll be back into the question mode here.
    Let me just identify precisely the order of those that are 
in line to speak. I think I would be next, and then, as people 
come on back, we'll make a determination about how long this 
will be held open.
    Mr. Alm, when we met in my office, you were evaluating the 
two-track proposal, the $5.5 billion and the $6 billion 
scenario. I did a little arithmetic pretty quickly and realized 
there's a half a billion bucks there that is over and above 
what was in the original budget.
    My question has to do with these two budget cases. Would 
you support--I'm talking about the excess over $5.5 billion--
would you support some move to place some of that in the 
closure fund? Because, again, what it does is it moves in the 
direction of where you want to go, and we've talked about that. 
We're on, I think,the same page when it comes to bringing these 
projects to closure. Would you consider allocating funding to that 
closure fund for the projects that are considered in your 10-year plan?
    Mr. Alm. I think what the most suitable arrangement would 
be the closer we get to the higher end of that range, the more 
possibility of expanding the closure fund.
    Mr. Knollenberg. The fact is I think you've already 
prioritized pretty much what the projects are in that closure 
fund. You're trying to arrive at deciding and prioritizing and 
targeting monies that, I presume, that excess allocation. So 
there's a system already in place, a mechanization, or I should 
say machinery, in place to accommodate what you want to do and 
I think what all of us want to do, which is to lower those 
mortgage costs. So the closure fund would be a reason for that.
    Some of my colleagues and the chairman have talked about 
privatization and the concerns that go along with that. I 
believe the Department is trying to set aside $1 billion, that 
you're proposing $1 billion----
    Mr. Alm. That's correct.
    Mr. Knollenberg [continuing]. For privatization 
initiatives----
    Mr. Alm. That's correct.
    Mr. Knollenberg [continuing]. Including the Hanford tank 
remedial system? And I know you and I have discussed this, and 
we know some of the dangers of what might occur along that 
path. And, by the way, I buy into the whole privatization 
effort because what it does do, of course, is it puts more risk 
than has ever been placed before on contractors, and you've 
already discussed some of that. I won't go into that, but I do 
want to talk about the NRC. Some of these efforts are going to 
be regulated, of course, by the NRC.
    Mr. Alm. That's correct.

                            nrc regulations

    Mr. Knollenberg. How do you prevent the cost of complying 
with NRC regulations then from driving up costs on contractors 
for projects, for example, that cannot be completed. How do you 
prevent those costs from rising, with the NRC in mind?
    Mr. Alm. Well, I think that's a very good question. In 
terms of the Tank Waste Remediation System (TWRS) project, we 
are developing our own internal regulatory staff. We have about 
20 people allocated just to the regulatory kind of function. It 
is our intention over time, in a way that would not in any way 
reduce the momentum of the project, to turn the regulatory 
authority over to the Nuclear Regulatory Commission (NRC), 
presumably with the people in the system intact.
    Likewise, the Department has had a committee reviewing 
external regulation, and the report developed by that committee 
was that we'd transition to NRC regulation, but only on large 
new projects and over a graduated period of time.
    I think the question is really a management question. We 
need to make sure that the regulatory system does not place 
roadblocks in the way of getting these projects done. We've 
done a lot with EPA and the States to streamline the program. 
We do not need to create another new set of regulatory 
roadblocks.

                        yucca mountain schedule

    Mr. Knollenberg. There appears to be some movement in the 
direction of accomplishing just what you've stated, 
particularly in respect to Rocky Flats and then some of the 
other sites.
    Let me ask a question or two of Mr. Barrett. And, again, I 
wanted to thank you, Mr. Barrett, for coming into the office 
the other day to give us kind of a preview of some things, and 
thanks to Mr. Alm for his having done the same.
    And our discussion that day kind of clarified some of the 
things that we have concerns about. This whole thing with Yucca 
Mountain, the timeline, the schedule--by the way, I 
particularly applaud the progress I think that has been made in 
the last year, particularly since Mr. Dreyfuss came to testify. 
Was it about a year ago or thereabouts? So some things have 
happened, and you discussed, for example, the completion or 
near completion of the tunnel. It wasn't that way a year ago, 
and so we're arriving at a point where I believe we can expect 
completion by March 27, isn't that right?
    Mr. Barrett. Close.
    Mr. Knollenberg. Close. Okay. And I studied this whole 
schedule about permanent storage and disposal and what's 
proposed for the secretarial decision on suitability and then, 
of course, the President's recommendation to Congress. But what 
could we do or what can we do to reduce that timeframe? I think 
right now the suitability recommendation is supposed to occur, 
is it, in 2001?
    Mr. Barrett. Yes, sir.
    Mr. Knollenberg. Is there anything we can do to advance 
that to the year 2000? And, of course, the question, I think, 
is probably somewhat obvious: administrations change, and what 
is the magic about 2001? Could we transpose it to the year 
2000? Is that possible?
    Mr. Barrett. We'd have to go back and look very carefully, 
more carefully, at the schedule. We've looked very carefully at 
the schedules. A lot of that work is basically scientific work. 
For example, one of the things we're going to be doing for the 
license application is a thermal test. It takes five years to 
do a very large thermal test. You cannot make that go any 
faster if you were to put additional funds on it or you worked 
harder at it. It takes time for the rock to heat; it takes time 
for the rock to cool, and to gather the data.
    So there are many aspects of the schedule that we cannot 
really change. There are some things that, maybe if you added 
additional funding to it, you might be able to put additional 
scientists or engineers on the job, and you might be able to do 
certain segments faster. We have not looked at basically what I 
would call--I hate to use the word--an unconstrained budget. 
Much larger budgets than what we've basically been proposing, 
which is in the nominal range of $300 million, $325 million per 
year at Yucca Mountain.
    It's possible you could shorten up some of those timeframes 
and we could look at that, for the record, but I don't expect 
that there would be any substantial changes in that. There's 
just the matter of gathering the data and working with the 
regulators to put together that package.

                            interim storage

    Mr. Knollenberg. I wouldn't expect you to do anything to 
lower the standards of activity that have to be in place, but 
it is a question, I think, that might deserve some more serious 
attention.
    Now on the interim storage situation, is the Department, in 
your judgment, doing everything necessary, everything thatcan 
be done in advance of the completion of the viability assessment with 
respect to interim storage? Are they doing everything they can, in your 
judgment, to reach that or stay on target, stay on track?
    Mr. Barrett. Within the constraints of the statutes, we're 
doing everything that reasonably can be done in that area.
    Mr. Knollenberg. Could the Department do an EIS in advance 
that might speed up the process?
    Mr. Barrett. Well, to do an EIS--an Environmental Impact 
Statement--you'd have to know about what the site was. So that 
becomes an issue. For what site would you do an EIS?
    Mr. Knollenberg. You're not there yet?
    Mr. Barrett. We are not at that point. So what we are doing 
is doing work in the safety area, where we can do safety 
analyses and engineering designs.
    Mr. Knollenberg. So how long would it take, then, to 
design, to construct, and begin operation of an interim storage 
facility, let's say, if authorizing legislation were enacted 
this year?
    Mr. Barrett. It depends upon what the statutes would say. 
If we were to be treated as a commercial entity, we could 
basically, given the start we will have with the design work 
we've done for the generic interim storage work, in three-and-
a-half years from start to finish, we could be receiving fuel 
at that facility.
    Mr. Knollenberg. Three-and-a-half years?
    Mr. Barrett. Approximately, yes, sir.

                          repository schedule

    Mr. Knollenberg. On the timeline itself for Yucca Mountain, 
as I understand it, everything falls in place just the way you 
have it gauged, and the EIS won't be drafted until the year of 
1999; isn't that right?
    Mr. Barrett. The draft would be; the final would be in the 
year 2000.
    Mr. Knollenberg. Yes, the final will be the year 2000; 
right?
    Mr. Barrett. That is for the repository.
    Mr. Knollenberg. The repository, yes. Thank you for 
clarifying that. And speaking of the repository then, the 
timeline, in addition, would include the three-year waiting 
period, or whatever you call it, from the year 2002 to 2005; is 
that right?
    Mr. Barrett. In March 2002, if all goes well, we would 
submit the license application to the Nuclear Regulatory 
Commission. Then they would take over through the adjudicatory 
process, and in the statute, the original 1982 statute, the 
goal was three years, possibly four. So that process would go 
through until 2005 or 2006. And then a construction 
authorization could be issued, and we could actually start 
construction of the facility.
    Mr. Knollenberg. Is there any fat at all in that schedule 
in terms of 2010 being the year that it would be operative?
    Mr. Barrett. For emplacement?
    Mr. Knollenberg. For the repository. I guess the NRC review 
period begins in the year 2005.
    Mr. Barrett. 2002. Excuse me. 2002.
    Mr. Knollenberg. I'm sorry, 2002. But then there's a three-
year review period after that. I'm trying to plug in these 
years to come up with where 2010 is the magic number. How do 
you get from 2002 to 2010 if there is a two- and a three-year 
timeframe that is end-to-end within that eight years?
    Mr. Barrett. Let me walk through the sequence of events 
between 2002 and 2010, sir. In 2002, we'd submit the license 
application to the NRC. If they take three to four years, then 
we would have a construction authorization in the year 2005 to 
2006.
    Mr. Knollenberg. That's where the flex is?
    Mr. Barrett. Right. Then--well, you'd have to speak with 
the NRC about how much flex is in their timeframe.
    Mr. Knollenberg. Yes.
    Mr. Barrett. I'm the regulated, not the regulator in this 
case.
    But from when the construction authorization is issued in 
the 2005-to-2006 timeframe, then we have four to five years to 
build the receiving facilities and build the underground 
facility before we could actually be placing waste in the 
geologic repository in the year 2010. So the four to five years 
is the construction of the underground tunnels that would 
actually be for the waste emplacement. It is possible that we 
could advance the receipt of fuel to the facility to something 
between the 2006-to-2010 timeframe, depending on what we want 
it to do. So that's possible.
    Mr. Knollenberg. So it's pretty much end-to-end, then. Is 
that what you're saying?
    Mr. Barrett. Yes, sir, these are serial activities.
    Mr. Knollenberg. There's not a lot of free time in there.
    Well, I have some other questions that I'll submit for the 
record. I do want, though, to refer back to the gentleman from 
Indiana, Mr. Visclosky, if he has any additional questions.
    And I thank both of you for your testimony. We look forward 
to working with you. We're looking forward, very much so, to 
that report that's due at the end of this month, and we'd like 
to see Yucca--I think I speak for the chairman and others--
become a reality. We'd like to see the timeline you've 
presented to us adhered to as best possible. Certainly this 
Member is in agreement that we'd like to see some fruition and 
something at the end of the rainbow.
    So, Mr. Visclosky.

                        adequacy of utility fee

    Mr. Visclosky. Mr. Chairman, thank you very much.
    Mr. Barrett, some observers have concluded that the current 
fee imposed on the nuclear utilities may not be sufficient to 
fund the permanent geological repository. What would be your 
reaction to that observation?
    Mr. Barrett. This is a matter we watch very closely. We 
prepared a report last year. It was called a fee adequacy 
report where we looked at what the cost estimates were in the 
1994 timeframe. We also looked at the projections for the 
income, based on the 1-mil-per-kilowatt fee. As we looked at 
that, it looked like it was going to be sufficient for a single 
repository case, and there was no need to change the fee.
    Mr. Visclosky. Would that supply you with enough revenue to 
do the interim storage facility as well?
    Mr. Barrett. It was all close and it depended upon your 
assumptions of what the future interest rates would be over the 
next several decades.
    Mr. Visclosky. Payments into the Nuclear Waste Fund will 
decrease as nuclear power plants are taken out of service. What 
if a significant number are taken out of service because of the 
proposed deregulation? What impact would that have on your 
program?
    Mr. Barrett. That would alter the income side of the 
equation. What we assumed in our study was what we called a 
``no new orders case.'' We did not assume that there would be 
any new nuclear power plants coming online in the foreseeable 
future. We also assumed that the existing licensed plants would 
operate through their licensed time periods and would not close 
early, nor would there be extensions of their lives, either. So 
that's the case that we looked at. If you, however, would 
hypothetically consider many nuclear power plants go out 
earlier, the revenue projections would go down proportionately 
and we'd have to re-look at the situation.
    Mr. Visclosky. Do you have a contingency plan in case that 
would happen?
    Mr. Barrett. Basically, to date, there has been an excess 
of payments to the waste fund. There is $5 billion currently in 
the waste fund that can be used to continue the program. We 
would have to watch and see what the situation would be with 
that, but I think we do not have a specific contingency plan 
right now that addresses that issue. I believe there would be 
plenty of time to adjust our program and to come back to this 
committee if some of those projections come to fruition.
    Mr. Visclosky. All right. Is it true that the marginal cost 
of developing an interim storage capacity would be 
significantly lower if it was located at the site of the 
permanent repository?
    Mr. Barrett. That's probably true. You could, if you put 
interim storage where you're certain the repository is going to 
be, then share many of the facilities as you're building a 
stand-alone facility somewhere else. So, yes, there would be a 
substantial cost savings if you knew that was going to be the 
location.
    Mr. Visclosky. Mr. Alm, a recent Inspector General report 
noted duplication and overlapping ground water monitoring at 
Hanford. What steps are being taken to coordinate the 
activities?
    Mr. Alm My understanding is, based on the IG report, the 
field office developed a single comprehensive ground water 
program, so we followed up on the IG report.
    Mr. Visclosky. Mr. Chairman, thank you very much.
    Mr. Knollenberg. Well, thank you, Mr. Visclosky.
    I think that concludes the session today. We very much 
appreciate, again--very much appreciate the testimony of Mr. 
Alm and Mr. Barrett and appreciate your indulgence while we 
waited through a couple of votes. That happens, and it will 
happen again.
    So this committee stands adjourned until 10:00 a.m. 
tomorrow morning.
    [The questions and answers for the record follow:]

[Pages 111 - 480--The official Committee record contains additional material here.]


                                          Wednesday, April 9, 1997.

   FISCAL YEAR 1998 ATOMIC ENERGY DEFENSE ACTIVITIES BUDGET OVERVIEW

                               WITNESSES

DR. VICTOR H. REIS, ASSISTANT SECRETARY FOR DEFENSE PROGRAMS
KENNETH E. BAKER, ACTING DIRECTOR, OFFICE OF NONPROLIFERATION AND 
    NATIONAL SECURITY
DR. HAROLD P. SMITH, JR., ASSISTANT TO THE SECRETARY OF DEFENSE 
    (NUCLEAR AND CHEMICAL AND BIOLOGICAL DEFENSE PROGRAMS), U.S. 
    DEPARTMENT OF DEFENSE
HOWARD CANTER, ACTING DIRECTOR, OFFICE OF FISSILE MATERIALS DISPOSITION

                            Opening Remarks

    Mr. McDade. Good morning. I have a housekeeping matter to 
take care of for the record.
    Pursuant to the vote of this committee on March 12th, 1997, 
today's hearing on the Department of Energy's Atomic Energy 
Defense Activities will be held in executive session.
    Doctor Reis, I am sure you know everybody on a first name 
basis and can verify that the people in the room have the 
appropriate level of clearances?
    Dr. Reis. Yes.
    Mr. McDade. For the members of the subcommittee, I just 
want to give a reminder that the information discussed today is 
highly classified and shouldn't be discussed outside this room. 
And we would ask everybody, please, to turn off any two-way 
pagers and any kind of cell phones that anybody might have.
    With that, let me welcome the panel. I apologize to you for 
being late. I was at another committee which ran a little bit 
longer than I expected it to. So I apologize for keeping you 
waiting, but I am delighted to see all the pros who are in the 
room. This is the consummate group of professionals who are 
here. You are more than welcome to be here. We are delighted to 
have you.
    You know the rules of the game so we would appreciate it if 
you would file your formal statements and then proceed 
informally, tell us where we can cut the budget. I did not hear 
much response to that.
    Dr. Reis. Be delighted to help you with that, Mr. McDade.
    Mr. McDade. Doctor, I knew you would come forward.
    So proceed. Who is going to be the first witness, Dr. Smith 
or Dr. Reis?
    Dr. Smith. Traditionally, we start the Vic and Hal act with 
Vic.

                   Oral Statement of Dr. Victor Reis

    Dr. Reis. Okay. Thank you, Mr. Chairman.
    Mr. McDade. We are delighted to have you here, my friend. 
Proceed in your own fashion.

                defense programs fy 1998 budget request

    Dr. Reis. Thank you, Dr. Smith.
    It is a pleasure to appear before you today to present the 
fiscal year 1998 Department of Energy Defense Programs' budget, 
and I will just hit a few highlights.
    The Defense Programs' budget request for next year is some 
$5 billion, of which approximately $1 billion is in the Defense 
Asset Acquisition Account to fully authorize construction 
projects.
    Full authorization of construction projects is a new 
approach for the Department of Energy, but is similar to that 
used by the Department of Defense. On an apples-to-apples 
comparison with the fiscal year 1997 budget, this would 
correspond to a budget request of about $4 billion, an increase 
of $133 million over last year's appropriation.

                        defense programs mission

    Mr. Chairman, the mission of Defense Programs is to ensure 
the safety and reliability of the Nation's nuclear weapons 
stockpile indefinitely without underground nuclear testing; to 
safely dismantle and store excess nuclear weapons; and to be 
prepared to resume testing and produce new nuclear weapons if 
the President and the Congress so direct.
    This is an unprecedented job and one that involves 
considerable risk, but we are committed to do the job and 
manage the risk.
    My task today is to demonstrate that the Stewardship and 
Management program is working now and will continue to work 
into the future.

                    stockpile life extension program

    The essence of Stockpile Stewardship and Management is the 
Stockpile Life Extension Program. Weapons in the stockpile will 
age and the performance of these weapons may deteriorate. 
Weapon parts must be identified, replaced, and certified before 
any deterioration becomes unacceptable.
    For every part in every weapon now in the stockpile, the 
tools for assessment exist now and are being used now. But they 
will not be sufficient in the future, as the time since the 
weapon's last underground test increases and as experts who 
maintain the current weapons retire.
    Therefore, the Stockpile Stewardship and Management program 
must be dynamic. It must continually improve as the job gets 
more difficult.

                          annual certification

    How do we know whether we are good enough now and will be 
good enough in the future?
    On August 11th, 1995, when the President announced the U.S. 
intention to seek a zero yield Comprehensive Test Ban Treaty, 
CTBT, he stipulated six conditions for ratification. The last 
condition directed an extensive annual certification process 
that requires independent assessments from the directors of the 
nuclear weapons laboratories, the Commander-in-Chief of the 
U.S. Strategic Command, and the Nuclear Weapons Council.
    We did not wait until the CTBT was signed to start this 
process but began immediately. I am pleased to report to this 
committee that the first of these annual reviews has been 
completed. A memorandum went to the President from Secretary 
Cohen and Acting Secretary Curtis stating that the stockpile is 
judged safe and reliable, without nuclear testing. And with 
your permission, I would like to place that memo into the 
record.
    Mr. McDade. No objection.
    [The information follows:]

[Page 484--The official Committee record contains additional material here.]


    Dr. Reis. This annual certification represents a snapshot 
in time. So you might ask, what have we done this year to give 
you confidence that the program will be able to accomplish its 
mission in the future?
    Are we indeed able to discover problems before they affect 
performance, replace parts, and certify weapons? Could we 
return to testing and production if need be? Are we dismantling 
weapons according to schedule?
    There are a number of examples that provide us with some 
optimism and they are included in my testimony, but I would 
like to mention just a few.

                    b61 strategic bomb modification

    The first of these is the modification of the B61 strategic 
bomb. This modification changed the weapon so that it could 
penetrate the surface of a target area, impacting the ground at 
over a thousand times the force of gravity; yet not 
compromising its nuclear warhead. [Deleted.]
    When this modification program is complete, we will be able 
to retire the B53, the oldest and largest weapon in the arsenal 
and the weapon that lacks many modern safety features. The B61 
modification program used many of the elements of the 
Stewardship and Management program, from newcomputer simulation 
capability, through design at the Sandia and Los Alamos laboratories, 
to the production at the Kansas City and Y-12 Plants, culminating in 
successful testing in Alaska and at the Nevada Test Site.
    Not the least of this success was the extraordinary degree 
of teamwork with our Air Force customer.

               accelerated strategic computing initiative

    The second example is in simulation. Without new 
underground tests the ability to certify places enormous stress 
on our ability to simulate, and validate, the processes 
occurring in nuclear explosions.
    Last December the INTEL/Sandia team produced a computer 
that was the world's fastest, by a factor of three. More 
importantly, that computer is now solving stockpile problems 
that simply could not have been done heretofore in any 
practical amount of time. For example, one complex simulation 
that would have previously taken 74 days to run was completed 
in just 7 hours.
    Both IBM with Livermore and Silicon Graphics/Cray with Los 
Alamos have delivered installments of still faster machines, on 
which we are also making operational breakthroughs as we seek 
to maintain the pace of the Stockpile Stewardship program.

                   advanced experimental capabilities

    There are equivalent examples in surveillance, 
manufacturing, and science-based understanding of aging.
    The Dual Axis Radiographic Hydrotest machine at Los Alamos 
is back on schedule, and we have begun construction of the 
National Ignition Facility at Livermore. When completed, the 
National Ignition Facility will produce temperatures and 
pressures reached only inside an exploding nuclear weapon and 
the sun.
    Results from the Los Alamos' Pegasus and Sandia's PBFA-Z 
pulse power machines show remarkable promise, and the NOVA and 
OMEGA lasers continue to generate spectacular results directly 
applicable to the stewardship tasks.

                             tritium supply

    Both the accelerator and the commercial light water reactor 
tritium production tracks are on schedule for a fiscal year 
1998 decision that will support a START I stockpile. We 
established a tritium reservoir production capability at Kansas 
City, produced some 90 tritium reservoirs, and have filled over 
1,000 tritium reservoirs at Savannah River.

                  stockpile stewardship and management

    We dismantled 1,064 weapons at Pantex, and completed both 
the Stockpile Stewardship and Management Programmatic 
Environmental Impact Statement, which defines the streamlined 
complex of the future, and the Nevada Test Site Environmental 
Impact Statement, which will permit us to begin crucial 
subcritical experiments this June.
    A detailed plan describing what we expect to accomplish 
over the next 5 years has been completed in coordination with 
our Department of Defense colleagues, and we expect to submit 
it to the Congress very shortly.

                               Conclusion

    Mr. Chairman, when President Clinton announced that this 
country would seek a zero yield Comprehensive Test Ban Treaty, 
he stated that the nuclear weapons stockpile was a supreme 
national interest to the United States and that the Stockpile 
Stewardship and Management program was the means to ensure that 
the stockpile will remain viable.
    Mr. Chairman, I believe that the program before you now is 
fulfilling that national imperative. The people in the program 
are working now, and with your continued support the people in 
the program will continue to succeed.
    Thank you for your attention and, of course, I would be 
delighted to answer any of your questions.
    Mr. McDade. Thank you very much, Doctor Reis, for your 
usual excellent statement, and we will be back to you in a 
later round with a series of questions.
    [The statement of Dr. Reis follows:]

[Pages 487 - 503--The official Committee record contains additional material here.]


    Mr. McDade. Dr. Smith, do you want to proceed?
    Dr. Smith. Mr. Chairman, Mr. Baker will complete the 
testimony by the Department of Energy.
    Mr. McDade. Proceed as you wish, please, informally.

                 oral statement of mr. kenneth e. baker

    Mr. Baker. Good morning, Mr. Chairman, and members of the 
committee. It is a pleasure to address you today as the Acting 
Director of the Office of Nonproliferation and National 
Security at the Department of Energy. I have a brief statement 
and request that my formal statement be submitted for the 
record.
    Mr. McDade. Without objection.

                              Introduction

    Mr. Baker. The worldwide proliferation of weapons of mass 
destruction, or WMD, and their delivery system has emerged as 
one of the most serious dangers confronting the United States. 
In November 1994, and every year since, President Clinton 
declared such proliferation as a national emergency that must 
be addressed as one of the United States Government's highest 
priorities.
    I would like to report that we have been and will continue 
at a rapid pace to confront this critical national security 
issue. Today, I will discuss the progress of some of our key 
programs, as well as our new initiatives.
    Our commitment to serving our Nation's security involves 
preventing the spread of weapons of mass destruction materials, 
technology, and expertise; detecting the proliferation of 
weapons of mass destruction worldwide; reversing the 
proliferation of nuclear weapons capabilities; and responding 
to emergencies. We particularly draw upon 50 years of science 
and technology expertise resident throughout the DOE laboratory 
system to help us achieve these goals.

              material protection, control and accounting

    Our program of cooperation between DOE laboratories and 
nuclear facilities in Russia and the Newly Independent States 
to improve the protection, control, and accounting of weapons-
usable nuclear materials is yielding dramatic results.
    When I testified before this committee 2 years ago, I 
showed upgrades at one facility. I am happy to report today the 
program has expanded to over 40 facilities in the former Soviet 
Union where cooperation is now under way to improve security of 
hundreds of tons of weapons-usable materials.
    As you can see from the map of the former Soviet Union, we 
are working in five different sectors: MINATOM's, which stands 
for the Ministry of Atomic Energy, civilian complex; MINATOM's 
defense complex; the independent civilian sector; the non-
Russian Newly Independent States' sector; and the naval nuclear 
fuel sector. Our work in 1997 will address all known facilities 
in the former Soviet Union that contain weapons-usable nuclear 
material.
    Through this critical program, we are working to improve 
security for approximately 1,200 metric tons of highlyenriched 
uranium and 200 metric tons of plutonium in the former Soviet Union. We 
are working with the Russian Navy and the icebreaker fleets to protect 
their fresh naval fuel, which could also be used in nuclear weapons. 
Our work in 1998 will accelerate our ongoing efforts and expand to 
address broader Russian Navy fuel protection issues and improve the 
materials' protection control and accounting of Russian nuclear 
materials during transport. By the end of fiscal year 1998, we will 
expect to have completed MPC&A work at 25 facilities.
    Some of my staff have just returned from Obninsk, Russia, 
after having participated in the first Russian International 
Conference on Nuclear Material Protection Control and 
Accounting. This historic conference was extremely successful, 
drawing participation from 250 Russians from nearly all the 
nuclear facilities in Russia, as well as the other 
representative countries.
    At this conference, Russian Minister of Atomic Energy 
Victor Mikhaylov expressed his commitment to modernize 
safeguards and security for the Russian nuclear materials, 
noting that Russian is now financing a substantial amount of 
the MPC&A upgrades.
    It is clear, not only from the extensive support for this 
conference by the Russian government but also by the high 
quality of discussion at the conference, that there is serious 
dedication to the improvement of nuclear materials safeguards 
and security in Russia. This new developing safeguards culture 
is important evidence of the success of the Department of 
Energy's cooperative program of MPC&A improvements.

                initiative for proliferation prevention

    Similar to the MPC&A program is the Initiative for 
Proliferation Prevention, or IPP, that seeks to draw 
scientists, engineers and technicians from the former Soviet 
Union's nuclear, chemical, and biological weapons programs into 
long-term commercial ventures, thereby working to reduce the 
potential for brain drain to proliferant states or 
organizations.
    These commercial ventures have engaged over 2,700 former 
weapons personnel, and will have 5,100 people involved at the 
end of this year; 10 DOE national laboratories and a coalition 
of over 75 U.S. corporations and universities and over 70 
institutes in the former Soviet Union. We project that these 
numbers will increase tremendously throughout the year.

                        research and development

    My office plays a key role in supporting the United States' 
efforts to monitor and verify a Comprehensive Test Ban Treaty. 
We are developing technologies that will detect nuclear 
explosions underground, underwater, and in the atmosphere. If 
such an explosion does occur, these technologies can detect, 
locate, and identify its source.
    This summer, the Air Force will be launching for us our 
FORTE small-satellite, which will demonstrate the improved 
ability to detect and characterize electromagnetic pulses from 
nuclear explosions in the atmosphere, an important aspect of 
our treaty monitoring capability.

                Chemical and biological nonproliferation

    This year, we began a new chemical and biological 
nonproliferation program that seeks to leverage the chemical 
and biological science capabilities of our national 
laboratories to develop technologies to detect, characterize, 
and facilitate decontamination of chemical and biological 
threat agents. In 1998, we plan to expand our emergency 
management and response capabilities to effectively respond to 
chemical and biological incidents.

                      countering nuclear smuggling

    Our program to counter nuclear smuggling is part of the 
partnership with other Federal agencies that overlays barriers 
to illegal diversion of fissile and radiological materials at 
their source; detection and interdiction of materials during 
transit and at international borders; and response to 
threatened or actual use of these materials.
    We have just completed work on an overall program plan, and 
I will pass this out to you, sir, on nuclear smuggling. This 
plan will lay out our work for the next year. In fiscal year 
1997, we have demonstrated the ability of the national 
laboratories to determine the source of smuggled nuclear 
material through nuclear forensic techniques. In 1998, we plan 
to provide customized versions of equipment used at DOE 
facilities to improve security on the U.S. borders, and we 
expect to develop highly portable and inexpensive radiation 
detection technology for city and State law enforcement and 
other emergency personnel. Things like this would be used for 
radiation detection by the Customs agents, about this big.
    Mr. McDade. Does it work better than a dog?
    Mr. Baker. Yes, sir, it works a little better than a dog. 
Not much better but it works better.
    Dr Reis. It probably eats a lot less, too.
    Mr. McDade. Mr. Baker, isn't that technology that is pretty 
mature, the technology you just showed us? Is that new 
technology?
    Mr. Baker. It is technology in the last 2 years.
    Mr. McDade. The last 2 years?
    Mr. Baker. Yes, sir. [Deleted.]
    Mr. McDade. That is a good place to test it.
    Mr. Baker. Yes, sir.
    Mr. McDade. Go ahead, my friend.

                              intelligence

    Mr. Baker. Finally, our intelligence program continues to 
focus on the DOE's laboratory experience in nuclear weapons 
design and production to provide nuclear weapon foreign 
intelligence information and technical analyses on emerging 
national security issues of today.

                           domestic programs

    In concert with all our international activities, we are 
responsible for wide-ranging activities to accomplish 
nonproliferation and national security goals in the United 
States. These activities include directing a rigorous nuclear 
safeguards and security program for the entire Department of 
Energy complex, thereby ensuring the security of our own 
materials, technology and expertise; declassifying millions of 
departmental documents while protecting critical information 
that has the potential to facilitate the proliferation of 
weapons of mass destruction; maintaining a security 
investigations program for both Federal and contractor 
personnel; and managing and strengthening the Department's 
emergency management and response capability to provide 
assistance to other government agencies as well as State, 
tribal, and local governments.

                               conclusion

    Our budget request for fiscal year 1998 generally reflects 
an increase in the nonproliferation activities with the former 
Soviet Union, the MPC&A program, increasing the chemical and 
biological weapons nonproliferation program and countering 
nuclear smuggling activities, as well as supporting our program 
staffing requirements.
    Preventing the spread of weapons of mass destruction is a 
critical national interest and a global security issue. We are 
proud to be one of the leaders working aggressively with this 
committee and other committees of Congress, other 
U.S.Government agencies, and the international community, to make this 
world a safer place for all.
    Thank you for your time, Mr. Chairman. I will be happy to 
answer any questions that you may have.
    Mr. McDade. Mr. Baker, thank you for an excellent 
statement. We will be back to you with questions, and we 
certainly, all of us, recognize the awesome responsibilities 
that you have, and we wish you Godspeed in your efforts.
    [The statement of Mr. Baker follows:]

[Pages 508 - 514--The official Committee record contains additional material here.]


    Mr. McDade. Dr. Smith, it is nice to see you again.
    Dr. Smith. Thank you, sir.

                   Oral Statement of Dr. Harold Smith

    Mr. McDade. Welcome to the committee and file your 
statement, if you would, for the record and proceed as you 
wish.

                              Introduction

    Dr. Smith. I shall do that. And as you suggest, I will 
comment informally on some of the highlights of the past year. 
After all, I am the focal point in the Department of Defense 
for all things nuclear and as such I have the pleasure of 
working with my colleagues left and right in maintaining the 
nuclear arsenal.
    I have also taken the opportunity of this past year to 
travel widely to some of their facilities. I visited all three 
laboratories, Oak Ridge, and Savannah River. I also took the 
time to visit some of our important DOD installations such as 
Barksdale Air Force Base where we have the B52s and the key 
bases in Europe where we have nuclear weapons.
    I would characterize the general feeling within the 
Department of Energy, particularly at the laboratories, as 
having gone through a watershed this year. When the fact of the 
moratorium was first made known, I would say the laboratories 
were in a state of denial. That has changed. That has clearly 
changed.
    Now I think the challenge is accepted and they are moving 
smartly to carry out the program that Dr. Reis has described to 
you before and undoubtedly will describe in detail later today.

                          annual certification

    The highlight has been, we have gone through our first 
annual certification. That is an enormous joint effort between 
the two departments involving the directors of the national 
laboratories, General Habiger, the commander of the strategic 
command, and the Nuclear Weapons Council where I have the 
pleasure of being the executive secretary. Dr. Kaminski is the 
chairman. Mr. Curtis has been representing the Department of 
Energy, and General Ralston, the Vice Chairman of the Joint 
Chiefs of Staff.
    It is the correct way to interface the two departments and 
thanks to the input from the laboratories, from STRATCOM and 
from the Nuclear Weapons Council, we were able to inform both 
Secretaries and, from the Secretaries, the President, that we 
find the stockpiles safe, secure and reliable, and that we see 
no need for testing for the foreseeable future. But we will, as 
the President directed, reexamine the issue each and every 
year.
    In fact, we have already now started the process in which 
we hope to certify the stockpile in August of this coming 
summer, which would be the second anniversary of the 
President's statement. In simple terms, all goes well with 
regard to annual certification.
    Mr. McDade. Do you have a specific date to hit in August, 
Doctor?
    Dr. Smith. As the executive secretary, I try to maintain 
that on exactly the anniversary of the President's speech. So 
it is about----
    Mr. McDade. Tell me that date again, please.
    Dr. Smith. I think it is August 11th.
    Dr. Reis. Eleventh of August.
    Mr. McDade. So you have to certify over by 11 August?
    Dr. Smith. That is our hope, sir.
    Mr. McDade. Okay. Thank you.

                               B61-mod 11

    Dr. Smith. Finally, Dr. Reis has already highlighted, I 
think, one of our most important accomplishments in the sense 
that the two departments are working shoulder to shoulder, and 
that is the B61-11, the tactical nuclear weapon that does 
provide penetration and allowed us, from the war-fighters' 
point of view, to retire the B53. Dr. Reis has already 
described that achievement.
    Let me just note some of the aspects on the defense side. 
The B53 could be only carried on the B52 bomber, and I 
apologize for all the use of Bs and Ws and numbers. But the 
B11--the B61-11 can be carried on the F16 and as you read in 
the press these past few days on the B2. So it is a much more 
versatile weapon capable of doing everything, with regard to 
targeting, that its predecessor, the B53, was capable of doing; 
has one-twentieth the yield and therefore has greatly reduced 
collateral effects.
    It was, as Dr. Reis said, a wonderful collaborative effort 
in which we went from the drawing boards to in the fleet in 16 
months. That is an amazing accomplishment and one in which we 
are truly proud.
    I also want to note that the Air Force, under the 
leadership of General Fogleman, responded with alacrity and 
thoroughness to my request that we have a single focal point in 
the Air Force, as we do in the Navy, for all things nuclear. 
Major General Neary has been given that position and he has 
moved out smartly. I think we are doing a very, very good job 
there.

                                  b52

    Mr. McDade. Let me ask you a question, if I could just 
interrupt you at this juncture. When you talk about the new 
weapon and the delivery systems that will replace the B52, the 
B52 was the machine that had the capacity and the range to do 
all sorts of things. Would you address yourself to the number 
of platforms that are available to deliver and the kind of 
ranges that they have?
    Dr. Smith. Well, the B2 is equipped with--15 of them 
equipped to carry the B61, all the B61s, including the ones I 
just mentioned.
    Mr. McDade. What is the number in the B52 fleet, for 
example? What is the gross number?
    Dr. Smith. I can get you the exact number but I think itis 
about on the order of 60.
    Dr. Reis. I believe it is more like 90.
    Mr. McDade. The question that comes to me is if you have 
got the new weapon----

                       modification of the B61-11

    Dr. Reis. I think the confusion might be that we are 
replacing the B53, which is a weapon, which could only go on 
the B52. We still have the same number of B52s and B2s but the 
new weapon can fit on the B52, if you had to, but it is 
primarily designed to go on the B2 or the F16.
    Mr. McDade. It is part of the program to replace the B52?
    Dr. Reis. No, it is not to replace the B52, but it is to 
replace the weapon. [Deleted.]
    Mr. McDade. Not the platforms?
    Dr. Reis. Not the platforms.
    Mr. McDade. Go ahead, Doctor.
    Dr. Smith. I want to emphasize, the B52 uses the ALCM, the 
stand-off cruise missile. But to answer your question, 15 B2s 
will be equipped to carry the B61 bombs, and we have dual 
capable aircraft in Europe, the so-called DCA, which are F16s, 
carried by us and our allies, and their range, of course, is 
that of a tactical fighter. But with air refueling, literally 
it is only the ability of the pilot to withstand the rigors of 
flight that limits the range of that aircraft.
    All of these, I think, show that the partnership between 
the two departments is strong and, in an era where we can't 
test, getting stronger. We now have to be both a faithful 
partner and a smart customer of DOE.
    In that sense, the relationship is progressing towards that 
of a prime contractor to its subcontractor. That is, we have to 
know an awful lot more about nuclear weapons today than we ever 
had to in the past.
    Fortunately, due to such programs as dual revalidation we 
work shoulder to shoulder in the laboratories and in the plants 
so that we have skilled people on our side who can evaluate the 
voluminous reports and tests that will be coming to us.

                               Conclusion

    In short, sir, I think the partnership is working very 
well. I would be more than pleased to answer any questions that 
you or your colleagues might have.
    Mr. McDade. Thank you, Doctor. We are certainly glad to 
hear that.
    [The statement of Dr. Smith follows:]

[Pages 518 - 523--The official Committee record contains additional material here.]


    Mr. McDade. Dr. Reis, I am coming your way first with some 
questions. But let me first express our thanks to you for the 
briefing that you gave us on the weapon itself. It was, as you 
know, Jeanne's suggestion up here, and you complied with it, 
and all the Members went away better informed, and we are 
grateful to you for your efforts and for your time.
    Dr Reis. Thank you, Mr. Chairman.

                    defense programs budget request

    Mr. McDade. Let me say that you really caught our attention 
on this $40 billion item over a 10-year period, extraordinary 
sum of money as we look at what we are facing as we go 
downstream.
    Is that the number that is still--so far as you are 
concerned, is that the accurate amount that the Department 
wants to ask this committee for, $40 billion over a 10-year 
period?
    Dr. Reis. That is approximately correct. You can never 
obviously project--we are dealing in an unknown area so that is 
our general estimate at this time, and we haven't seen anything 
yet to change that.
    Mr. McDade. How much are you asking for the next fiscal 
year? What is that number?
    Dr. Reis. The next fiscal year would be just $4 billion.
    Mr. McDade. Well, just $4 billion?
    Dr. Reis. Considering what you get, it is a bargain. You 
can appropriate with pride, Mr. Chairman.
    Mr. McDade. Be careful, friend.
    Dr. Reis. But it depends, of course. We are actually asking 
for $5.1 billion because there will be about a billion dollars 
in the Defense Asset Acquisition Account.
    Mr. McDade. Gross amount is $5.1 billion?
    Dr. Reis. $5.1 billion, yes.
    Mr. McDade. If you are funding this in two accounts, what 
is the gross amount besides the $40 billion estimated?
    Dr. Reis. That would be the same.
    Mr. McDade. There is no difference?
    Dr. Reis. No, It is just a difference in what----
    Mr. McDade. What kind of facilities are we talking about or 
are we talking about facilities?
    Dr. Reis. Well, we are talking about facilities, we are 
talking about plants and we are talking about computers. We are 
talking about a good deal of experiments, and we are talking 
about, most importantly, maintaining an expert staff over the 
years. We are also developing--shall I run through those 
perhaps for you?
    Mr. McDade. I think that the committee needs that. It is a 
very significant decision that we all have to make together.
    Dr. Reis. Right.
    Mr. McDade. And I think that it would be helpful if you 
enlightened us to the extent that you think we need to be 
enlightened.

                             tritium supply

    Dr. Reis. Well, we will try to do that over the course of 
the hearing.
    Let me start perhaps at the top. We have to produce tritium 
for the nuclear weapons. As you know, or I think you have now 
been through the nuclear weapons 101 so you are experts in 
understanding why we need tritium to ensure that all the 
weapons boost properly.
    Mr. McDade. All we can do is add 101 and 102. That is all 
we need, Doctor. Be careful of it, though.
    Dr. Reis. It will make you dangerous then, right?
    Mr. McDade. Yes, indeed.
    Dr. Reis. So the country has not produced any tritium since 
1988. Since we had a considerable amount of excess weapons at 
the time and we are bringing the numbers down, we are using the 
tritium that we had used for previous weapons that we expect to 
have in the future. As you recall, tritium decays by 5 percent 
every year so we have to replace that.
    So a large chunk of the budget, both not just this year's 
but in the outyears, is being used to produce a new tritium 
source. Sothat will be one.
    Mr. McDade. Let me make an inquiry there. As we approach 
that subject under START I, it is information of the committee 
that we have enough tritium to go to 2005 with a 5-year 
reserve.
    Dr. Reis. That is correct.
    Mr. McDade. Is that an accurate number?
    Dr. Reis. That is correct.
    Mr. McDade. Isn't there some flexibility here? I mean, if 
we have got $40 billion in one program and the tritium program 
right behind it, is there some flexibility in terms of funding 
that you can see in the next fiscal year?
    Dr. Reis. With the current requirement set upon us by the 
Defense Department through the Nuclear Weapons Stockpile 
Memorandum, we are pretty much up against the stops on that. 
Perhaps it would be appropriate at this time to show you that 
specifically on a viewgraph curve (Chart 1).
    [The information follows:]
    [Deleted.]
    Mr. McDade. Sure.
    Dr. Reis. I think we can do that.
    Maybe we can shut the lights just a bit.
    This is the real stuff. These are the classified numbers. 
What this shows is tritium as it decays. The red line is the 
decay of tritium. That is what mother nature gives us. That is 
physics. There is nothing much we can do about that. So as you 
can see right now, we do have excess tritium in the--gee, a 
little high technology laser pointer. There we go. This is 
terrific. Wow. There it is.
    Dr. Smith. I want you to note his steady hand, Mr. 
Chairman.
    Dr. Reis. We will be talking about lasers very soon as 
well, so this shows you that. They are somewhat bigger than 
this one, I should add.
    And this is the requirement that is given to us from the 
Department of Defense.
    Mr. McDade. To the year 2005?
    Dr. Reis. In the year 2005, we begin to run into this 5-
year reserve.
    Mr. McDade. Can you say that the real critical time is 
2010, then?
    Dr. Reis. If you run out of the reserve, then you are, as 
what you can see, you are completely out of the 5-year reserve 
back in about 2009, 2010; that is correct.
    Mr. McDade. The question I am asking is that as you look at 
it, and the committee has to make all of these decisions about 
how we try to find the money to fund very important programs--
--
    Dr. Reis. That is correct.
    Mr. McDade [continuing]. The real year is 2010 rather than 
2005?
    Dr. Reis. Well, the concern would be, and again that is a 
number that comes to us from the Department of Defense. Perhaps 
Dr. Smith can add to that. The concern there is if something 
happens to your supply during this period, how much time, how 
much excess do you really need. There has been a fair amount of 
analysis done, primarily again by the Department of Defense, in 
terms of where and what the number is.
    Mr. McDade. DOD says you need a 5-year breathing period----
    Dr. Reis. Yes, sir.
    Mr. McDade [continuing]. Between the original date or ramp-
up date or whatever you have to go through to replace it?
    Dr. Reis. That is correct.
    Harold, would you want to comment on that?
    Dr. Smith. Yes. Just two quick comments, Mr. Chairman. What 
Dr. Reis is arguing is the lead and hedge strategy, that if--we 
intend under the nuclear posture review to be able to maintain 
a START I level ad infinitum.
    Now, that does not involve great amounts of expenditures in 
the near term but could involve large expenditures in the 
future. If the Russians ratify START II and, even better, if we 
actually do proceed to a START III, with even lower stockpiles, 
then as Dr. Reis will explain, the requirements for tritium 
drop.
    Those decisions should be made in the future. But for the 
time being----
    Mr. McDade. That is what we are going to get into and we do 
want you to factor that in, Doctor, and explain to the 
committee what the impacts are of START II, or if things got 
even, a START III.
    Dr. Smith. The second point I wanted to emphasize is that 
the Department of Defense insists that we keep the reserve. 
That is, we will have no planned use of that 5-year reserve.
    That is a contradiction in terms, in our opinion. So we do 
not want to dig into that for any known reason. If it turns 
out, due to unanticipated events, we have to, of course that is 
a different question.
    Mr. McDade. How did you come to the 5-year conclusion?
    Dr. Smith. That is a management judgment, sir.
    Mr. McDade. It is a judgment call?
    Dr. Smith. That is a judgment.

                       active/inactive stockpile

    Dr. Reis. Yes. Let me get to that. This viewgraph shows you 
the difference between START I and START II (Chart 2). These 
are the numbers we are responsible for in START I, and it 
doesn't show up too well. This is the number in the active 
stockpile. This is the number in the inactive stockpile.
    [The information follows:]
    [Deleted.]
    What you see here, and I will try to get that for you, if 
we move to START II, this is the inactive/active stockpile. But 
the total number that the DOE is responsible for, and right now 
that includes the amount of tritium--in other words, a 
requirement from the Department of Defense signed by the 
President said you will also include tritium for the inactive 
stockpile. So in a sense, whether the Department of Defense 
gives us the requirement that says START II or even START I, it 
won't make that much difference from our perspective because 
their requirement is still that total number there. [Deleted.] 
So it would not make that much difference.
    Mr. McDade. That is a judgment call?
    Dr. Reis. It is a judgment call.
    Mr. McDade. Let me ask you this question, because there is 
a lot of conversation and I know that you and Dr. Smith are 
privy to it, that if you went out to, say, 2000, the stockpile 
is going to be much smaller that we are going to have to 
manage; isn't that accurate?
    Dr. Reis. [Deleted.]
    Mr. McDade. What has happened--we need enlightenment. What 
has happened to the requirement for tritium by 2006? We are 
being asked to make a judgment based on 2010. At the stockpile, 
it is around 10.
    Dr. Reis. The difference between the two is what you are 
keeping in the reserve, and that is the 5-year reserve which, 
as Dr. Smith said, is for the unknowns.
    We can predict this. We know and we are producing--our 
program defines, a tritium program, a new production source of 
tritium. We will have that on line by 2005, 2007, depending 
upon which choice we choose.
    Dr. Smith. Let me just elaborate on that point, that the 
Department of Energy will make a decision in 1998 as to which 
of the two tracks to take to produce tritium. At that point, we 
are down to a single track. If something should go wrong 
between then and, say, 2005, that is where we need that 5-year 
reserve, because I think history and prudent management suggest 
that it might take as much as 5 years to get back on line again 
at the kind of rates we are talking about here.
    Mr. McDade. It would take you 5 years to get back to a 
different system, if this one should belly up in some way?
    Dr. Smith. That is a prudent judgment, yes.

                       dual track tritium program

    Mr. McDade. You have got two tracks now, right?
    Dr. Smith. That is correct.
    Mr. McDade. Explain to the committee what the two tracks 
are.
    Dr. Smith. Victor, do you want to do that?
    Dr. Reis. Yes. We have two tracks. The first track, I won't 
use them first or second because we are trying to keep an even 
field on that, is an accelerator production of tritium. That is 
a new technology. We feel very comfortable with it, and, again, 
our progress over the past year shows that we feel very 
comfortable to be able to meet the schedule for producing that. 
Things are going to very well on that. But it is not a reactor. 
It is a new way of producing tritium.
    And that is a program that would, if we went ahead, that it 
is being----
    Mr. McDade. Let me interrupt you there, Doctor.
    Dr. Reis. Yes.
    Mr. McDade. Because obviously as you are doing that you are 
looking for some benefits to be gained on the side. One is 
cleanliness; isn't it? It is a means of--tell the committee why 
you have to go to an accelerator rather than just keep doing 
what you have been doing?
    Dr. Reis. Well, the advantages of an accelerator again are 
primarily that it is not a reactor. There will be no waste; 
there will be almost no radioactive waste. As many of you are 
aware, radioactive waste is always a major problem with many 
new reactors. It is intrinsically safe.
    If something happens, it just turns off. There is no 
radioactive material that you have to deal with.
    Mr. McDade. No meltdown possibilities?
    Dr. Reis. There are no meltdown possibilities. There is 
nothing to melt down.
    Mr. McDade. What about cost factors?
    Dr. Reis. On the other hand, our estimate right now is that 
construction costs would be about $3 billion to meet this 
requirement and a total operating cost of about $4 billion. So 
that is not cheap.
    Mr. McDade. What are the cost figures on the other system?
    Dr. Reis. The other system, we don't have cost figures yet. 
The idea there would be to use a commercial light water 
reactor. There are approximately several hundred million, 
perhaps as much as a half billion dollars, for an extraction 
facility beyond that. The idea is that one would use a 
commercial light water reactor that is already in existence, 
and we would produce special rods.
    Mr. McDade. Let me ask you: Is that a more comfortable 
technology for you? Do you know more about that than the 
accelerator program?
    Dr. Reis. We certainly know more--of course, that is the 
traditional way that reactors have been used in the past. I am 
sorry. That is the traditional way that tritium has been 
produced in the past by using reactors. We have never used, 
this country, commercial light water reactors. We have always 
used heavy water reactors. But as you know, there have been 
over 100 reactors producing electricity, and the idea is that 
you would use one of those currently in service.
    Either the Department would purchase one from a commercial 
company or it would, if you will, rent radiation services from 
them. We are in the process of making that happen. We have a 
request for a preliminary or a draft proposal that has been 
out. We expect to have responses back on that proposal by this 
fall.
    The reason we are looking at dual tracks is that the 
country has never actually mixed the making of tritium, which 
is obviously for nuclear weapons, with commercial practices of 
generating electricity or the other things one does with 
reactors. So we expect that there will be considerable legal 
and perhaps some regulatory concerns with doing that.
    So that is why we have taken those two tracks.
    Mr. McDade. We know, or at least it would be one's 
experience that if you go the light water reactor way you are 
going to have a lot of resistance to it, you are liable to end 
up in court for 10 years or heaven knows what.
    Dr. Reis. That is right.
    Mr. McDade. Will you face the same problems with the 
accelerator?
    Dr. Reis. The accelerator will be used only for the 
production of tritium. And again, the safety concerns and the 
environmental concerns, that are the thrust of much of the 
litigation and regulatory concerns just don't exist, or exist 
to a much, much lower level for the accelerator.

                  science-based stockpile stewardship

    Mr. McDade. Okay. I just want to ask one more question 
before I yield to my friend, Mr. Fazio.
    We all have a concern on this side of the table about the 
science-based program and how well it works; are we secure 
enough, et cetera, et cetera, et cetera.
    What examples can you give the committee to assure us that 
the science-based program is effective; that the stockpile is 
going to be what we want it to be, when, as and if we need it, 
and pray God we never do, but if we do, whatcan you tell us 
about or what can you demonstrate to us about the science-based program 
and how it works well?

                                  w76

    Dr. Reis. Let me mention one example that we have done over 
the past several years. And this is a classified example, so 
again I would----
    Mr. McDade. Let me just say to the members of the 
committee, some were not here, this is a classified hearing, 
and we would ask you all not to discuss outside of the room 
what you hear in the room. We need to have frank discussions, 
and we need to make sure we don't have any kind of leaks or 
discussions outside of this room.
    Go ahead, Doctor.
    Dr. Reis. Thank you very much, Mr. Chairman.
    [Deleted.]
    In the past, what one would have done is to go out and test 
it, would have put it underground and give it a test. We didn't 
want to do that now because we were under a moratorium and 
people felt it wasn't sufficient to go back and look at that. 
So we would try to go back and certify.
    When each of the laboratories first looked at that problem, 
one laboratory came back and said, well, as best we can tell 
there is no problem. The other laboratory said, as best we can 
tell, it is a big problem. [Deleted.]
    So we initiated a dual--it was one of our early ideas of 
dual revalidation. We both----
    Mr. McDade. What year has that been?
    Dr. Reis. That was like 2 years ago.
    Mr. McDade. Two years ago?
    Dr. Reis. Right. This is just when dual revalidation was 
basically getting started. It is really an important warhead, 
and it is one that people are very concerned about, so let's 
see if we can take this working with our defense colleagues to 
see what would happen.
    We used both laboratories separately. They did several 
things. One developed a special three dimensional code, which 
allows you to begin to estimate how closely--what this effect 
might be. [Deleted.]
    This is a very complicated physical phenomena.
    Both laboratories used different types of computational 
techniques. How do you validate those computational techniques?
    We had to develop special experiments for that. We used 
some of the pulse power machines at Los Alamos. We developed 
some shock tube work at Los Alamos. We adjusted the NOVA laser 
at Livermore. We ran special experiments, which were able to 
validate that the codes we were using on the W76 made sense. 
[Deleted.]
    So, again, we used these codes that we developed to go back 
and look at those test data. So we used previous test data. We 
used new experiments. We used new codes. [Deleted.]
    Now, this was one weapon, literally, you know, one weapon. 
But it was a problem that might show up all the time.
    However, it took us about a year and a half to go through 
all of these situations.
    Much of the experiments that we are doing now, much of the 
code work we are doing now, would allow us to do that in much 
shorter time than we were able to do it.
    Again, we were able to go through that process. It was 
science based because we really had to understand what was 
happening. It wasn't enough to test. We used a lot of the 
archival data. We were very much code driven but we had to 
validate those codes with new experiments. So the process 
itself, the science-based process itself, was used on that. It 
was used on that particular device.
    We are doing it right now, with the W87 life extension 
program, where there will be some changes to the W87. Again, we 
have gone back and used much of the modern codes. We are 
actually using many of the new Accelerated Strategic Computing 
Initiative, ASCI, accelerated computer devices itself. The B61 
Mod 11 that I mentioned----

                               computing

    Mr. McDade. Let me interrupt you there. You said you will 
be using the new computers?
    Dr. Reis. Will be using the new computers.
    Mr. McDade. Is that science-based?
    Dr. Reis. Yes, right now.
    Mr. McDade. Just tell us a little bit about that because we 
know it is an important development in the country. Tell us 
about that. What are you doing with that computer that you 
couldn't do before, for example?
    Dr. Reis. The main things that are coming across are three 
dimensional problems. In the past, everything we did was 
because the weapons, as you recall, were basically all 
symmetric. We really only need two dimensions to be able to 
model what is happening and to be able to test what is 
happening.
    As these weapons age, what happens is you get bumps and 
cracks and warts. I mean, we are all familiar with that problem 
ourselves. And to be able to calculate what happensto these 
effects really does require a lot more computational power. We have 
indicated, and our analysis is that the computing will have to be about 
100,000 times improved over what one had in the normal supercomputers, 
if you will, of the day right now.
    So that is what this whole Accelerated Strategic Computing 
Initiative is, and I am sure we will get a chance to talk more 
about it, but the key is that those experiments and those 
calculations are really being done today, while the computers 
are moving along a very, very significant path. We are not 
waiting until they are all there. We are working them. We are 
working them today. There are a number of examples, which I 
would be pleased to give you for the record as well as how much 
that is helping with what we are doing now.
    Mr. McDade. Please supply them for the record, and also 
send copies of what you are going to put in the record to the 
staff, please.
    Dr. Reis. Surely.
    [The information follows:]

               Accelerated Strategic Computing Initiative

    Simulation capabilities have always played an important 
role in the assessment and certification of the nuclear 
stockpile. The Comprehensive Test Ban Treaty requires an 
increased reliance on those capabilities. Simulation has 
recently played an important role for DP in resolving several 
stockpile issues without nuclear testing, including a question 
about the W76. It also provided critical information for the 
certification of the B-61 Mod 11. The advanced and accelerated 
simulation capabilities provided by the Accelerated Strategic 
Computing Initiative (ASCI) will also play a critical role in 
ongoing stockpile programs such as the W87 life extension 
project, W76 recertification, and W88 pit rebuild. Finally, 
ASCI provides advanced simulation and computing capability on a 
continuing basis for assessment and certification.
    Some current and near term examples of computing and 
simulations that could not be done before are attributable to 
our development of supercomputers operating in the 1-3 trillion 
operations per second (TeraOps) range. These include: a 
reduction of simulations for predicting neutron generator 
failures from 74 days to 7 hours; neutron generator critical 
component failure simulation times reduced from 2 years to 
overnight; and the first 3-D implosion of a WR primary with 
real engineering features was performed last Fall on the ASCI 
Red platform. These types of tests become increasingly 
important as the enduring stockpile ages beyond its planned 
design lifetime.
    Additional benefits expected to accrue to increased 
capabilities from the platforms operating in the 10 to 30 
TeraOps range are: virtual testing and virtual prototyping 
through the use of 3D forging/welding analysis, full physics 
prototyping and crash/fire safety analysis.
    Future capabilities that DP plans to perform on a 100 
TeraOps platform include: 3D large molecule dynamics and 3D 
large scale coupled physics. This will provide the weapons 
designers with a platform that will truly serve as a digital 
proxy to underground testing.
    Nevertheless, even though we have been extremely successful 
to date and are making significant intermediate contributions, 
we must focus on our overall goal. Our goal is to provide the 
digital alternative to underground testing, and that requires a 
sustained, balanced program over time resulting in the 
development of full three dimensional codes, the platforms 
capable of running them, the networks and problem solving 
environments needed to optimize them, and the effective 
participation of the designer community in code validation 
while they are still available to the program. The above 
successes provide confidence that we are on the right track and 
can accomplish our objectives. They are steps toward our 
ultimate objective, not alternatives to it.

    Dr. Smith. Mr. Chairman, just to give our side of what Dr. 
Reis has been describing, he has done an excellent job. But 
just because we can't test doesn't mean that we can't 
experiment. Therefore, that is the reason that I think I have 
seen the laboratories go from denial to challenge.
    What Victor just described is an intellectual scientific 
tour de force in which there is clever calculation, putting it 
all together. That is an enormous step which gives the 
Department of Defense some confidence that, indeed, we can have 
the kind of stockpile we need without the ultimate test, that 
is, underground explosion.
    Mr. McDade. That is a tremendous change and awesome 
responsibility.
    I am pleased to yield to my friend from California.

                         stockpile stewardship

    Mr. Fazio. Thank you, Mr. Chairman.
    I appreciate the questioning that we have just engaged in, 
and I guess I would like to just sort of see if we can 
summarize it with something maybe just slightly longer than a 
sound bite, but I know how hard that is.
    We don't hear a lot about the peace dividend, but when we 
go to the Floor and we talk to our constituents and we say that 
it is going to cost us more not to build and test nuclear 
weapons than it did to produce and test them in the atmosphere 
or underground, people are astounded. They can't necessarily 
relate to that.
    Can you try to give us in summary terms why that is so?
    Dr. Reis. Well, of course, first of all----
    Mr. Fazio. Do you have a sound bite?
    Dr. Reis. It is a little hard to do in a sound bite. But 
first of all, it is not costing us more. It, in fact, is 
costing us perhaps a little bit less to do this.
    Your question is, why is it $4 billion, not $2 billion or 
some number like that? It is a much more difficult--it is 
really a more difficult job in many respects.
    I will show a viewgraph of that because I think it is 
important (Chart 3).
    [The information follows:]

[Page 533--The official Committee record contains additional material here.]


    Mr. Fazio. The concept, basically, everybody on this 
committee is going to have to not only understand, but be in a 
position to translate to our constituency.
    Dr. Reis. There are two parts to this, and one is the 
dollar amount that is in constant dollars, which is important. 
This is the amount of funding for the total Defense Programs--
the Atomic Energy Defense Activities that this Committee has 
been voting on since 1950. This is the Savannah River Site.
    What you can see is the average over many, many years was 
approximately $5 billion. Okay. This is thebuildup that 
occurred, if you will, in the 1980s and the green is what we are doing 
now, what we are spending now for the cleanup of Hanford, Savannah 
River, and Rocky Flats. These are the dollars we are talking about to 
maintain the stockpile.
    Mr. Fazio. Deferred maintenance, perhaps you can say?
    Dr. Reis. You know, this is deferred maintenance and in my 
discussions with Jim Schlesinger and several other people, they 
said, gee, they could always get money for whatever they 
wanted, but maintenance was something that was very, very 
difficult on a year-to-year basis to fund. So that is where we 
are now.
    This is what we are talking about. This is the $4 billion, 
basically put into context. So the first idea is, no, this 
isn't much more than we were paying for, if you will, back 
here. It is less. All right? But it is still a lot. You know, 
this is still a lot.
    The second question is, why? Why is it necessary to do 
this? One is, we are trying to keep the weapons in our 
stockpile forever. Okay? It is just very, very difficult to 
continue. They are very complex, as you know, and the task is 
to keep them working, to keep their performance up, keep their 
safety up, indefinitely, forever. Okay?
    That is a very, very difficult job because these weapons 
are now, all of them, are getting beyond their designed life. 
It is very difficult to do that. As you know, you know, in your 
own experiences, when you buy spare parts for an automobile, it 
costs you more than having done them because, you know, it is a 
different, if you will, it is a different manufacturing base. 
They have to do the work to different specifications. In some 
sense, it is a much more difficult problem.
    While we have the lights dimmed, let me show the other 
viewgraph (Chart 4).
    [The information follows:]

[Page 535--The official Committee record contains additional material here.]


    Dr. Reis. This is, in essence, what the problem is all 
about. And this is why we hear you talking about a decade. 
These are all the weapons in the stockpile that we expect to 
have. [Deleted.]
    What you are seeing in green here, this one on these 
weapons, is that is the design life, the field life for which 
those weapons were designed to deal with.
    As you can see, when you go yellow, what that means is the 
first of those weapons, the oldest of those weapons, are now 
starting to go to an era where we just don't have that 
experience. By the time you get to 10 or so years from now, 
what you see is just about every weapon in the stockpile will 
be beyond its designed life. That is one problem that you have 
never had to deal with before.
    The second problem is one also that people don't recognize, 
and that is very, very important, and why many of these new 
tools, many of these new facilities, are necessary to bring up 
at the rate at which we are trying to bring them up. That is 
why we need the computing going as rapidly as we have to go, 
and that is why we need some of the other facilities as rapidly 
as we are asking for them.
    This is the designer experience, and what that means is 
this is the number of designers that exist at the two weapons 
laboratories, the two weapons design laboratories. This is the 
Lawrence Livermore National Laboratory. The lighter is the Los 
Alamos National Laboratory. This is the number designed this 
time, the shots at which they had experience in. These people 
are retiring. So the numbers of weapons designers and the shots 
that they--not just years service but how many real weapon 
shots that they have actually participated in, that is drying--
you know, that is also going away. These people are going to 
retire.
    At the same time, you are in the process of making the 
weapons beyond their design life or transition zone, if you 
will, but restore their field life, which is what we are trying 
to do. The experienced people who have to make those 
assessments, make those judgments and do it without testing, 
they are also going away. That is why the rate of this problem 
is so difficult. That is why we are pushing so hard on getting 
the computers, the experiments, because they have to be 
validated while these people still are around to be able to 
say, yes, that makes sense to us.
    That is why this program is very different from any other 
program you may have to face in a peacetime situation.
    In a wartime situation, this is pretty obvious. But in a 
peacetime situation, it is this time urgency that I think that 
makes this program difficult, because the people who have the 
confidence are going away at the same time the weapons are 
getting old.
    Now, again, the reason we are relatively optimistic about 
all of this is that we are doing it now. In other words, we 
haven't waited until 10 years and then said, oh, well, now we 
will give you a chance. That is why your question was a good 
one, because we are working this problem. We are basically 
working this problem now.
    As we get further and further downstream, as we get further 
and further from the last test that we have had, the problems 
get more difficult. The people are going away and the tools 
have to be better because the problems get more and more 
difficult.
    This isn't exactly a sound bite but I think it is----
    Mr. Fazio. I can tell you the modern media would notcall 
that a sound bite.
    Dr. Reis. That is right. But I really do think it is 
important that you understand. I did get my opportunity to make 
a sound bite. During the Cold War we were fighting against the 
Soviet Union. Now our enemy is mother nature. It is mother 
nature here; all right? And it is mother nature here.
    If you remember the other curve I put up, Mr. Chairman, was 
with the tritium, because what you are seeing is somewhere 
between the year 2005, 2010, the tritium is running out. The 
designers are retiring and all the weapons will be beyond their 
designed lifetime.
    This isn't just laboratories now. We are going to have the 
plants available to start replacing every one of those parts. 
The way we do this is the same way you would do, again, with 
your automobile. When the battery runs down you don't buy a new 
one. You replace the battery. When the transmission goes, you 
know, that sort of thing, you go out and do a new transmission. 
We have to produce that in the factories that we are working, 
and at the same time we have got to downsize and we are 
basically downsizing those and modernizing those factories. So 
that is what is giving you, the quote, you know, the $40 
billion over 10 years. I think that is our best estimate of 
about what it takes to do basically--that type of a process. It 
is a very, very difficult job.

                       national ignition facility

    Mr. Fazio. Let me go into something a little more specific. 
You know, this committee historically has been burned on a 
number of issues, from Clinch River to the Super Collider. So 
there is a residual sensitivity, at least on the part of some 
of the carryover staff and Members.
    We had an estimate that the total cost of NIF would be $1.2 
billion. It has been revised upward by $125 million from the 
original estimates made in 1994.
    Can you give us some feel for what caused that increase and 
how firm we may be on the costs that currently are ascribed to 
that very essential project part of your entire program?
    Dr. Reis. The initial briefing, of course, was just based 
on a concept, a conceptual review. What we have done now is go 
through a lot of detail. I can give you a specific list just 
handed to me in terms of what drove the change in cost, such as 
changing the size of the amplifiers, and I will submit that for 
the record.
    [The information follows:]

                       National Ignition Facility

    Previous estimates were based on a conceptual design only. 
This estimate is based on much more detailed Title I 
engineering. That said, the cost estimate based on the 
conceptual design proved to be quite accurate. Changes to the 
NIF cost estimate were driven by scope changes to improve 
project utility and site-specific requirements. These cost 
changes are due to added and modified components in the Title I 
detailed engineering design rather than to increases in the 
costs of specific components, which were accurately costed in 
the previous Conceptual Design. These changes were managed 
through the Department's disciplined baseline change control 
process as described in the NIF Project Execution Plan. We have 
established effective management control systems to track 
actual expenditures against established baselines.
    We have given extra care to validating design concepts of 
the NIF (through the Beamlet laser prototype experiments), 
details in the design work, and costing basis. Costs were 
derived in a ``bottom up'' estimate at the lowest Work 
Breakdown Structure level necessary for accuracy. The Automated 
Estimating System developed by Martin Marietta Systems, Inc. 
was used to calculate costs for the project taking into 
consideration schedule, contingency and escalation data. A 
probabilistic contingency analysis was conducted by the Bechtel 
Corporation using the Microrac Monte Carlo code. Cost 
escalation was based on DOE published rates for general 
construction and defense programs. The Independent Cost 
Estimate team from Foster Wheeler USA for the Title I design 
found that ``the overall variance between the Independent Cost 
Estimate and the Project Office Total Estimated Cost and Other 
Project Cost is negligible,'' and was actually within less than 
1 percent of the new project baseline. That result for the 
Title I design is similar to the result for the previous 
Conceptual Design; both cost estimates are believed to be 
accurate but the design was modified.
    The NIF design now has been frozen and no further changes 
are anticipated.

    Dr. Reis. I think the real answer to your question is that 
we have now gone through a lot of detail. We have had a lot of 
independent assessment of that. What we are trying to do with 
the National Ignition Facility, Congressman, is to go through 
this early to assure you that there are not any things lurking 
in the background that are going to bite you, because we are 
certain we have been very sensitive to that, as is this 
Committee, and I am reminded of it. I have heard more about 
Clinch River from this committee than I think I knew about--
than I knew existed before I came to the Department of Energy.
    But we are very sensitive to that particular situation, 
particularly on the National Ignition Facility, because that is 
a major new scientific advancement. It is one of the biggest 
programs that the Department has on the books that it is going 
foward. So we have been very, very sensitive to that.
    We are comfortable, for example, and that is the big chunk 
of this Defense Asset Acquisition Account, and that would put 
in place the dollars now, rather than try to do it on an 
incremental basis. So we have assured ourselves that if this is 
the number we get, the number is as good as possible.
    I think what history tells you on programs that succeed and 
those that don't succeed, is that if you do the up-frontwork 
carefully, if you put the money in up front to ensure yourself that you 
have got the right design, you have got the right team in place, that 
you have a much higher probability of succeeding within that cost and 
within that schedule.
    I would point out to you that the predecessor laser NOVA 
was brought in under cost at Livermore and was successful. I 
believe the laboratory--the Department of Energy, in terms of 
the Thomas Jefferson machine down in Norfolk, Virginia, was 
brought in successfully. I believe several of the light sources 
that have been completed have also been brought in 
successfully. They are approximately the same size as this 
device.
    So, with the exception of the Superconducting Super 
Collider, which is not part of it, again, I think the 
Department can show that of those devices that are 
approximately the same size as the National Ignition Facility, 
why we have a pretty good record. And I think many of those 
people were, you know, we vetted our National Ignition Facility 
design with a lot of those people. I am certainly comfortable 
that we have done everything we can to ensure ourselves that 
those costs are--what you see is what you will get.
    Mr. Fazio. Well, let me just say in the environment we are 
operating in, I think the degree to which we can prevent any 
further cost creep will be very fundamental to our success in 
getting this project through the process. And I hope we really 
have firmed it up to the point where we are not going to 
experience any more of that because it just erodes the minimal 
amount of confidence that the Congress has in staying the 
course on some of these over time expensive issues.
    Let me just ask briefly on the environmental issues, you 
know there are a lot of people who oppose NIF in the local 
community in northern California. Is there any plausible 
environmental risk to this facility?
    Dr. Reis. No, sir.
    Mr. Fazio. Or is it just another organizing effort that is 
purely political?
    Dr. Reis. We have been very, very careful on that. As you 
know, we have really gone an extra mile, and I think that is 
part of the Department's approach on problems. In general, it 
is certainly to go an extra mile on environmental affairs. We 
do bring in not just experts but we work very, very hard with 
the local community to ensure ourselves that, one, we feel 
comfortable that we are doing the right thing and, second, that 
the local community feels comfortable that we are doing the 
right thing.
    Our experience, while there are certainly antinuclear 
activitists who are concerned about this, in terms of working 
with all of the local civic people, the mayors of all the 
towns, the local officials and many of the local groups have 
been very, very supportive of what we are trying to do at the 
National Ignition Facility.

                        next generation internet

    Mr. Fazio. I know some people may want to bring up the leak 
at Brookhaven later on today. I will leave that. I just wanted 
to ask one question about computing capacity. Is there any 
potential for interaction with the new computer development 
initiative, the so-called Next Generation Internet, that the 
Office of Energy Research at the Department of Energy is 
engaged in? Is there any way to find some opportunities to 
collaborate as we talk about the new supercomputer capacity 
that you are trying to develop under your stockpile stewardship 
program?
    Dr. Reis. I am sure there will be. I will point out to you 
two things. One, all of the computers that we are dealing with 
here have been designed, to start out with, to be able to 
handle both classified and unclassified material. Much of what 
we are doing now obviously is the classified work since we are 
pushing very hard to make sure that we work on real problems 
that we have. But every one of them have been designed to do 
both of those, to be able to change over within half an hour or 
an hour or so, which is really quite remarkable, to be able to 
go from fully classified, the highest classified work, to 
unclassified in that period of time.
    While much of the work we are doing is classified, there is 
still a fair amount of work that can be done. We are looking at 
not just the work in energy research, but even a broader 
community in terms of the academic community which could be 
able to participate with the ASCI problem.
    Where you run into, if you will, a potential mismatch is 
that we are moving on a very, very accelerated schedule, and 
you can see why. We have to get this going over basically the 
next 10 years. Other people who are, again, anxious to 
participate in that are not working quite on that level of 
schedule. If you don't do an experiment on global climate or 
something this year or next year, the one year doesn't 
necessarily make that much difference.
    So when people ask me why isn't there more collaboration, 
because everybody, literally everybody can use that level of 
computing, it really does have to do with this mismatch in 
terms of the rate at which we have to push forward, and that is 
what we are focusing on.
    But I expect over time you will see a good deal of 
collaboration between what we are doing not only in energy 
research, but certainly with our friends in the Defense 
Departmentand in the government and in academia across the 
country.
    Mr. Fazio. Without wanting to slow you down, we obviously 
have to stimulate the others who want to participate because I 
think there are opportunities here for savings that the 
government can't afford to miss.
    Dr. Reis. We have discussed this with just on that much, to 
Dan Goldin at NASA, to have NASA participate as well. I expect 
that will be happening. We discussed this with John Deutch, 
when he was Director of the Central Intelligence Agency; Anita 
Jones, and Paul Kaminski in the Defense Department. I have 
talked to people at the Federal Aviation Administration. So we 
really do expect to see a good deal of collaboration occurring 
over time.
    But, you know, we expect to be the leaders in that.
    Mr. Fazio. Thank you, Mr. Chairman.
    Mr. McDade. The gentleman from Michigan.

                         plutonium disposition

    Mr. Knollenberg. Mr. Chairman, thank you very kindly.
    Gentlemen, welcome. I am glad to have you here. I want to 
talk about the disposition of weapons grade nuclear material. I 
have traveled, as some members of the committee have, to 
various parts of the world, Japan, to France, to Chernobyl, 
Russia, within the State, within the States, I should say, to 
Hanford, Rocky Flats and certainly Savannah. And I think this 
question might be for Mr. Baker, although anyone can chime in 
on it.
    I understand we have had some testimony previously that we 
are on a dual track in terms of the plutonium disposition and 
with that we have both the vitrification and MOX fuel methods. 
That is still the case, is it not? We are still dual tracked?
    Mr. Baker. Yes, sir.
    Mr. Knollenberg. Obviously, the MOX fuel process appeals to 
a lot of us because there is a peaceful disposition of the 
plutonium, and I know that the Russians are suspicious of our 
vitrification process because that suggests that we may want to 
use it again at some point rather than getting rid of it. And 
they have kind of been on hold, I think, to some extent, to see 
exactly how sincere we are about our dual track approach.
    Can you tell us--well, first of all, do all of you support 
the dual track process? I assume you do.
    Mr. Baker. Oh, yes, sir.
    Mr. McDade. Will the gentleman yield for one second before 
he puts the question there?
    Mr. Knollenberg. Yes, sir.
    Mr. McDade. There is a gentleman in the room, Mr. Canter. 
Mr. Canter, would you come up and join the panel, please.
    He handles the program directly.
    Mr. Knollenberg. I guess the question, then--you are in the 
hot seat. The question is: What is being done right now? Can 
you give me some tangible support, of being on track or being 
involved in both of those courses of action, both the MOX fuel 
approach and the glass vitrification?
    Mr. Canter. For the U.S. side of the program or working 
with the Russians?
    Mr. Knollenberg. Well, you can give me on both counts 
because I am particularly interested in, of course, the Russian 
side.
    Mr. Canter. All right. Well, on the U.S. side, what we are 
doing right now is proceeding to make preparations to implement 
both tracks. With regard to the immobilization option, we have 
experimental work being done at a number of laboratories, 
Lawrence Livermore, at Savannah River, at Pacific Northwest 
Labs, and at Argonne, to select the right formulation for the 
material.
    The method that we have selected now, although we are not 
done yet with confirmation of this, is what we call the ``can-
in-canister,'' and this allows us to save----
    Mr. Knollenberg. I didn't get that. What was that again?
    Mr. Canter. ``Can-in-canister.'' This is where we 
immobilize the plutonium material in either a glass or ceramic 
and we put it in small, approximately 2 liter cans, and those 
cans are then suspended in a framework.
    Mr. Knollenberg. I have seen all of that.
    Mr. Canter. Okay.
    Mr. Knollenberg. That I am familiar with. You can speed 
through that.
    Mr. Canter. All right. And so we are doing some experiments 
on the formulation that will go in those cans. We are 
redesigning the can itself so that it is more proliferation 
resistant, and we will eventually get to full size tests of 
that process.
    The main purpose of this is to avoid the costs of building 
a large, expensive facility to handle high-level waste and 
immobilize. We can use the defense waste processing facility or 
any other facility that does that.
    On the reactor side, the MOX, we have started a program of 
fuel qualification. It is small-scale tests and experiments 
right now. Eventually, later this year, we will be making some 
mixed oxide fuel at Los Alamos that will be tested in the 
advanced test reactor in Idaho.
    We have initiated an effort to prepare--at the end of this 
month, we will be coming out in the Commerce Business Daily 
with a plan for procurement.
    We don't own the reactors so we have to go through a 
competitive procurement to select the reactor, to use it and to 
select a contractor or a number of contractors to design,obtain 
a license, construct and operate the mixed oxide fuel fabrication 
facility. That is all proceeding now as we speak.

                   disposition of plutonium in russia

    With the Russians, we have started an effort which last 
year produced an extensive report, which was a study on the 
methods that would be used for disposition of plutonium in 
Russia and compared it to the United States. That report, I 
think, although it was not a decision-making document, it was a 
document to lay forth some facts on the different methods that 
were evaluated in a consistent manner. It was a joint effort 
between us and the Russians. We published it in September or 
October.
    There are some important points in that report in the 
summary. One was that the Russians agreed that no matter what 
methods we use in the two nations, our objective would be to 
reduce down to equal levels of remaining plutonium. And that is 
very important, because we think they have a lot more than we 
have. So if they get rid of a ton when we get rid of a ton, 
when we get rid of all of ours, they still may have some 50 or 
100 tons.
    The other was that they agreed until such time as all the 
separated material is consumed there would be no recycle.
    Now, we know that they wrote that in there and then they 
must have thought a little bit about what they had agreed to, 
because they came back and tried for a little while to back 
away from that. But they have left it in place.
    There was an experts meeting in Paris the end of October 
where all the P-8 nations, the G-7 plus Russia, met as well as 
several other nations, and it drew certain technical 
conclusions that we are now working on.
    We have shifted our effort from a study phase to a small-
scale test and demonstration phase. I have got experiments 
going in Russia on some formulation of plutonium going into 
glass. They have some expertise. We are analyzing, with the 
Russians, their use of their VVER-1000 reactors, which are 
their large light water reactors, similar to U.S. reactors. 
They have seven of those in operation. They have agreed to 
consider using the 11 that are in the Ukraine, which gives you 
a substantial number, then and you can probably do a decent 
job. The seven wouldn't do it.
    We are doing an analysis with the Russians to convert their 
one fast reactor, which is the BN 600, from a breeder to a 
burner so it will consume more plutonium than it produces.
    We had, 2 weeks ago, a meeting of--we have this Joint 
Steering Committee with the Russians. On the Russian side, it 
is chaired by Deputy Minister, Egorov of MINATOM, and we met 
out at Los Alamos and came up with an agreement to proceed with 
the early work to develop a pilot scale pit disassembly and 
conversion facility in Russia. This will be a capability where 
the pits, the plutonium pits, is converted from metal to oxide.
    No matter what you do with the plutonium, you have to 
convert it to oxide. Once you convert it to oxide, it is 
essentially declassified and you could put it under 
international safeguards. So this will be a pilot scale 
facility. They don't have this capability. And we are starting 
this year with the feasibility and conceptual work, and next 
year hopefully get real design and procurement.
    We are working with them on that, and what we are hoping 
here is that within about 3 or 4 years, on a pilot scale, which 
is more than a little experiment, maybe 500 or 700 pits a year 
would be converted in both countries. If we need to do it 
bilaterally, we will have the capability at Los Alamos to do 
that. And this is a very significant step forward.
    Mr. Knollenberg. Are you encouraged by the steps that are 
being taken, and the progress?
    Mr. Canter. This recent step is very encouraging. Now, we 
still have to go through the process of negotiating a bilateral 
agreement of some kind with the Russians because, obviously, we 
don't want to go get rid of our material if they are not going 
to be getting rid of theirs.
    So that is where we are right now.

                      waste isolation pilot plant

    Mr. Knollenberg. I just have one quick question, too, Mr. 
Chairman, relative to--Mr. Alm is not here; is he?
    Mr. Canter. No.
    Mr. Knollenberg. Relative to WIPP. I understand that the 
DOE just announced a few days ago that there has been a delay 
in the start-up to sometime--it was originally going to be, I 
believe, in March of 1998, if I am not mistaken. Isn't that 
right? And now they are talking about May of 1998. Can you 
comment on why the delay?
    We get into these things and we have gotten some--and I am 
not questioning Mr. Alm I am sure he gave us everything on the 
basis of precisely what he knew, but I am just wondering what 
has developed since that stretches this out a little bit? 
Because these delays are the ones that cost money, too, in the 
long run.
    Mr. Canter. I think we will have to defer that question to 
Mr. Alm.
    Mr. McDade. Will the gentleman yield?
    Mr. Knollenberg. Be glad to.
    Mr. McDade. Why don't we take that for the record in detail 
and supply an answer, please, to the gentleman from Michigan 
under Mr. Alm's signature?
    Mr. Knollenberg. That would be appreciated. And I will 
conclude with that, Mr. Chairman. Thank you.
    Mr. Canter. I would like to provide the WIPP information 
for the record.
    [The information follows:]

                      Waste Isolation Pilot Plant

    The Department announced that it anticipates that the 
start-up date for the Waste Isolation Pilot Plant (WIPP) will 
be May 1998 rather than November 1997. This revision to the 
start-up date reflects the Environmental Protection Agency and 
the Department's current estimate of the schedule for: (1) 
EPA's review and evaluation of the Department's Compliance 
Certification Application; (2) DOE's submission and EPA's 
review of additional information requested by the Agency; and 
(3) EPA determining (through a rulemaking proceeding) whether 
WIPP will comply with the standards for disposal of radioactive 
wastes for 10,000 years. The Department will work with EPA to 
investigate ways to accelerate the schedule for operating WIPP. 
In addition, the State of New Mexico must grant a RCRA part B 
operating permit prior to opening WIPP. The Department 
submitted the permit application January 16, 1996.

    Mr. McDade. I would recognize the gentleman from Texas.

                               terrorism

    Mr. Edwards. Thank you, Mr. Chairman.
    Dr. Reis, Dr. Smith, Mr. Baker, thank you all for what you 
do, and the others in this room. I know these are subject 
matters that very few people want to talk about. There must be 
frustrations in not being able to even talk to your family 
members and friends about what you do day to day.
    While I will try not to take myself or most of us in 
Congress very seriously, most of the things we do don't have as 
much of an enormous impact on the world as we would like to 
think. Literally, those of you in this room are dealing with 
issues that could affect the survival of countries, cities or, 
you know, hundreds of millions of people or the future of the 
world. It probably wouldn't be exaggerating to say that. So 
thank you for what you do.
    Let me just ask, Mr. Baker, you, if I could, we haven't 
talked a lot about biological and chemical weapons as potential 
threats to this country. As a former member of the Defense 
Committee, I debated a lot about the issue of national missile 
defense against incoming ballistic missiles. We are going to 
spend probably billions on that, and I am not opposed to some 
groundbased limited system to protect us against rogue 
missiles, but the problem I have with building an extensive 
system was that you could spend $10, $20, $30, to $60 billion 
on that system and somebody could take a nuclear bomb, put it 
in a truck and park it in downtown Manhattan and you wouldn't 
know where it came from. If I were a terrorist, that would be 
my choice of delivery system, not an ICBM where the U.S. could 
identify where it came from and how to destroy my Nation.
    Tell me, in terms of nuclear material smuggling, and then I 
would like to ask about biological questions, do we know for a 
fact that there have been x number of ounces or pounds of 
weapons grade nuclear material smuggled out of the former 
Soviet Union?

                      nuclear materials protection

    Mr. Baker. We monitor that as closely as we can, 
Congressman Edwards. The Russians right now have, as I said, 
1,200 metric tons of highly enriched uranium, which you can 
build 48,000 bombs. It is the size of one Hiroshima. They have 
200 metric tons of plutonium, which you can build another 
25,000 bombs. And as a matter of fact, I have got a picture of 
that that you could--you could put 5,333 cases of grapefruits 
the size of--all you need is about a grapefruit of HEU, highly 
enriched uranium, and a Coke can of plutonium to build a bomb.
    So you can--on the plutonium that we are trying to protect, 
you can--it takes 20--you can build 25,000 bombs, 4,166 6-packs 
of Coke, and all of this we are trying to protect at its source 
so this will not leak out.
    Now, we are watching the smuggling very closely. We are 
doing everything we can. We are watching the black market very 
closely. We get threats all the time on what is happening, and 
there are small things that have happened. But, again, the best 
way to protect this, and like some Members of Congress say, you 
are not working fast enough to get all this done, but after the 
Cold War is over, we are working as fast as we can with the 
money that is given to us by Congress to get all these fixed.
    So we are trying to protect it first at its source. If we 
can't protect it then, we are trying to protect it on its 
borders, on their borders. We are trying to make sure the 
Customs agents and everyone else are briefed and trained and 
have the technology that is available in our labs on nuclear 
smuggling, to protect it on their borders and then protect it, 
of course, on our borders as best we can. So we are doing 
everything we can.
    There have been small amounts smuggled through Germany and 
other places, but they have been arrested as far as we know. So 
it is being protected as best one can right now, with small 
smuggling cases. But, again, it is a very dangerous situation.
    Mr. Edwards. Let me ask, even our Department of Defense 
can't account for billions of dollars of equipment, not 
necessarily nuclear materials, but just an inventory system 
isdifficult to put in place.
    Does the former Soviet Union have--do those countries have 
an inventory system where we would even know for sure if 
nuclear grade materials were smuggled?
    Mr. Baker. The Russians had a--or the former Soviet Union 
had a bad inventory system. They couldn't tell you where all 
the material was located. However, with our materials 
protection control and accounting system that we are setting 
up, we are setting up an accounting system for them so that 
they can monitor where the nuclear material is. And so that 
they will have a system that knows exactly where it is at, 
modeling our system and how we track ours.
    So their system was a mess, because during the Cold War 
they had--the way they monitored their equipment, of course, 
was guard guarding guards. But after the Cold War was over, all 
these guards disappeared. And you may have one or two guards 
guarding it. So the accounting system was bad. But, again, we 
are fixing it right now as quickly as we can. They are working 
with us.
    The people of the former Soviet Union are just as concerned 
about this as we are. And they are working with us and together 
we are working this, again, trying to train them--we have got a 
school set up in Obninsk, Russia, to train all of these 
materials protection, control, and accounting people; also to 
train them on nuclear smuggling, and all of that is being done 
at a very quick pace.

                     protection of nuclear weapons

    Dr. Smith. Mr. Edwards, there is another aspect of the 
problem that I think the committee should be aware of, and that 
is your questions are quite properly aimed at the nuclear 
material but the same kinds of questions can be aimed at the 
nuclear weapons.
    Mr. Edwards. Right.
    Dr. Smith. It is under the Nunn-Lugar program that the 
Department of Defense is assisting the Russians to make sure 
they can keep track of every nuclear weapon they have.

                    protection of nuclear materials

    Mr. Edwards. Right. Very good. Thank you, Dr. Smith.
    Mr. Baker, do you still have that canister that you once 
showed me in which you could smuggle?
    Mr. Baker. Yes. I showed it to the Chairman yesterday, too.
    Yes. This is a plutonium pellet. You go into Obninsk, 
Russia, where we have secured things now, you find thousands of 
them. I don't want to say millions but you will find all kinds 
of these, and you can stick it right in your pocket, and, 
again, fill a Coke can full of these and you have got enough to 
make a bomb. It is very small and people can walk out with 
these very easily.
    And I am getting for you, Mr. Chairman, and Congressman 
Edwards, the cost of what it takes to make a bomb. And, you 
know, when the Russians----
    Mr. McDade. Nonnuclear?
    Mr. Baker. I am getting it for you, sir. You know, I will 
supply it to you.
    When the soldiers have not been paid, they see this amounts 
to a lot.
    Now, I would like to tell a story here. Deputy Secretary 
Curtis and I went 2 years ago to Kurchatov Institute, walked 
in, the soldier was half asleep. We walked inside, and inside 
this building were locker rooms just like you would find in any 
locker room with a bicycle lock on a locker. So we opened it 
up. And inside the locker was all kinds of highly enriched 
uranium laying in the locker.
    Now, Charlie walked out, Mr. Curtis walked out, and a 
soldier was driving a brand new Mercedes around the building. 
Charlie said it got his attention very quickly that how, when 
the soldiers do not get paid, how does this happen. But this is 
how loose some of this was.
    And what we did, we went to build this program, we went to 
the intelligence community and said, okay, which one of these--
which one of these facilities or how many facilities in Russia 
or the former Soviet Union are at risk of nuclear smuggling? 
And they gave us a number. We are working all of these.
    And again, I am happy to report to this committee today, 
thanks to this committee that has provided this money, that we 
are in all of these facilities now. We will not be finished 
until 2002, but we are working as quickly as we can. We are in 
all of these facilities. Some of them are very big, like 
Chelyabinsk-70, which has got a lot of facilities. This is a 
weapons facility, and it takes a long time to fix all of this. 
But, again, we have got their attention. We are working with 
them and it is a real national security problem.
    Mr. Edwards. Mr. Chairman, if I could be allowed an 
editorial comment, having come from the Defense Committee, we 
are spending--and I am a defense hawk and put myself up there 
with just about anybody from either party on defense, 
supporting defense programs. It seems that in some ways in the 
post-Cold War era we are going to need to redefine ``national 
security'' and ``defense programs'' and one bomber, one B-2 
bomber costs more money than your entire budget, and yet one of 
the great concerns I have is the threat of thugs getting hold 
of biological, chemical or nuclear weapons. At some point, I 
guess we are going to have to educate more Members of Congress 
and the public about how serious these threats could be.

                     threat from biological weapons

    Let me just finish with one last question. Again, we 
haven't talked about biological problems. I know there are many 
people who think biological threats can be more serious than 
even the nuclear threats, which concern me. As a newMember, and 
there are several new members of this committee, pick just one--pick a 
very lethal, biological product. Tell us what it could do to a city, 
and how a terrorist could expose a city and millions of people to that 
and then briefly summarize, if you could, what we are trying to do to 
stop that type of threat.
    Mr. Baker. Well, it is something like anthrax. You know, 
there are many ways that that can get in. It can get into 
pipes, get into the air, get into--just many ways that 
terrorists could bring something like this in.
    Now, you know, we are working very hard. The lead on this, 
of course, is the Defense Department. Dr. Smith has the 
chemical/biological area.
    Now, let me tell you what we are doing to help him to fix 
this biological problem and also the chemical problem.
    Last year, the Nunn-Lugar II Defense Authorization Act gave 
to the Department of Energy $17 million to do some work on 
this; we are really concerned. This is even a bigger threat 
than the nuclear threat, many people feel, because we haven't 
done that much work in the biological area.
    What we did, we looked at the gaps that were made in the 
defense program. They are indeed the gaps that are made, and 
how can we fill those gaps which have high payoff? And what we 
are doing right now, we are assessing and developing and 
validating plume models to predict how chemical/biological 
agents are disbursed.
    If you put one in New York City, as you asked, sir, or some 
place else, how do these things disburse? How many people will 
be affected? There is not a real good estimate right now, so we 
are working on that. How many will be at risk with this?
    Also, we are worried about the battlefield. We are trying 
to work stand-off sensors, how to build stand-off sensors so 
before you go into the area you know what you are going into. 
There is chemical--there is biological stuff there. We are 
trying to build these stand-off sensors.
    Another thing we are doing, we are building point sensors, 
sensors very close to you, what effect they would have on 
people.
    So we are trying to fill--and I will let Dr. Smith tell how 
well we are doing on this, we are trying to fill these gaps 
that are critical. And, Mr. Chairman, I can say that for $17 
million, I have never seen 10 labs work so hard for $17 million 
on proposals to come in, here is how to do this; here is how to 
build this stuff. So it is the community together.
    And we went to the customer and said, here is what we can 
do for you; here is big payoff. And I think with the money that 
we will have this year that we can go on.
    But to answer how big an area this can affect, we are 
working that right now.
    Mr. Edwards. Well, I appreciate your answer. But just to 
put it in perspective, pick a worst case scenario, Dr. Smith or 
Mr. Baker, New York City, I don't know what a thug, you know, a 
terrorist would do, but the worst case scenario, where they 
wanted to kill the most number of people. I know this isn't 
pleasant to talk about, but we need to be aware of it. They put 
it in the water supply or somehow disbursed in the air anthrax, 
how many millions of people would you kill? What are your 
estimates?
    Dr. Smith. [Deleted.]
    Dr. Edwards. [Deleted.]
    Dr. Smith. [Deleted.]
    Dr. Edwards. [Deleted.]
    Dr. Smith. [Deleted.]
    I guess the way I would summarize it is that we have to 
protect this society at every stage. One stage, of course, Mr. 
Baker has already talked about, and that is bringing our world 
class laboratories to bear on what is a national problem. In 
the Defense Department, we have been worried, of course, about 
the battlefield. But the things that we have been developing to 
make sure our troops can detect, be protected, decontaminate, 
et cetera, including the medical consequences and the medical 
steps we can take, have some application to the kind of 
scenario that you are alluding to with New York.
    Under the Nunn-Lugar II bill, we are doing everything from 
buying detectors for the Customs Department to training the 
first responders, the fire fighters, the policemen, the 
hospitals. But I think one of the areas that we are most 
pleased with is the tens of millions that Mr. Baker mentioned 
that go to these fine laboratories where we are getting, I 
think, excellent support, primarily in the area of detection.
    After all, if you know that there is anthrax in the air, a 
surgical mask can provide wonderful protection, but you have go 
to know it is there. All the way through to the world of 
vaccinations, where those alleged nuclear weapons laboratories 
are, in fact, world leaders in the world of the Genome project, 
that is understanding the DNA and understanding what genetic 
engineering can do both negatively and positively.
    So that as Mr. Baker put it, he has never seen 10 
laboratories work so hard for $17 million. That is true. And I 
think your budget is going up. But the Defense Department is 
elated with the kind of fundamental support we are getting 
there.
    Mr. Edwards. Thank you. Thank you all for your comments. 
Mr. Chairman.
    Mr. Baker. Congressman, I have just one thing on radius of 
effect. I will provide to you and to the members of the 
committee a picture of the Oklahoma City--if we put the 
Oklahoma City bombing on Pennsylvania Avenue, the radius of 
effect that would have, and then with a 5 PSI, or a 1 kiloton 
nuclear weapon, what that would do to this city, to show you--
that is very small, very small. It is about 300 times as much 
as the Oklahoma City.
    Mr. McDade. Without objection, we will insert that in the 
record at this point, Mr. Baker, and we appreciate it.
    [The information follows:]


[Page 549--The official Committee record contains additional material here.]



    Mr. McDade. I am pleased to recognize the gentleman from 
Mississippi.
    Mr. Parker. I thank the Chairman.
    You know, I have heard everybody talk about how much they 
love each other around here in these closed hearings, and I 
want to let everybody know how much I love you.
    Dr. Smith. That is highly classified, sir.
    Mr. Parker. I know. Let's try to keep it classified.
    But, you know, a lot of this worries me. As a funeral 
director, one thing I have learned is no matter how bad it 
gets, it can get worse.
    But I am real concerned about a lot of different things. 
And, you know, I see this little brochure. It is a nice 
brochure, and on page 15 it has got a picture of a facility, 
and we are bragging, we are just tickled to death about a fence 
and some lights. I don't know about you all, but that doesn't 
instill a whole lot of confidence in me.
    I have listened to you, Mr. Baker. You have said, we are 
setting up. Now, that gives me the idea that it has not been 
set; it should have been set up but we are in the process of 
setting it, and ``as far as we know'' and ``we are doing 
everything we can,'' and ``we may,'' and ``as close as we 
can.'' I have heard all of those little phrases. And I just 
want you to know, no confidence has been instilled in me 
whatsoever.
    But we are also dealing, and I mean, when people come 
before a committee they tend to--exaggerations are--well, 
hyperbole is always used around here a lot.
    I mean, do any of you know at any time, and this may go to 
you, Dr. Smith, has the DOD ever underestimated the amount of 
money it needed on anything? Now, that is a rhetorical question 
by the way. But I don't think so.
    But that is true of DOD, and I don't want to leave anybody 
out. It is also true of DOE. It is true of any bureaucracy.
    Now, I have some real problems. You have got a--is it Reis, 
Dr. Reis?
    Dr. Reis. Reis.

                      weapon designers' experience

    Mr. Parker. Dr. Reis, you have got a--you had a thing up 
here on the board of a slide, and I am going to ask this 
question and I don't need a long answer. I mean, you just may 
say, well, Parker, you are just stupid so that is the problem. 
But let me just throw this out.
    Dr. Reis. I will be unlikely to say that, however, no 
matter how classified this gets.
    Mr. Parker. You had this in here where you had the red and 
the blue.
    Dr. Reis. Right.
    Mr. Parker. And the people at Los Alamos.
    Dr. Reis. That is right.
    Mr. Parker. And the different things, and these are how 
many people are getting away from actual testing.
    Dr. Reis. That is correct.
    Mr. Parker. Now, this is just me, but don't you still have 
the data from those tests?
    Dr. Reis. We do.
    Mr. Parker. So anything that anybody who is hired on, if he 
looks at the data, it is just the same; I mean, he doesn't have 
to be standing there while they blow the thing up to know what 
is going on? Even though he doesn't have the new modern tests, 
I mean, he has still got the data that started it. So, I mean, 
in actuality that is not really a real argument.
    Dr. Reis. The data itself is very complicated.
    Mr. Parker. Yes.
    Dr. Reis. It frequently is pictures, radiographs. 
Frequently that data no longer exists. We are getting back to 
confidence. I think that is really where you are putting your 
finger on it, because that is what we are talking about here.
    Would you trust somebody who has just looked at all data or 
would you trust somebody who has really worked with that data 
in the past? It isn't the same thing as looking at--you know, 
let me try to draw an analogy, because looking at x-rays, 
right, you go to your doctor, he knows you, you know him, and 
he looks at an x-ray, he understands your situation, that is 
very much the same thing as the one who isdealing with the old 
pictures here. In fact, we are looking very frequently at old x-rays; 
not the same thing as you are taking that x-ray and just giving it to 
someone who is an intern at a medical school, who says, well, the data 
is there. Right?
    We are really talking about arts here. It isn't all 
science. You are not just looking at a map that says, gee, I am 
looking at a map that is 20 years old or 30 years old. It is 
approximately the same thing. This is extraordinarily highly 
skilled, very difficult problems that one dealt with in the 
past.
    Again, we are classified here. There are still many issues 
that we just don't understand even looking at those old data. 
We put in fudge factors.
    Mr. Parker. I am going to tell you----
    Dr. Reis. I beg your pardon?
    Mr. Parker. I must tell you that some of the things that 
you have told me about, some of these fudge factors, scare the 
heck out of me because you are supposed to be so smart, and you 
don't understand some of it?
    Dr. Reis. You bet.
    Mr. Parker. I am telling you that doesn't give an old 
fellow like me a lot of confidence because you are at a 
different level than I am. I don't understand this stuff. And 
whenever you start telling me that, well, we didn't know this 
gap was here----
    Dr. Reis. Right.
    Mr. Parker [continuing]. And it appears and we didn't know 
what effect it would have, that is a pretty serious thing to 
me.
    Dr. Reis. You bet. That is correct.

                           tritium production

    Mr. Parker. You know. Well, I could say something but, 
anyway. You made the mention--you talked about as far as 
tritium, producing tritium, you have got a new process and this 
process produced no side waste products, and there is no danger 
of meltdown or anything like that.
    Dr. Reis. Very little.
    Mr. Parker. I am interested to know, in this process, can 
you produce electricity by this process?
    Dr. Reis. No, sir.
    Mr. Parker. You can't do it?
    Dr. Reis. That is correct.
    Mr. Parker. It is just for the production of tritium?
    Dr. Reis. It is just for the production of tritium.
    Mr. Parker. I am going to tell you, if the decision is made 
on these two tracks where you decide to buy a reactor, I have 
got one for sale, and I just want you to be aware of that. I at 
least want first refusal on this thing.
    Dr. Reis. Well, you have got----
    Mr. Parker. A reactor.
    Dr. Reis. Well, yes, I am sure we will be hearing from you, 
then, over the next 6 months.

            materials protection, control and accountability

    Mr. Parker. Well, it cost way too much. You pay more than 
what it is really worth, but I mean, you know, that is all part 
of it.
    I am interested in this thing on Russia and the former 
Soviet Union, how much can we trust the information we have 
got. It seems to me that we don't have a handle on any of this; 
that there are so many unknowns out there, and it doesn't take 
but a small amount of the unknown to get us into a world of 
trouble.
    Mr. Baker. Let me say this, Congressman, we think that we 
have worked this thing as hard as one can. [Deleted.]
    Mr. Parker. But you don't know.
    Mr. Baker. This is what our intelligence has, to the best 
of our knowledge.
    Mr. Parker. Well, our intelligence told us a lot about the 
Persian Gulf and everything else. I mean, you know, 
intelligence means a lot of things to different people.
    Mr. Baker. This is one reason, sir, we are trying to 
protect this material at its source. You know, we are doing 
many things. We are not just putting fences up. We are putting 
radiation detection systems in, We are putting computer systems 
in. We are putting bar codes in. We are putting monitoring----
    Mr. Parker. You are not doing anything that hasn't already 
happened, though, right?
    Mr. Baker. No, sir.
    But the question is, do we let all of this material, 1,200 
metric tons of HEU and 200 metric tons of plutonium that is 
over there--just when the Intelligence Committee says this is 
at risk of nuclear smuggling, don't we try to help the Russians 
fix this?
    And it has been a partnership. I have been over there many 
times. We have worked with them. They want our help. They do 
not--they did not have the automation that we had because it 
was guards guarding guards during the Cold War.
    Mr. Parker. Let me ask you a question.
    Mr. Baker. Yes, sir.
    Mr. Parker. Do they have a gold reserve?
    Mr. Baker. Do they have a gold reserve?
    Mr. Parker. Of course, they have a gold reserve. They do. 
Do you think they got people watching that gold so they can 
tell you how much gold they got?
    Somewhere along the way--you know, we got people watching. 
We have pretty close tabs on it. People do what they want to 
do. Every time one of my kids asks, I say, ``Son, people do 
what they want to do.'' When people come up to me and say, 
after the election, I didn't support you, fine, but people do 
what they want to do.
    The point is the former Soviet Union, Russia, they put 
emphasis where they want to put emphasis. I am very much 
concerned about that.
    I am not saying that we shouldn't move forward. I have 
voted consistently to put money in this and be able to go over 
there and do what they have not been able to afford to do and 
what they have not cared to do in our best interests. I want to 
make the right decision.

                            inactive reserve

    [Deleted.]
    Dr. Reis. That is correct.
    Mr. Parker. The top part was dark blue and inactive. The 
bottom was light blue and it was active.
    [Deleted.]
    Dr. Reis. That is correct.
    Mr. Parker. How much of this $4 billion as far as 
continuation and of the $40 billion do we--we have to do 
something to maintain the inactive.
    Dr. Reis. [Deleted.]
    Mr. Parker. [Deleted.]
    Dr. Reis. It is a little hard to separate one from the 
other. As far as we are concerned in the Department of Energy.
    Mr. Parker. You have to look at both of them?
    Dr. Reis. Yes, we have to look at both of them because as 
part of the strategy what is inactive may change. They have to 
be ready.
    Mr. Parker. This is going to simplify it for me. This is a 
simple statement. [Deleted.]
    Dr. Reis. No, it doesn't.
    Mr. Parker. How much does it take to destroy the world?
    Dr. Reis. I think the argument is how many does it take to 
avoid nuclear war. That is the right question.
    Mr. Parker. [Deleted.]
    A bureaucracy is a self-perpetuating entity and as--I am 
not talking about as a Congressman--as an American citizen, I 
have seen through the years where this bureaucracy has been 
perpetuating itself. I am not talking about DOD and DOE; I am 
talking about everything, perpetuating itself. [Deleted.]
    I mean, there comes a point when dead is dead and I mean--
and I know the former Soviet Union, Russia, has got more than 
we have got, but at the same time I mean there comes a point 
where you cut it off.
    Would you like to respond to that?
    Dr. Smith. First of all, I want to say that Dr. Reis should 
not be the brunt of the questioning that the DOD is responsible 
for.
    Mr. Parker. I told you I loved all of you. I didn't want 
you to feel you were the brunt of anything.
    Dr. Reis. I feel perfectly comfortable, but the Department 
of Defense sets that number and our job is to----
    Mr. Parker. To meet the number
    Dr. Reis. To meet the number.
    Mr. Parker. Dr. Smith, what is the problem?
    Dr. Smith. I feel loved as well.
    The fact is we are maintaining the lead and hedge strategy. 
The fact is there are two large bureaucracies, Russia and the 
United States, but there is another factor I want to consider 
is the size of the arsenal has dropped precipitously over the 
last few years and if the negotiations which are a function of 
the Department of State are successful, and I personally think 
they will be, the number of warheads will continue to drop. But 
for the time being----

                             stockpile size

    Mr. Parker. Wait now, the number of warheads that are 
active will continue to drop?
    Dr. Smith. No, we can look forward to a future I think 
where the number of warheads, active and inactive, will drop. 
That will certainly be the case if START III comes to fruition, 
as it has been seriously discussed at the highest levels of 
government. But in the interim, Russia has not ratified START 
II, and therefore, I think the Department of Defense is quite 
sensible in ensuring that we have an active plus inactive 
stockpile enough to meet the START I conditions which has been 
ratified by Russia.
    I feel comfortable both with the strategy and the resultant 
requirements we have given DOE, and as a citizen I also feel 
comfortable with the rate they have been coming down, and I 
look forward to a future where they will continue to come down.
    Mr. Parker. Let me say, I don't want to do anything from a 
unilateral nature. The biggest problem I have is that we have 
no idea; we have got some guesses but we don't know for sure 
everything Russia has got.
    We don't know what they have in place from the standpoint 
of a lot of nuclear materials. That just scares me. We should 
know more.
    I realize that it is not your function to know some of 
that. Our intelligence should have picked that up in the past, 
but I am a little disappointed in our intelligence, too, and 
our lack of intelligence. In both meanings.
    Mr. Baker. I can't quote on the lack of intelligence. I 
think it has been fairly good, sir, but I tell you one thing, 
when I go home at night and look at my wife and my kids and I 
know how easy it is to get some nuclear material and how easy 
it is that you and I could put a bomb together, just pull a 
book, if we got plutonium and we got highly enriched uranium, 
we would put one together in a short time. It may be crude but 
it would absolutely wipe out this town.
    That is why we have got to do everything we can to do what 
we know, and we may not know everything, but to do what we know 
in Russia. I couldn't even--I couldn't even go home and tell my 
family how loose that stuff is over there. It would scare the 
American public if you tell them.
    We have got to do something about it, and we are doing 
everything we can I think that we know to get this done. We 
have men working nights, days, weekends and everything else. 
[Deleted.]
    When you look at your family, it really comes home that if 
one ever goes off somewhere, and believe me, I think--I used to 
be in the war-planning business, war-planning advisor to the 
President for years. We wrote the book: Here are your options, 
Mr. President, here is what you can do. I did that for 5 years.
    I tell you right now my personal opinion, just like Jim 
Woolsey's personal opinion, there is a higher probability of a 
nuclear weapon going off today than there was back in the Cold 
War just because of this loose nuclear material.
    It scares me to death when I got a family and small kids 
and small grandkids, also.
    Mr. Parker. I want you to know you helped my feelings a 
lot. Mr. Chairman.
    Mr. McDade. We thank the gentleman for his very useful 
questioning.
    Gentlemen, we are--you will not be surprised to hear--going 
to submit to you a series of questions we want you to answer in 
detail and with specificity for the record. We do not expect to 
have you back again. If that eventually is required, we will 
let you know.
    We thank you very much for your very useful testimony. 
Thank you.
    We will recess, subject to the call of the Chair.
    [The prepared statement of Mr. Howard Canter and the 
questions and answers for the record follow:]

[Pages 556 - 1236--The official Committee record contains additional material here.]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Alm, A.L.........................................................     1
Baker, K.E.......................................................   481
Barrett, L.H.....................................................     1
Canter, H.R......................................................1, 481
Reis, Dr. V.H....................................................   481
Smith, Dr. H.P., Jr..............................................   481





                               I N D E X

                              ----------                              

                          DEPARTMENT OF ENERGY

   Environmental Management and Civilian Radioactive Waste Management

                                                                   Page
Albuquerque--Program Management..................................   231
Biography--Alvin Alm.............................................    41
Biography--Lake Barrett..........................................    63
Caretaking Costs Associated with Shut Down Reactors..............   332
Carlsbad Environmental Research and Monitoring Center............   252
Civilian Radioactive Waste Management Program:
    Waste Acceptance Obligation..................................   322
    Waste Acceptance--Contract Holders Reactions.................   420
    Waste Acceptance--Status of Litigation.......................   326
    Cooperative Agreements.......................................   365
    Interim Storage Legislation..................................   324
    Interim Storage........................................82, 107, 331
    Dollars Managed per Federal Employee.........................   372
    Correspondence Tracking System...............................   377
    Funding for HBCUs............................................   376
    Support for EM Activities....................................   375
    FTEs.........................................................   373
    Obstacles to Transportation and Interim Storage..............   327
    Private Efforts to Site Interim Storage Facility in Utah.....   340
    Privatization Proposals......................................   359
    Transportation Safety........................................   363
    Transportation Expenditures..................................   368
    Utility Input Regrading Acceptance of........................   325
    Expected Litigation..........................................   456
    Waste Acceptance Litigation..................................   452
    Non Site-Specific Work on Interim Storage....................   453
Compliance Agreements with States................................   297
Corps of Engineers Role in Environmental Management..............   305
Defense Authorization Act: section 3161 (Workforce Restructuring)
                                                           77, 404, 406
Defense Nuclear Waste Disposal--Balance Owed by Defense Programs.   342
Domestic Technology Integration Program..........................   268
Energy Technology and Engineering Center Funding.................   267
Environmental Management:
    Accomplishments..............................................    65
    Accomplishments and Budget...................................   112
    Budget Authority and Outlays.................................   120
    Closure Projects.............................................   298
    Compliance Agreements with States............................   297
    Compliance Requirements......................................   434
    Construction Projects Legal Requirements.....................   314
    Contractor Employee Separation Costs.........................   200
    Cost by Office...............................................   280
    Domestic Technology Integration Program......................   268
    Field Support................................................   295
    Funding for HBCUs............................................   315
    Future Land Use..............................................   303
    International Technology Integration Program.................   273
    Large Site Remediation Activities............................   204
    Legislative Challenges.......................................   197
    Milestones and Compliance Related Activities.................   296
    Outyear Funding..............................................    70
    Baseline Evaluation of Costs.................................   403
    Program Director.............................................   304
    Stabilization of Contractor Workforce........................   201
    Support Service Contractors..................................   281
    Unfunded Requirements........................................   306
    University Research Program in Robotics......................   276
Environmental Remediation--Use of Pentaborane....................   277
External Regulation by the Nuclear Regulatory Commission.........   446
Fast Flux Test Facility (FFTF)..................................78, 410
Fast Flux Test Facility and Energy Technology Engineering Center 
  Funding........................................................   267
Foreign Research Reactor Spent Fuel Program......................   255
Formerly Utilized Sites Remedial Action Program (FUSRAP):
    $100 Million Budget Increase.................................   448
    Acceleration...............................................101, 233
    Program Management Costs.....................................   428
    Budget Request...............................................   425
    Wayne Site.......................................424, 426, 427, 429
    Activities by Site...........................................   236
Future Land Use of Clean Up Sites..............................116, 303
GAO Findings on State of Nevada Misuse of Government Funds.......   336
GAO Report on End Land Use.......................................    70
Gaseous Diffusion Sites..........................................   278
Geologic Disposal................................................    81
Hanford Waste Vitrification Project............................126, 129
Hazardous Waste Legislation......................................    79
High-Level and Low-Level Waste Sites.............................   412
High-Level Waste from Reprocessing...............................   262
Idaho--Contract Employment Increases.............................   312
International Technology Development Program.....................   273
Large Site Remediation Activities................................   204
Legal Requirements for Construction Projects.....................   314
Nuclear Material and Facility Stabilization--Can DOE Handle in 
  Timely Manner?.................................................   264
Nuclear Material and Facility Stabilization--Spent Fuel Disposal 
  in Repository..................................................   260
Nuclear Regulatory Commission Regulations........................   106
Nuclear Waste Fund:
    Adequacy of Utility Fee......................................   109
    Adequacy of Fee to Construct Repository......................   328
    Decreasing Payments into Funds as Nuclear Plants Shut Down...   330
    Utility Lawsuit..............................................    83
    Utility Lawsuit and Fund Balance.............................   422
Nuclear Waste Repository--Capacity of............................   265
Outyear Funding Levels...........................................   120
Pentaborane for Environmental Remediation........................   277
Pit 9 at Idaho.................................................195, 407
Plutonium--Protecting Excess Materials...........................   199
Privatization...................................................98, 130
    Best Use of Government Funds?................................   118
    Budget Authority Profiles....................................    94
    Congressional Role in Long-Term Projects.....................   433
    Contracts....................................................    86
    Data Sheets for Projects.....................................   135
    Federal Government's Liability for Privatized Projects.......   100
    Level of Technical Complexity by Project.....................    88
    Management and Oversight.....................................   432
    Management of................................................    84
    Outlays Versus Base Program Outlays..........................   119
    Permitting Process...........................................    88
    Priority and Technical Difficulty of Projects................   123
    Private Financing by Contractors.............................    96
    Project Data Sheets..........................................   134
    Regulatory Drivers as Cost Drivers...........................    92
    Tank Waste Remediation System (TWRS).........................   406
    Why Choose Complex Projects Among First Privatization 
      Efforts?...................................................   122
    Yucca Mountain Activities....................................   359
Program Management Costs.........................................   231
Project Closure Fund.......................................76, 105, 298
Radioactive Waste Sites..........................................   412
Reprocessing--Alternative Technologies to........................   266
Richland--Duplicative Groundwater Monitoring Activities..........   430
Richland--Groundwater Monitoring.................................   203
Richland--Program Management.....................................   202
Robotics.........................................................   276
Savannah River Site Canyons....................................261, 408
Savannah River Site Funding......................................   409
Spent Fuel Containers--Utility Reimbursement for.................   370
Spent Nuclear Fuel:
    Disposal...................................................260, 265
    Foreign Research Reactor Program.............................   255
    International Disposal of....................................    75
    Reprocessing Needs.........................................259, 262
    Safely Shipping..............................................   369
    Types and Location of........................................   257
State of Nevada Lawsuit..........................................   335
Statement--Oral--Alvin Alm.......................................     1
Statement--Oral--Lake Barrett....................................    42
Statement--Written--Alvin Alm....................................     4
Statement--Written--Lake Barrett.................................    46
Tank Waste Remediation System Privatization......................   406
Technology Development...........................................   268
Ten Year Plan..............................................75, 198, 379
    Stretch Goals................................................   400
    Total Cost Estimate..........................................   111
    Total Cleanup Cost...........................................    64
    Validation of................................................   399
University Research Program in Robotics..........................   276
Uranium Mill Tailings Remedial Action (UMTRA)--Groundwater 
  Program........................................................   244
Uranium/Thorium Reimbursement Program............................   279
Ward Valley......................................................   447
Waste Acceptance:
    Acceleration of..............................................   465
    Storage and Transportation--Budget Needed for Privatization..   455
    Storage and Transportation--Market Driven Approach...........   454
    Storage and Transportation...................................   362
Waste Disposal Programs--Comparison of International.............   333
Waste Isolation Pilot Plant (WIPP)...............................    77
Waste Isolation Pilot Plant (WIPP)--Funding and Activity 
  Description....................................................   246
Waste Measurements--Comparison of Civilian and Defense Fuel 
  Measurements...................................................   341
Waste Repository--Nuclear Regulatory Commission Construction 
  Permit.........................................................   449
Waste Repository--Permanent Closure of the,......................   450
Waste Storage--At Reactor Storage for Up to 100 Years............   451
Waste Vitrification..............................................    74
Yucca Mountain:
    EPA Radiation Standards......................................   349
    Biological and Cultural Resources............................   350
    Budget Justification.........................................   358
    Characterization.............................................   343
    Civilian and Defense Fuel Measurements.......................   341
    Completion of 5 Mile Exploratory Studies Facility............   344
    Expenditures for Biological Resources........................   351
    Findings on Potential Earthquake or Volcano Activity.........   347
    Viability Assessment.........................................   462
    FY 1998 Socioeconomic Plans..................................   353
    GAO Report on State of Nevada Activities.....................   336
    Hydrology....................................................   345
    In-Situ Heater Tests.........................................   346
    Information Gained from Viability Assessment.................   461
    Interim Storage and Transportation...........................    75
    International Interactions at................................   378
    Payments to States and Local Government......................   371
    Placement of Nuclear Waste...................................   421
    Plans for Additional Excavation..............................   356
    Plans to Safeguard the Repository............................   355
    Privatization................................................   359
    Program FTEs.................................................   373
    Repository Schedule..........................................   108
    Schedule.....................................................   106
    Socioeconomic Monitoring.....................................   352
    State of Nevada Lawsuit......................................   335
    Status of the Tunnel Boring Machine..........................   460
    Technical Assessment.........................................   459
    Technical Uncertainties......................................    83
    Transportation Plans.........................................   364
    Tunnel Boring................................................   463
    Viability Assessment Completion Milestone....................   464

                  Nuclear Waste Technical Review Board

Budget Request...................................................   466

                          DEPARTMENT OF ENERGY

                    Atomic Energy Defense Activities

Accelerated Strategic Computing Facility (ASCI)................530, 999
120 Day Study..................................................592, 962
Accelerated Strategic Computing Initiative.....................531, 577
Advanced Computational Technology Initiative (ACTI)..............   944
Aging Weapons and Designers......................................   535
Amarillo National Resource Center for Plutonium................601, 993
American Textiles Partnership (AMTEX)............................   945
Annual Certification of Nuclear Weapons Stockpile Memorandum...484, 515
Asset Sales......................................................   934
Biography--Howard Canter.........................................   562
Biography--Kenneth Baker.........................................   514
Biography--Vic Reis..............................................   503
Biological Weapons, Threat from..................................   547
Chemical and Biological Weapons Program........................571, 946
Chernobyl--Health Effects and Consequences.......................   682
Classification--Number of Pages Classified and Declassified Per 
  Year...........................................................   636
Construction Project Funding.....................................   953
Contractor Employee Reductions and Cost Table....................   703
Contractor Employment Table......................................   687
Declassification Efforts.........................................   631
Declassification--Executive Order 12958..........................   634
Defense Authorization Act: Section 3161--Benefits................   974
Defense Authorization Act: Section 3162--Activities Performed in 
  Support of.....................................................   680
Defense Environmental, Safety and Health--Budget Request.........   679
Defense Programs--Budget Request.................................   524
Defense Programs--Technology Transfer............................   586
Defense Related Reimbursable Activities..........................   594
Economic Development Administration's Defense Adjustment 
  Assistance Program.............................................   705
Economic Development Initiatives...............................693, 698
Education Activities.............................................   596
Electrometallurgical.............................................   672
Emergency Operations--Crosscut...................................   650
Emergency Operations--Federal Employees..........................   653
Emergency Operations--Support Service Contractors................   655
Emergency Operations--Tests at HAZMAT Spill Center...............   657
Employee and Contractor Concerns.................................   937
Employee Separation Costs........................................   972
Employee Separations at Former Nuclear Weapons Sites--Reasons for   975
Environment, Safety and Health...................................   679
Environment, Safety and Health--Support Service Contractors......   684
External Regulation............................................681, 988
Fissile Materials--Inventory of Surplus Weapons Usable Fissile 
  Materials......................................................   674
Galvin Report....................................................   963
Guard Forces--Size of and Expenditures...........................   643
Health Effects.................................................680, 682
Inactive Reserve.................................................   553
Infrastructure Funding...........................................   994
Initiatives for Proliferation Prevention (IPP) Program.........505, 616
Inspector General Audit--April 1996..............................   970
International Nuclear Safety Center..............................   664
International Nuclear Safety--Funding for Newly Independent 
  States.........................................................   667
International Nuclear Safety Program--Funding Information........   666
International Nuclear Safety--Program Management Activities......   668
Involuntary Separation Packages..................................   981
Laboratory Directed Research and Development (LDRD)............592, 713
Loose Nuclear Materials and Nuclear Weapons......................   949
Management and Operating (M&O) Employees.........................   961
Materials, Protection, Control and Accountability..............552, 612
National Conversion Pilot Project................................   706
National Ignition Facility.....................................537, 605
National Laboratories............................................   969
Next Generation Internet.......................................539, 940
Nonproliferation and National Security--Support Service 
  Contractors....................................................   659
Nonproliferation--Funding Supporting Russia or Other Newly 
  Independent States.............................................   610
North Korea Spent Fuel Canning Program...........................   628
Nuclear Materials Protection.....................................   544
Nuclear Safeguards and Security--Most and Least Likely Threats...   630
Nuclear Safeguards and Security--Total Cost Estimate.............   633
Nuclear Technology Research and Development......................   669
Pantex Plant...................................................993, 997
Pantex Storage Facility..........................................   996
Partnership for a New Generation of Vehicles.....................   941
Petroleum Imports................................................   708
Plutonium--Current Options for Disposing of Excess Inventories...   678
Plutonium Disposition............................................   540
Plutonium Disposition in Russia................................542, 676
Plutonium Disposition--Mixed Oxide Fuel..........................   986
Price Anderson Amendments Act....................................   989
Reduced Enrichment for Research and Test Reactor Program.........   614
Russian Programs...............................................574, 676
Russian Scientists ``Brain Drain''...............................   948
Safeguards and Security--Annual Assessment on the Status of......   710
Safeguards and Security--Funding Crosscut........................   640
Safety Analysis Reports..........................................   990
Safety of Facilities--Roles and Responsibilities of Federal 
  Employees......................................................   991
Sale of Supercomputers to Russia.................................   607
Savings from Departmental Initiatives--$14.1 Billion.............   712
Science and Education............................................   943
Security Investigations--Location and Number of Clearances.......   645
Separated Employees--Educational Opportunities...................   983
Soviet-Designed Reactor Safety...................................   951
START III........................................................   565
Statement--Oral--Dr. Harold Smith................................   515
Statement--Oral--Kenneth Baker...................................   504
Statement--Oral--Dr. Victor Reis.................................   481
Statement--Written--Dr. Harold Smith.............................   518
Statement--Written--Howard Canter................................   556
Statement--Written--Kenneth Baker................................   508
Statement--Written--Dr. Victor Reis..............................   487
Stockpile--Active/Inactive.......................................   526
Stockpile Safety, Security and Reliability.......................   580
Stockpile Size...................................................   554
Stockpile Stewardship.....................................529, 532, 566
Strategic Alignment Initiative Savings--$14.1 Billion............   712
Subcritical Experiments at the Nevada Test Site..................   569
Supercomputer Sales to Russia....................................   607
Surplus Facilities--Responsibility for...........................   992
Surplus Weapons--Usable Fissile Materials........................   674
Technology Transfer..............................................   586
Terrorism......................................................544, 548
Terrorist Use of Chemical and Biological Weapons.................   571
Tritium--Dual Track Program......................................   527
Tritium Production...............................................   551
Tritium Supply............................................524, 564, 581
U.S. Global Climate Challenge Research Program...................   952
Underground Nuclear Testing......................................   578
United States Enrichment Corporation.............................   677
Uranium..........................................................   677
Voluntary Separation Packages..................................976, 978
W76..............................................................   529
Waste Isolation Pilot Plant (WIPP)...............................   543
Weapon Designers' Experience.....................................   550
Weapons Activities--Funding......................................   947
Weapons Activities--Funding for Safety and Reliability of 
  Stockpile......................................................   563
Weapons Activities--Greatest Concerns............................   568
Weapons Activities--Impact of START III discussions on DOE 
  Program........................................................   565
Weapons Laboratories--Cooperative Programs with Russia...........   574
Worker and Community Transition..................................   696
Workforce Restructuring and Community Transition Table...........   685
Workforce Restructuring Funding................................971, 977
Workforce Restructuring Report...................................   985
Workforce Transition and Economic Development Funding............   693
Year 2000 Computer Information Changes...........................   711

                Defense Nuclear Facilities Safety Board

Annual Report....................................................  1147
Biographies of Board Members.....................................  1042
Budget Request...................................................  1062
Government Performance and Results Act...........................  1046
Letter from John T. Conway, Chairman.............................  1006
Questions for the Record.........................................  1046
Statement for the Record.........................................  1009

                                <all>
</pre></body></html>
